No.
In The

Supreme Court of the United States
RICKEY LEON SCOTT
Petitioner,
v.
ERIC ARNOLD, WARDEN OF CALIFORNIA
STATE PRISON, SOLANO
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
PETITION FOR WRIT OF CERTIORARI

STEVEN A. HIRSCH
Counsel of Record
KEKER, VAN NEST & PETERS, LLP
633 Battery Street
San Francisco, CA 94111
SHirsch@keker.com
(415) 391-5400

1610259

i
QUESTIONS PRESENTED FOR REVIEW
1

When a Justice contributes the necessary fifth vote to a majority opin-

ion but also writes a concurrence interpreting that opinion, should lower courts disregard the concurrence and rely exclusively on the majority opinion to discern the
holding in the case (as the Seventh Circuit and sometimes the Fourth Circuit have
held); or should they grant the concurrence precedential weight (as the Third and
Fifth Circuits, and sometimes the Ninth Circuit, have held)? And should the concurrence be granted precedential weight only if it is “narrower” than the majority opinion, per the rule in Marks v. United States, 430 U.S. 188, 193 (1977)?
2.

For purposes of applying the Antiterrorism and Effective Death Pen-

alty Act of 1996, 28 U.S.C. § 2254(d)(1), did this Court’s decision in McDonough
Power Equipment, Inc. v. Greenwood, 464 U.S. 548 (1984)—when read in light of the
concurrence by Justice Blackmun, who also provided the fifth vote for the majority
opinion—“clearly establish” that a defendant must be granted a new trial when a
juror’s dishonest voir dire responses concealed information that would have given
the defendant a valid basis to challenge that juror for implied bias?

1610259

ii
RELATED PROCEEDINGS
•

People v. Scott, MCN: 12003786, SCN: 219205. Superior Court of California,
County of California. Judgment entered Sept. 24, 2013.

•

People v. Scott, No. A139921, Court of Appeal of the State of California, First
Appellate District, Division Five. Judgment entered July 24, 2015.

•

People v. Scott, No. S229031, Supreme Court of California. Review denied,
Nov. 10, 2015.

•

Scott v. Arnold, No. 16-cv-06584-JST, U.S. District Court for the Northern
District of California. Judgment entered Aug. 24, 2018.

•

Scott v. Arnold, No. 18-16761, U.S. Court of Appeals for the Ninth Circuit.
Judgment entered June 22, 2020, rehearing denied, Aug. 14, 2020

1610259

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED FOR REVIEW .................................................................. i
RELATED PROCEEDINGS.......................................................................................... ii
TABLE OF CONTENTS ............................................................................................... iii
TABLE OF APPENDICES ........................................................................................... iv
TABLE OF AUTHORITIES .......................................................................................... v
PETITION FOR WRIT OF CERTIORARI ................................................................... 1
OPINIONS BELOW ...................................................................................................... 1
JURISDICTION............................................................................................................. 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED ....................... 1
INTRODUCTION .......................................................................................................... 2
STATEMENT OF THE CASE ....................................................................................... 7
A.

B.

Legal background ..................................................................................... 7
1.

Actual versus implied juror bias ................................................... 7

2.

AEDPA and the McDonough rule ................................................. 8

Factual background ................................................................................ 13

REASONS FOR GRANTING THE WRIT .................................................................. 16
I.

The Circuits are divided on how to treat a concurrence by a
Justice who contributed the necessary fifth vote to a majority
opinion—a question bearing directly on the interpretation of
the McDonough rule ............................................................................... 16

II.

Resolving the questions presented here will furnish lower
courts with important guidance on how to discern holdings in
a broad range of cases, both criminal and civil ..................................... 24

III.

This case is an excellent vehicle for deciding the questions
presented ................................................................................................ 26

IV.

Because it ignored the McDonough concurrences, the Ninth
Circuit erroneously saw legal uncertainty where none exists.............. 28

CONCLUSION............................................................................................................. 31
1610259

iv
TABLE OF APPENDICES
APPENDIX A — DECISION OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT, FILED JUNE 22, 2020
APPENDIX B — DECISION OF THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT OF CALIFORNIA,
FILED AUGUST 24, 2018
APPENDIX C — DECISION OF THE COURT OF APPEAL OF THE
STATE OF CALIFORNIA, FIRST APPELLATE DISTRICT,
DIVISION FIVE, DATED JANUARY 30, 2019
APPENDIX D — DECISION OF THE SUPERIOR COURT OF
CALIFORNIA, DATED APRIL 1, 2019
APPENDIX E — ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT DENYING PETITION FOR
REHEARING EN BANC, DATED AUGUST 14, 2020
APPENDIX F — RELEVANT CONSTITUTIONAL AND STATUTORY
PROVISIONS

1610259

v
TABLE OF AUTHORITIES
Page(s)
Cases:
B.H. ex rel. Hawk v. Easton Area Sch. Dist.,
725 F.3d 293 (3d Cir. 2013) ........................................................................ 19, 20
Batson v. Kentucky,
476 U.S. 79 (1986) ............................................................................................... 7
Burdine v. Johnson,
262 F.3d 336 (5th Cir. 2001) ....................................................................... 16, 29
Coleman v. Thompson,
501 U.S. 722 (1991) ..................................................................................... 26, 27
Conaway v. Polk,
453 F.3d 567 (4th Cir. 2006) ............................................................................. 20
Coughlin v. Tailhook Ass’n,
112 F.3d 1052 (9th Cir. 1997) ........................................................................... 21
Dyer v. Calderon,
151 F.3d 970 (9th Cir. 1998) (en banc) ......................................................passim
Entergy Nuclear Fitzpatrick, LLC v. United States,
93 Fed. Cl. 739 (2010), adhered to on denial of reconsideration,
101 Fed. Cl. 464 (2011), aff’d, 711 F.3d 1382 (Fed. Cir. 2013) ................... 20
Fields v. Brown,
503 F.3d 755 (9th Cir. 2007) (en banc) ............................................................. 16
Fitzgerald v. Greene,
150 F.3d 357 (4th Cir. 1998) ............................................................................. 16
Foster v. Chatman,
136 S. Ct. 1737 (2016) ......................................................................................... 7
Grutter v. Bollinger,
539 U.S. 306 (2003) ........................................................................................... 22
Hedlund v. Ryan,
854 F.3d 557 (9th Cir. 2017) ............................................................................. 27
Hughes v. United States,
138 S.Ct. 1765 (2018) .................................................................................... 5, 22
1610259

vi
James v. Kentucky,
466 U.S. 341 (2011) ........................................................................................... 26
Kernan v. Cuero,
138 S. Ct. 4, 9 (2017) ........................................................................................... 8
King v. Palmer,
950 F.2d 771 (D.C. Cir. 1991) ........................................................................... 22
Lopez v. Smith,
574 U.S. 1 (2014) ................................................................................................. 8
Marks v. United States,
430 U.S. 188 (1977) ................................................................................. 4, 17, 20
Martin v. Medtronic, Inc.,
254 F.3d 573 (5th Cir. 2001) ............................................................................. 19
McDonough Power Equipment, Inc. v. Greenwood,
464 U.S. 548 (1984) ....................................................................................passim
McKoy v. North Carolina,
494 U.S. 433 (1990) ........................................................................... 2, 18, 19, 23
Mills v. Maryland,
486 U.S. 367 (1988) ........................................................................................... 18
Nichols v. United States,
511 U.S. 738 (1994) ........................................................................................... 22
Nuxoll ex rel. Nuxoll v. Indian Prairie Sch. Dist. # 204,
523 F.3d 668 (7th Cir. 2008) ............................................................................. 20
Panetti v. Quarterman,
551 U.S. 930 (2007) ..................................................................................... 17, 21
People v. Ledesma,
39 Cal. 4th 641 (2006) ................................................................................. 14, 27
Ponce v. Socorro Indep. Sch. Dist.,
508 F.3d 765 (5th Cir. 2007) ....................................................................... 19, 20
Pope v. Man-Data, Inc.,
209 F.3d 1161 (9th Cir. 2000) ..................................................................... 15, 21
Scott v. Arnold,
962 F.3d 1128 (9th Cir. 2020) ........................................................................... 14

1610259

vii
Smith v. Phillips,
455 U.S. 209 (1982) ........................................................................................... 24
United States v. Davis,
825 F.3d 1014 (9th Cir. 2016) ........................................................................... 22
United States v. Doke,
171 F.3d 240 (5th Cir. 1999) ............................................................................. 16
United States v. Duvall,
740 F.3d 604 (D.C. Cir. 2013) ........................................................................... 20
United States v. Johnson,
467 F.3d 56 (1st Cir. 2006) ............................................................................... 22
United States v. Mitchell,
690 F.3d 137 (3d Cir. 2012) ................................................................................ 7
United States v. Sterling,
724 F.3d 482 (4th Cir. 2013) ............................................................................. 20
United States v. Tucker,
137 F.3d 1016 (8th Cir. 1998) ........................................................................... 16
United States v. Tucker,
243 F.3d 499 (8th Cir. 2001) ............................................................................. 16
United States v. Wood,
299 U.S. 123 (1936) ............................................................................................. 8
Walker v. Martin,
562 U.S. 307 (2011) ........................................................................................... 27
Warger v. Shauers,
574 U.S. 40 (2014) ................................................................................. 13, 24, 28
Williams v. Taylor,
529 U.S. 362, 412 (2000) ..................................................................................... 8

Statutes and Rules:
United States Constitution, Sixth Amendment ........................................................... 1
28 U.S.C. § 1254 ............................................................................................................. 1
28 U.S.C. § 2254 ..................................................................................................... 1, 3, 8
Cal. Code Civ. Proc. § 225.......................................................................................... 1, 7
1610259

viii
Cal. Code Civ. Proc. § 229.....................................................................................passim
Cal. R. Ct. 8.1116 ......................................................................................................... 27

Miscellaneous:
Melissa M. Berry, Seeking Clarity in the Federal Habeas Fog: Determining
What Constitutes "Clearly Established" Law Under the Antiterrorism
and Effective Death Penalty Act, 54 CATH. U. L. REV. 747 (2005) ................... 22
Richard M. Re, Beyond the Marks Rule, 132 HARV. L. REV. 1942 (2019) .................. 21

1610259

1
PETITION FOR WRIT OF CERTIORARI
Rickey Leon Scott petitions for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Ninth Circuit.
OPINIONS BELOW
The decision of the Ninth Circuit (App. A) is reported at 962 F.3d 1128. The
decision of the District Court (App. B) is reported at 322 F.Supp.3d 978. The decision of the California Court of Appeal (App. C) is unreported but available at 2015
WL 4505784. The decision of the California Superior Court (App. D) is unreported.
JURISDICTION
The Ninth Circuit entered judgment on June 22, 2020 and denied Mr. Scott’s
petition for rehearing en banc on August 14, 2020. App. A at 1; App. E. This Court’s
March 19, 2020 Order extended the time to file this petition to January 11, 2021.1
This Court has jurisdiction under 28 U.S.C. § 1254(1). The district court had jurisdiction under 28 U.S.C. § 2254(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The full, verbatim texts of the following provisions are set forth in Appendix
F: (1) United States Constitution, Sixth Amendment; (2) 28 U.S.C. § 2254; (3) California Code of Civil Procedure § 225; and (4) California Code of Civil Procedure
§ 229.

1

See https://www.supremecourt.gov/orders/courtorders/031920zr_d1o3.pdf.

1610259

2
INTRODUCTION2
This case presents the Court with an opportunity to resolve an explicit circuit
split, recognized in published decisions by the circuits themselves,3 on a fundamental interpretive issue that can be easily resolved by adopting a common-sense rule.
The question prompting the circuit split is: What legal rule does a Supreme
Court decision establish when a Justice contributes the necessary fifth vote to a majority opinion but also writes separately to express his or her interpretation of that
opinion? More specifically: Should lower courts disregard the concurring Justice’s
“gloss” on the majority opinion (as the Seventh Circuit and sometimes the Fourth
Circuit have held), or should they treat the concurrence as affecting the holding and
therefore having precedential weight (as the Third and Fifth Circuits and sometimes the Ninth Circuit have held)? And does the concurrence’s precedential significance turn on whether the fifth Justice’s interpretation is a “narrowing” one? These
issues were raised by two Justices in McKoy v. North Carolina, 494 U.S. 433 (1990),
but were never resolved. See Part I, infra.
Due to a lack of guidance on the McKoy question, lower courts have no rule
by which to determine whether this Court’s decision in McDonough Power

Throughout this brief, unless otherwise indicated, (1) emphases were added to, and internal punctuation, citations, and footnotes were omitted from, quotations; (2) page numbers within citations to
the Appendix (“App. at __”) refer to the original pagination of the document in question and not to
any “ER” numbers or other forms of pagination appearing therein; (3) “Part __” refers to a Part
within the “Reasons for Granting the Writ” section and “Statement, Part __” refers to a Part within
the “Statement of the Case” section.
2

3

See pp. 19–20, infra.

1610259

3
Equipment, Inc. v. Greenwood, 464 U.S. 548 (1984), “clearly established” for AEDPA
purposes4 that a defendant should be granted a new trial when a juror’s dishonest
voir dire responses concealed information that would have given the defendant a
valid basis to challenge that juror for implied bias.5 Although a concurrence by Justice Blackmun (who also provided the fifth vote for the majority opinion) leaves no
doubt that the answer is “yes,” some courts, including the Ninth Circuit in this case,
have analyzed McDonough without taking any account of the Blackmun concurrence—because no interpretive rule tells them that they must. The fault lies not in
McDonough itself, whose holding is perfectly clear if one gives the Blackmun concurrence its due, but in the lack of any authoritative rule for discerning the holding
in all cases where a majority opinion is accompanied by an explanatory concurrence
authored by the “linchpin” fifth Justice. McDonough’s holding certainly is no less
clear than that of other cases meeting this description.
These questions merit the Court’s attention for two reasons.

The Antiterrorism and Effective Death Penalty Act of 1996, 28 U.S.C. § 2254(d)(1) (“AEDPA”), provides that a federal court may not grant a state prisoner habeas relief unless the state court’s adjudication of the prisoner’s claim of error “was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the United States.” See
Statement, Part A.2., infra.
4

As explained in the Statement, Part A.1., infra, an implied-bias challenge requires proof of objective
circumstances that could prevent a typical juror from deciding impartially. Once those objective circumstances have been proved, the court must presume conclusively that the juror is biased. “Actual”
bias, by contrast, requires proof that the juror was subjectively disposed to cast a vote against the
defendant. See generally Dyer v. Calderon, 151 F.3d 970, 981–82 (9th Cir. 1998) (en banc).
5

1610259

4
First, the Court has acknowledged that the existing framework for discerning the holdings of fragmented decisions—the so-called Marks rule—is a bad fit for
many cases; and it has never decided whether Marks, which was designed to deal
with situations involving plurality opinions, extends to cases where a majority opinion exists but is interpreted by the separate opinion of the Justice who provided the
necessary fifth vote for the majority opinion. See Part I, infra.
Marks held that “[w]hen a fragmented Court decides a case and no single rationale explaining the result enjoys the assent of five Justices the holding of the
Court may be viewed as that position taken by those Members who concurred in the
judgments on the narrowest grounds.” Marks v. United States, 430 U.S. 188, 193
(1977). But Marks is a particularly bad fit as applied to McDonough, where the
“linchpin Justice” (joined by two others) wrote separately to give the majority opinion a particular interpretation, and the majority did not dispute that interpretation.
Indeed, in McDonough, a second concurrence reinforced the interpretation proffered
by the first. Under those circumstances, it makes little sense to apply Marks by attempting to determine which of the three opinions is “narrowest.”
Petitioner does not call for the wholesale abandonment of the Marks standard
and its replacement with some all-encompassing meta-rule, but rather for the type
of “clarification and . . . refinement” that Justice Alito recognized as potentially

1610259

5
beneficial at the 2018 argument in Hughes v. United States.6 As Justice Breyer
noted at that argument, “law is part art and part science” and there are “no absolute rules” for “how to read an opinion.”7 This is an area where it seems advisable to
make cautious and incremental moves that neither undermine nor alter vast bodies
of existing precedent.
That said, 230 years is long enough to wait for a definitive rule on how to
read concurrences that interpret majority opinions. Petitioner therefore proposes
the following, common-sense rule: Lower courts should regard the concurrence by
the “linchpin” fifth Justice to be an accurate and thus controlling interpretation of
the majority opinion’s holding, unless the majority opinion objects to it. Here, the
majority raised no such objection, and therefore, Justice Blackmun’s view that
McDonough claims extend to the deprivation of all for-cause challenges, including
those founded on implied bias, represents the clear and easily discerned holding of
the case. As demonstrated infra at Part I, that is literally what a majority of the
McDonough Justices believed and expressed.
Second, McDonough is an important and often-cited decision that plays an
important role in guaranteeing the right to an impartial jury. Yet the failure to take
account of concurrences authored by a majority of the Court has led some courts,

Transcript of Oral Argument at 13, Hughes v. United States, 138 S.Ct. 1765 (2018) (No. 17-155)
[hereinafter Hughes Argument].
6

7

Hughes Argument at 32.

1610259

6
including the Ninth Circuit in this case, to give McDonough an excessively narrow
reading that arbitrarily denies litigants a remedy in a significant category of cases
where the right to an impartial jury has been seriously compromised—that is, cases
in which a juror’s dishonest voir dire responses deprived the defendant of a valid
challenge for implied bias. See Part II, infra.
This case is an excellent vehicle for deciding the questions presented. See
Part III, infra. Those questions must be reached and cannot be avoided, as there is
no way to decide Scott’s claim without evaluating the scope of McDonough’s holding,
and there is no way to do that without considering the content and precedential effect of the concurring opinions authored by a majority of the Court. Moreover, the
result reached by the state court was not authorized by any adequate and independent state-law ground. And the questions presented here are not clouded by any extraneous debates as to whether the implied-bias doctrine itself is clearly established
in federal law, because it is undisputed that Scott’s implied-bias challenge would
have been founded upon California’s implied-bias statute. In short, the questions
could not be more cleanly presented.
Finally, the Ninth Circuit’s decision was erroneous. See Part IV, infra. Reading McDonough in light of the Blackmun concurrence, there is nothing uncertain
about its holding, which clearly establishes Scott’s right to a new trial on the facts of
this case. And the Ninth Circuit never came to grips with the absurdity of its

1610259

7
proposed alternative reading of McDonough, which would require that a litigant
prove actual bias in order to trigger a presumption of actual bias.
For all these reasons and others set forth more fully below, the Court should
grant the petition.
STATEMENT OF THE CASE
A.

Legal background

1. Actual versus implied juror bias
Two major categories of juror-bias challenge exist: “for cause” and “peremptory.” For-cause challenges have to be explained, while peremptory challenges (subject to constitutional limitations8) do not. Batson v. Kentucky, 476 U.S. 79, 127
(1986) (Burger, C.J., dissenting).
A further distinction exists within the category of “for cause” challenges.
“Traditionally, courts have distinguished between two types of challenges for cause:
those based on actual bias, and those based on implied bias.” United States v. Mitchell, 690 F.3d 137, 142 (3d Cir. 2012).9 An actual-bias challenge requires proof that
the juror was subjectively “disposed to cast a vote against” the defendant; whereas
an implied-bias challenge requires proof of objective circumstances that could prevent a typical juror from deciding impartially. Dyer v. Calderon, 151 F.3d 970, 981
(9th Cir. 1998) (en banc). Once those “objective circumstances” have been proved,

8

See, e.g., Foster v. Chatman, 136 S. Ct. 1737, 1747 (2016).

See also CAL. CODE CIV. PROC. § 225(b)(1)(B) (categorizing implied-bias challenge as “for cause”);
id., § 229 (implied-bias challenge “may be taken for one or more of the following causes”).
9

1610259

8
the court must “presume conclusively” that the juror is biased. Id. at 982; see also
United States v. Wood, 299 U.S. 123, 133 (1936). Thus, there is no such thing as “rebuttable” implied bias. See Parts III & IV, infra.
2. AEDPA and the McDonough rule
AEDPA provides that a federal court may not grant a state prisoner habeas
relief unless the state court’s adjudication of the prisoner’s claim of error “was contrary to, or involved an unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United States.” 28 U.S.C. § 2254(d)(1).
The italicized phrase refers to “the holdings, as opposed to the dicta, of [Supreme
Court] decisions as of the time of the relevant state-court decision.” Williams v. Taylor, 529 U.S. 362, 412 (2000). Circuit precedent, state-court decisions, treatises, and
law-review articles do not constitute “clearly established Federal law, as determined
by the Supreme Court.” Kernan v. Cuero, 138 S. Ct. 4, 9 (2017). And Circuit precedent cannot be deployed to “refine or sharpen a general principle of Supreme Court
jurisprudence into a specific legal rule that [that] Court has not announced.” Lopez
v. Smith, 574 U.S. 1, 74 (2014).
In this case, the district court held that, for purposes of applying AEDPA,
this Court’s decision in McDonough Power Equipment, Inc. v. Greenwood, 464 U.S.
548 (1984), “clearly established” that a new trial is required where juror dishonesty
in voir dire concealed information that would have provided a valid basis for any
type of challenge “for cause”—including an implied-bias challenge.
1610259

9
But the Ninth Circuit reversed, finding McDonough’s majority opinion ambiguous on this point. See Statement, Part B., infra. In reaching that conclusion, however, the Ninth Circuit ignored two concurrences, authored by five justices, which
eliminated that ambiguity.
In McDonough, plaintiff Billy Greenwood and his parents sued McDonough, a
lawn-mower manufacturer, for injuries caused by one of its mowers. 464 U.S. at
549. During voir dire, potential jurors were asked whether they or any of their immediate family members had sustained any injuries that resulted in any disability
or prolonged pain or suffering. Id. at 550. One juror did not respond to the question
even though his son had sustained a broken leg due to an exploding tire. Id. at 550–
51. After a three-week trial, the jury returned a no-liability verdict in McDonough’s
favor. The Greenwoods moved for a new trial based in part on the juror’s failure to
respond in voir dire; but the court denied the motion. Id. at 551.
On appeal, the Tenth Circuit reversed, holding that a new trial is required
whenever a juror’s failure to disclose important information in response to a voir
dire question prejudices a party’s right to exercise peremptory challenges. Id. at 549.
This Court reversed. Writing for the majority, then-Justice Rehnquist observed that “[a] trial represents an important investment of private and social resources, and it ill serves the important end of finality to wipe the slate clean simply
to recreate the peremptory challenge process” because a juror provided a “mistaken,
though honest” answer in voir dire. Id. at 554–56.
1610259

10
Justice Rehnquist then announced that a new trial is required if a party can
“first demonstrate that a juror failed to answer honestly a material question on voir
dire, and then further show that a correct response would have provided a valid basis for a challenge for cause.” Id. at 556. The majority opinion listed no third prong
to this test—no requirement that the defendant prove “actual” bias in all cases or in
any case, and no exception to the new-trial rule where the lost for-cause challenge is
for implied bias.
The majority opinion’s two-part test diverged from the Tenth Circuit’s approach in two key respects: a new trial would be required only if the juror was dishonest, and only if the lost challenge was for cause, not merely peremptory. These
additions were deemed necessary because “[t]he motives for concealing information
may vary, but only those reasons that affect a juror’s impartiality can truly be said
to affect the fairness of a trial.” Id. In other words, while the reasons for raising a
peremptory challenge may have nothing to do with “[a] juror’s impartiality” and
thus may lack any bearing on the “fairness of a trial,” a challenge for cause usually
does implicate the juror’s impartiality and therefore does bear on the trial’s fairness—especially if the juror answered dishonestly. Id.
As discussed infra at Statement, Part B, it was this one sentence in the majority opinion (“[t]he motives for concealing information may vary, but only those reasons that affect a juror’s impartiality can truly be said to affect the fairness of a
trial”) that the Ninth Circuit in this case identified as preventing McDonough from
1610259

11
“clearly establish[ing]” a rule of law that could form the basis for a valid habeas
claim under AEDPA. The Ninth Circuit deemed that sentence ambiguous and as
therefore permitting lower courts reasonably to infer that a McDonough claim always requires a showing of actual bias (which the Court inaccurately referred to as
“accommodating a prejudice analysis”).10
But the Ninth Circuit ignored two concurring opinions signed by a total of
five Justices, which eliminated that uncertainty and made it clear that
McDonough’s holding encompasses cases involving both actual and implied bias,
and that the two doctrines entail entirely different and separate inquiries.
The Blackmun concurrence. Justice Blackmun, joined by Justices Stevens
and O’Connor, wrote separately to state that he “underst[ood] the [majority opinion’s] holding not to foreclose the normal avenue of . . . order[ing] a post-trial hearing at which the movant has the opportunity to demonstrate actual bias or, in exceptional circumstances, that the facts are such that bias is to be inferred.” Id. at
556–57. As lower courts have recognized, the Blackmun concurrence furnished the
“fifth, sixth, and seventh votes of [the McDonough] majority.” Dyer, 151 F.3d at 985.
The Brennan concurrence. Justice Brennan, joined by Justice Marshall,
concurred only in the judgment while observing that “the bias of a prospective juror
may be actual or implied; that is, it may be bias in fact or bias conclusively

See App. A at 8 (referring to “McDonough’s contested passage regarding dishonesty”); id at 6–7
(collecting cases that refer to that passage).
10

1610259

12
presumed as a matter of law.” McDonough, 464 U.S. at 558. “Therefore, for a court
to determine properly whether bias exists, it must consider at least two questions:
are there are any facts in the case suggesting that bias should be conclusively presumed; and, if not, is it more probable than not that the juror was actually biased
against the litigant.” Id.
The majority opinion took no issue with any of these statements.
The opinions of the five concurring Justices reveal that none of them would
have contributed the necessary fifth vote to the judgment—that is, each would have
become instead a dissenter—had they read the majority opinion as taking the radical step of arbitrarily eliminating a party’s ability to obtain a new trial where a juror’s dishonest voir dire responses concealed information that would have given the
defendant a valid basis to challenge the juror for implied bias. Justice Blackmun’s
concurrence expressly articulated his understanding that the majority opinion had
not taken that radical and arbitrary step. Both concurrences drew a firm line between actual and implied bias, emphasizing that they are analytically distinct inquiries. And the majority opinion objected to none of this.
Read in light of the concurrences, McDonough clearly established that a new
trial is required whenever juror dishonesty in voir dire conceals information that
would have provided a valid basis for any type of challenge “for cause”—including
an implied-bias challenge in which proof of specified objective circumstances results
in a conclusive presumption of bias, without regard to actual bias.
1610259

13
This Court confirmed this reading of McDonough in Warger v. Shauers, 574
U.S. 40 (2014), where the Court again articulated the McDonough two-part test
without mentioning any additional actual-bias requirement. See id. at 43–44.11
B.

Factual background

After a California jury returned a verdict of first-degree murder against petitioner Rickey Scott, his counsel learned that the jury foreperson had lied on the voir
dire questionnaire, concealing information that would have allowed Scott to show
that the juror must be disqualified for “implied bias” under California law. App. C
at 7–8, 10 (ER023–024, ER026).
Scott accordingly filed a new-trial motion invoking the rule in McDonough.12
Following a post-trial hearing, the superior court concluded that although the foreperson had failed to honestly answer a material question on voir dire, Scott was not
entitled to a new trial, as he had failed to prove that the foreperson harbored actual,
subjective bias against him. App. D at 26 (SER0230). The court denied Scott’s newtrial motion, entered judgment, and sentenced Scott to 86 years to life. App. C at 7
(SER023).
Scott appealed, but the California Court of Appeal affirmed. In a decision
that made no mention of either concurrence, the state court reasoned that

The Ninth Circuit mischaracterized Warger’s reaffirmation of the two-part test as dicta. Scott addressed this issue at some length below. See Appellee Rickey Leon Scott’s Answering Brief, Scott v.
Arnold, 962 F.3d 1128 (9th Cir. 2020) (No. 18-16761) (Dkt.14) at pp. 55–58 [hereinafter Scott Answer
Br.].
11

12

See App. C at 1, 7–8 (ER017, ER023–024).

1610259

14
McDonough does not compel a new trial when, under state law, a showing of implied bias can be, and is, “rebutted” by a showing that the juror lacked actual bias.
App. C at 17, 20 (ER033, ER036). Before the state court’s unpublished, noncitable
decision in this case, no American court, to petitioner’s knowledge, ever had held
that a finding of implied bias, once made, is “rebuttable” by a showing of lack of actual bias; indeed, California law treats actual and implied bias as entirely separate
inquiries.13 The California Supreme Court denied review. App. B at 1.
Scott next filed a petition for a writ of habeas corpus in the United States
District Court for the Northern District of California. App. B at 1. Relying in part on
the Blackmun concurrence,14 the district court granted Scott’s petition. Id. The court
rejected the State’s contention that McDonough requires a showing of actual bias,
noting that “none of the cases relied on by [the State] supports the proposition that
actual bias is required to warrant a new trial under McDonough” and that “[t]he
Ninth Circuit does not endorse that view, nor do [other out-of-circuit cases cited by
the State] create a circuit split.” App. B at 10–11.
In reaching that conclusion, the district court noted that Ninth Circuit precedent had “cited Justice Blackmun’s concurrence in McDonough for the proposition

See, e.g., People v. Ledesma, 39 Cal. 4th 641, 670 (2006). Scott argued to the Ninth Circuit that the
state court’s new “rebuttable implied bias” concept could not serve as an adequate and independent
state ground for upholding Scott’s conviction. See Scott Answer Br. at pp. 62–66 & Part III, infra.
The Ninth Circuit apparently agreed—yet mischaracterized California’s implied-bias statute (CAL.
CIV. PROC. CODE § 229, reproduced in App. F) as enacting a “rebuttable presumption.” App. A at 4.
13

14

See App. B at 9.

1610259

15
that a movant may ‘demonstrate actual bias, or, in exceptional circumstances, that
the facts are such that bias is to be inferred.’” App. B at p. 9 (quoting Pope v. ManData, Inc., 209 F.3d 1161, 1163 (9th Cir. 2000)) (emphasis added by district court).
The State appealed. In a decision that made no mention of either concurrence, the Ninth Circuit reversed the district court’s grant of habeas relief on the
ground that, for purposes of applying AEDPA, McDonough had not “clearly established” the new-trial rule that Scott invoked. App. A at 5–10. To the contrary, the
Ninth Circuit found, “McDonough leaves several outstanding questions unanswered, and the current case falls into an area where clarity is lacking.” Id. at 5.
The Ninth Circuit opined that it remained “unclear whether and to what extent the
United States Supreme Court recognizes distinctions between actual prejudice, implied prejudice, and ‘McDonough prejudice,’ and what showings for relief are required in each scenario.” Id. “Importantly,” wrote the Ninth Circuit, “our court and
other circuits have highlighted this remaining uncertainty and described
McDonough as accommodating a prejudice analysis” (by which the court apparently
meant “as requiring an actual-bias analysis”). Id. at 6; see Part IV, infra.
Scott filed a petition for rehearing en banc. His petition explained that importing an actual-bias requirement into an implied-bias inquiry would absurdly “require that the defendant, in effect, prove prejudice in order to receive a presumption

1610259

16
of prejudice.”15 Thus, it was patently unreasonable to read McDonough as countenancing a chimeric mashup of the two inquiries.
The petition further pointed out that the panel opinion not only read a nonexistent third (actual-bias) requirement into the majority opinion’s two-part test but
also “fail[ed] even to mention, let alone to carefully consider, the McDonough concurrences[.]”16 The petition observed that, “[a]s the McDonough concurrences recognized, there is no such thing as an implied-bias challenge that ‘accommodates a
prejudice analysis.’”17
The Ninth Circuit denied the rehearing petition without opinion. App. E.
REASONS FOR GRANTING THE WRIT
I.

The Circuits are divided on how to treat a concurrence by a Justice
who contributed the necessary fifth vote to a majority opinion—a
question bearing directly on the interpretation of the McDonough
rule.
It’s astonishing, but true: After more than two centuries, the federal courts

still have not settled on a rule for exactly how to treat a concurrence by a Justice
who contributed the necessary fifth vote to a majority opinion18—a question bearing

Petition for Rehearing En Banc, Scott v. Arnold, 962 F.3d 1128 (9th Cir. 2020) (No. 18–16761)
(Dkt. 38), at 18–19 [hereinafter Reh’g Pet.] (quoting Burdine v. Johnson, 262 F.3d 336, 348 (5th Cir.
2001) (en banc)).
15

16

Reh’g Pet. at 19.

17

Id. at 18.

Numerous cases have alluded to then-Justice Rehnquist’s McDonough opinion as a “plurality”
opinion. See, e.g., Fields v. Brown, 503 F.3d 755, 766 n.5 (9th Cir. 2007) (en banc); Dyer v. Calderon,
151 F.3d 970, 991 (9th Cir. 1998) (en banc); Fitzgerald v. Greene, 150 F.3d 357, 364 n.3 (4th Cir.
1998); United States v. Doke, 171 F.3d 240, 246 (5th Cir. 1999); United States v. Tucker, 243 F.3d
499, 508 (8th Cir. 2001); United States v. Tucker, 137 F.3d 1016, 1026 (8th Cir. 1998); see also id. at
18

1610259

17
directly on the proper interpretation of the McDonough rule. As a result, this case
presents a circuit split on a fundamental interpretive issue—a split that the circuit
courts themselves have referred to in published opinions.
The starting point for any discussion of this problem is Marks v. United
States, 430 U.S. 188 (1977). Marks considered the problem of plurality opinions,
holding that “[w]hen a fragmented Court decides a case and no single rationale explaining the result enjoys the assent of five Justices the holding of the Court may be
viewed as that position taken by those Members who concurred in the judgments on
the narrowest grounds.” Id. at 193. More recently, the Court extended Marks to the
AEDPA context, writing that, “[w]hen there is no majority opinion,” a concurrence
that offers “a more limited holding . . . constitutes ‘clearly established’ law for purposes of” AEDPA. Panetti v. Quarterman, 551 U.S. 930, 949 (2007) (citing Marks,
430 U.S. at 193).
But Marks’s “narrowest opinion” rule was designed for fragmented decisions
in which no opinion attracts more than a plurality of the Justices. What about a decision where one opinion does obtain a majority but is accompanied by a concurrence authored by the “linchpin” fifth justice, purporting to interpret the majority
opinion?

1026 n.7. But it was in fact a majority opinion, because the three signatories to the Blackmun concurrence joined the majority opinion, not merely the judgment.
1610259

18
This issue was broached—but not answered—30 years ago in a “battle of the
footnotes” between Justice Blackmun’s concurrence and Justice Scalia’s dissent in
McKoy v. North Carolina, 494 U.S. 433 (1990). In McKoy, the majority opinion held
that a North Carolina rule, which barred capital juries from considering mitigating
circumstances that they hadn’t found unanimously, violated the rule laid down two
years earlier in Mills v. Maryland, 486 U.S. 367 (1988). Justice Blackmun joined the
majority but wrote separately to “underscore his conviction” that Mills controlled
and was correctly decided. Id. at 445 (Blackmun, J., concurring). In footnote 3 of his
concurrence, he dealt briefly with Justice White’s Mills concurrence, on which the
dissent had placed reliance. Justice Blackmun dismissed the importance of that
concurrence on the ground that “the meaning of a majority opinion is to be found
within the opinion itself; the gloss that an individual Justice chooses to place upon
it is not authoritative.” Id. at 448 n.3 (Blackmun, J., concurring).
Justice Scalia pushed back in footnote 3 of his dissent, arguing that a Justice
who gives the majority opinion its fifth vote can write a concurrence that “narrow[s]
what the majority holds”—because “the [majority] opinion is not a majority opinion
except to the extent that it accords with his views.” McKoy, 494 U.S. 462 n.3 (Scalia
J., dissenting) (emphasis in original). Justice Scalia’s full argument went as follows:
[Justice Blackmun’s statement] is certainly true where
the individual Justice is not needed for the majority. But
where he is, it begs the question: the opinion is not a majority opinion except to the extent that it accords with his
views. What he writes is not a “gloss,” but the least common denominator. To be sure, the separate writing cannot
1610259

19
add to what the majority opinion holds, binding the other
four Justices to what they have not said; but it can assuredly narrow what the majority opinion holds, by explaining the more limited interpretation adopted by a necessary member of that majority. If the author of the opinion
finds what the “glossator” says inconsistent with his own
understanding of the opinion, he may certainly decline, at
the outset of the opinion, to show that Justice as joining;
and if the “glossator” nonetheless insists upon purporting
to join, I suppose the author can explicitly disclaim his
company. But I have never heard it asserted that four
Justices of the Court have the power to fabricate a majority by binding a fifth to their interpretation of what they
say, even though he writes separately to explain his own
more narrow understanding.
Id. (Scalia J., dissenting) (emphasis in original).
The footnote debate between Justices Blackmun and Scalia has framed subsequent circuit conflicts over this question. Quoting Justice Scalia’s McKoy footnote,
the Third Circuit opined that “[a] justice’s separate opinion ‘can assuredly narrow
what the majority opinion holds, by explaining the more limited interpretation
adopted by that necessary member of the majority.’ In that case, the linchpin justice’s views are ‘the least common de-nominator’ necessary to maintain a majority
opinion.” B.H. ex rel. Hawk v. Easton Area Sch. Dist., 725 F.3d 293, 310–11 (3d Cir.
2013). The Fifth Circuit has adopted the same approach. See Ponce v. Socorro Indep.
Sch. Dist., 508 F.3d 765, 768 (5th Cir. 2007) (reading majority opinion together with
concurrence that “provid[ed] specificity to the rule announced by the majority”);
Martin v. Medtronic, Inc., 254 F.3d 573, 583 (5th Cir. 2001) (reading majority opinion “through the lens of [a] concurrence”).
1610259

20
By contrast, the Seventh and Fourth Circuits have adopted a “formalist approach,” holding that the Marks rule “does not apply,” and that concurrences accordingly lack precedential weight, “where there is a majority opinion.” B.H., 725
F.3d at 313 n.17 (criticizing approach that Seventh Circuit took in Nuxoll ex rel.
Nuxoll v. Indian Prairie Sch. Dist. # 204, 523 F.3d 668, 673 (7th Cir. 2008) (criticizing in turn approach that Fifth Circuit took in Ponce, 508 F.3d at 768)); United
States v. Sterling, 724 F.3d 482, 496 n.6 (4th Cir. 2013); see also id. at 523 (Traxler,
C.J., concurring in part and dissenting in part); but see Conaway v. Polk, 453 F.3d
567, 587 (4th Cir. 2006) (relying on Blackmun and Brennan concurrences to conclude that “the doctrine of implied bias [is] yet available” in McDonough claims).19
And the Ninth Circuit, from which this case emanated, has waffled inconsistently between the two approaches when applying the McDonough rule, sometimes
ignoring the Blackmun concurrence as it did here (see App. A) and sometimes relying on it. When it has taken account of the Blackmun concurrence, it has had no difficulty in concluding that the McDonough rule applies to cases in which juror dishonesty in voir dire deprives the defendant of a challenge for implied bias. See, e.g.,

See also United States v. Duvall, 740 F.3d 604, 610 (D.C. Cir. 2013) (Rogers, J., concurring in denial of petition for rehearing en banc) (“Justices who join the majority may of course express additional thoughts in a concurrence, but concurrences do not bind lower courts in cases where there is a
majority opinion.”); cf. Entergy Nuclear Fitzpatrick, LLC v. United States, 93 Fed. Cl. 739, 745 (2010)
(“The interpretation of the [Federal Circuit’s] majority opinion presented by the concurrence is not
binding on this court. . . . This court has chosen to follow analyses presented in concurring opinions
of the Federal Circuit when the court finds that opinion persuasive.”), adhered to on denial of reconsideration, 101 Fed. Cl. 464 (2011), aff’d, 711 F.3d 1382 (Fed. Cir. 2013).
19

1610259

21
Pope, 209 F.3d at 1163; Dyer, 151 F.3d at 985; Coughlin v. Tailhook Ass’n, 112 F.3d
1052, 1062 (9th Cir. 1997).
If review is granted here, Scott will urge the Court to adopt Justice Scalia’s
approach (and that of the Third and Fifth Circuits) to the limited extent that it
would afford precedential weight to the concurrences of “linchpin justices” in general, and to Justice Blackmun’s McDonough concurrence specifically. But that is
only half the story, because there is the further question of whether, per Marks and
the Scalia footnote, precedential weight should be afforded only to concurrences that
are in some sense “narrower” than the other opinions in the case.
Good reasons exist to reject the narrowest-opinion rule in this specific context. To begin with, phrases like “the narrowest grounds” (Marks) and “a more limited holding” (Panetti) are somewhat Delphic and have in fact spawned several distinct variants of the Marks rule. See generally Richard M. Re, Beyond the Marks
Rule, 132 HARV. L. REV. 1942, 1976–93 (2019) (distinguishing among the “median
opinion,” “logical subset,” “shared agreement,” and “all opinions” versions of Marks).
This Court has acknowledged that Marks is “more easily stated than applied” and
that in some cases it is “not useful to pursue the Marks inquiry to the utmost logical
possibility when it has so obviously baffled and divided the lower courts that have
considered it.” Nichols v. United States, 511 U.S. 738, 745–46 (1994); see also

1610259

22
Grutter v. Bollinger, 539 U.S. 306, 325 (2003).20 Courts and commentators alike
have concluded that Marks “is workable—one opinion can be meaningfully regarded
as ‘narrower’ than another—only when one opinion is a logical subset of other,
broader opinions.” King v. Palmer, 950 F.2d 771, 781–82 (D.C. Cir. 1991) (en banc);
see also United States v. Davis, 825 F.3d 1014, 1020 (9th Cir. 2016) (en banc);
Melissa M. Berry, Seeking Clarity in the Federal Habeas Fog: Determining What
Constitutes "Clearly Established" Law Under the Antiterrorism and Effective Death
Penalty Act, 54 CATH. U. L. REV. 747, 815 (2005) (“In some situations, . . . the
[Marks] doctrine cannot be applied logically”).
The fact that no federal case interpreting McDonough even mentions the narrowest-opinion rule sends a strong signal that courts have “found [that] framework
inapplicable” to the configuration of opinions in McDonough21—again, with good
reason, as it is a poor fit for the case. The Blackmun concurrence interpreted the
majority opinion, clarifying that it extends to deprivations of either type of for-cause
challenge—those based on actual bias and those based on implied bias. The majority opinion took no issue with that interpretation. To paraphrase Justice Scalia, if
the author of the majority opinion had found what Justice Blackmun said to be “inconsistent with his own understanding of the opinion,” he certainly could have

Recently, this Court was prepared to revisit Marks in Hughes v. United States, 138 S.Ct. 1765
(2018); but it never reached the issue because it resolved the underlying sentencing-law question instead. See id. at 1772.
20

21

United States v. Johnson, 467 F.3d 56, 66 (1st Cir. 2006).

1610259

23
declined, at the outset of the opinion, to list that Justice as joining in that opinion;
and if Justice Blackmun “nonetheless had insisted upon purporting to join,” the author could have “explicitly disclaim[ed] his company.” McKoy, 494 U.S. 462 n.3
(Scalia J., dissenting). But he didn’t. And the Brennan concurrence likewise
acknowledged the availability of implied-bias challenges, bringing to five the number of Justices who made that point explicitly in McDonough.
It appears, therefore, that the Justices unanimously viewed McDonough’s
new-trial rule as applying to cases in which juror dishonesty in voir dire deprived
the defendant of an implied-bias challenge. A legal rule doesn’t get much more
“clearly established” than that. Under these circumstances, no danger exists that
Justice Blackmun’s separate writing might “add to what the majority opinion holds,
binding the other . . . Justices to what they have not said.” McKoy, 494 U.S. 462 n.3
(Scalia J., dissenting). Rather, every other Justice either said what Justice
Blackmun did on the “implied bias” issue expressly, or at least was content not to
contradict him.
Under these circumstances, it makes no sense to mount a futile and unilluminating search for the “narrowest” or “most limited” opinion. The better approach is
to regard the concurrence of the “linchpin” fifth Justice as an accurate and thus controlling interpretation of the majority opinion’s holding, unless the majority opinion
objects to it. Here, the majority raised no such objection, and Justice Blackmun’s
view that the McDonough remedy extends to the deprivation of all for-cause
1610259

24
challenges, including ones based on implied bias, represents the clear and easily
discerned holding of the case.
Accordingly, this case presents the Court with an opportunity to resolve an
explicit circuit split, recognized in decisions by the circuits themselves, on a fundamental interpretive issue that can be easily resolved by the adoption of a commonsense rule. The petition therefore should be granted.
II.

Resolving the questions presented here will furnish lower courts
with important guidance on how to discern holdings in a broad
range of cases, both criminal and civil.
“The Constitution guarantees both criminal and civil litigants a right to an

impartial jury. And [the Supreme Court] ha[s] made clear that voir dire can be an
essential means of protecting this right.” Warger, 574 U.S. at 50. But nothing is
quite so corrosive of voir dire as juror dishonesty in answering a material question.
Implied-bias challenges, in particular, play a key role in maintaining the effectiveness of voir dire—arguably a far more important role than actual-bias challenges, given the intractable difficulties involved in proving actual, subjective bias.
“Determining whether a juror is [actually] biased or has prejudged a case is difficult, partly because the juror may have an interest in concealing his own bias and
partly because the juror may be unaware of it.” Smith v. Phillips, 455 U.S. 209,
221–22 (1982) (O’Connor, J., concurring). Under the implied-bias doctrine, therefore, bias is conclusively presumed when objective circumstances demand it, as
when the juror is “an actual employee of the prosecuting agency,” “a close relative of
1610259

25
one of the participants in the trial or the criminal transaction,” or “a witness,” id. at
222; or even where the juror’s willingness to lie to get on the jury suggests an “excess of zeal” that could introduce an “unpredictable factor into the jury room.” Dyer,
151 F.3d at 982. Under the California implied-bias statute involved in this case, the
state legislature created an irrebuttable presumption that such unpredictable factors are introduced into the jury room whenever the juror “stood within one year
previous to the filing of the complaint . . . in the relation of attorney and client . . .
with the attorney for either party,” Cal. Civ. Proc. Code § 229(b). That was undisputedly the situation here. See App. B at 5.
But the effect of the Ninth Circuit’s published decision in this case is to deny
defendants habeas relief when they may need it most—when juror dishonesty has
deprived them of an implied-bias challenge, one of the most powerful tools for ensuring juror impartiality. And the Ninth Circuit’s refusal even to consider the substance and precedential force of the McDonough concurrences increases the likelihood that other courts will commit the same error, in that circuit and beyond. Moreover, resolving the first question presented will provide the lower courts with guidance in every case, criminal or civil, that requires them to discern the holding of a
precedent featuring both a majority opinion and a concurrence by the “linchpin”
fifth Justice.

1610259

26
Accordingly, Scott’s petition presents questions of importance not only to the
fairness of criminal trials but also to the interpretation of decisions in every legal
realm. The petition should be granted.
III.

This case is an excellent vehicle for deciding the questions presented.
This case provides the Court with an excellent vehicle for deciding the ques-

tions presented. Those questions are squarely presented and cannot be avoided, as
there is no way to decide Scott’s claim without evaluating the scope of McDonough’s
holding—i.e., whether that holding encompasses all cases involving the loss of a
challenge for cause, or only those involving a for-cause challenge based on actual
bias; and there is no way to perform that evaluation without considering the content
and precedential force of the concurring opinions. See Part I, infra.
A further “good vehicle” factor is that the result reached by the state court
and ultimately ratified by the Ninth Circuit cannot be justified on any adequate and
independent state ground. See generally Coleman v. Thompson, 501 U.S. 722, 729
(1991); James v. Kentucky, 466 U.S. 341, 348–49 (2011). The only potential candidate for a state-law ground would be the state court’s notion that, under California’s
implied-bias statute (Code of Civil Procedure § 229(b)), Scott’s showing of implied
bias could be, and was, rebutted by a showing of lack of actual bias. But “rebuttable
implied bias” is, to put it colloquially, “not a thing”—which is probably why the
state court, having engineered that concept for use in this case alone, declined to
publish its decision, thereby rendering it incapable of being cited any California
1610259

27
court. See Cal. R. Ct. 8.1116(a); App. C at 1. Indeed, no citable California case ever
has construed any clause of § 229(b) as providing that implied bias, once established, is rebuttable; nor has any federal court endorsed that notion. That ground is
of decision is therefore not “adequate.”22
And contrary to the Ninth Circuit’s apparent assumption, the questions presented here are not clouded by any debate over whether the underlying implied-bias
doctrine itself is clearly established in federal law.23 That debate is irrelevant because here, Scott’s implied-bias challenge would have been founded upon California’s implied-bias statute, not on federal implied-bias doctrines. See CAL. CIV. PROC.
CODE § 229(b); People v. Ledesma, 39 Cal. 4th 641, 670 (2006). In any event, Scott’s
claim is not an implied-bias claim—it is a McDonough claim premised on the loss of
an implied-bias challenge, just as a legal-malpractice claim alleging that a negligent
attorney caused the loss of a personal-injury claim is not, itself, a personal-injury
claim.
This case is therefore an excellent vehicle for deciding the questions presented, and Scott’s petition should be granted.

The adequacy requirement “applies [with equal force] whether the state law ground is substantive
or procedural.” Coleman, 501 U.S. at 729; see also Walker v. Martin, 562 U.S. 307, 315 (2011).
22

See App. A at 6 (quoting Hedlund v. Ryan, 854 F.3d 557, 575 (9th Cir. 2017), for its statement that
“[t]here is no clearly established federal law regarding the issue of implied bias.”).
23

1610259

28
IV.

Because it ignored the McDonough concurrences, the Ninth Circuit
erroneously saw legal uncertainty where none exists.
The Ninth Circuit cited two main reasons for finding McDonough too ambigu-

ous to “clearly establish,” for AEDPA purposes, the new-trial right that Scott had
invoked. Both reasons were erroneous and conflicted with McDonough and Warger
(not to mention the Ninth Circuit’s own en banc decision in Dyer).
1.

The Ninth Circuit reversed the district court’s habeas grant on the

ground that it is unclear whether McDonough “accommodates a prejudice analysis”
(meaning “requires an actual-bias analysis”). App. A at 4. But that holding provided
the wrong answer to the wrong question. The question was never whether
McDonough ever “accommodates” an actual-bias analysis. Of course it does—when
the juror’s dishonesty deprived the defense of a challenge for actual bias.
The real question is whether McDonough’s clear and explicit two-part test
reasonably can be read to include an implicit third prong requiring an actual-bias
analysis in all cases—even cases like this one, in which the juror’s dishonesty deprived the defense of a challenge for implied bias.
That is what the State argued here; but that contention was founded upon an
oxymoronic premise: As the McDonough concurrences recognized, there is no such
thing as an implied-bias challenge that “accommodates” an actual-bias analysis.
The two doctrines involve distinct inquiries that exclude each other by definition.
Actual bias turns on evidence of the juror’s subjective state of mind, while implied
bias is a presumption arising conclusively from proof of objective circumstances
1610259

29
existing outside the juror’s mind. Moreover, adding an actual-bias requirement to
an implied-bias inquiry would absurdly “require that the defendant, in effect, prove
prejudice in order to receive a presumption of prejudice.” Burdine v. Johnson, 262
F.3d 336, 348 (5th Cir. 2001) (en banc). So it was patently unreasonable to read
McDonough as countenancing a chimeric mashup of the two inquiries.
The Ninth Circuit not only read a nonexistent third requirement into the majority opinion’s two-part test but also failed even to mention, let alone to carefully
consider, the McDonough concurrences, which discussed actual and implied bias explicitly and drew clear distinctions between them. Indeed, the Ninth Circuit barely
discussed the language of any of McDonough’s three opinions—a striking omission
given the panel’s core holding that McDonough is too ambiguous to clearly establish
anything. The Ninth Circuit’s own en banc decision in Dyer, by contrast, relied on
the concurrences to discern McDonough’s true holding. See Dyer, 151 F.3d at 981–
82, 985.
2.

According to the Ninth Circuit, “McDonough itself rejected a challenge

based on a lost opportunity to exercise a peremptory strike and announced a new
test regarding for-cause challenges without applying that test. McDonough, therefore, did not explain if, or demonstrate through application whether, it was establishing a simple binary test or a test that accommodates a prejudice analysis.” App.
A at 6.

1610259

30
But it is simply wrong to assert that McDonough did not apply its own twopart test to the facts before it. Greenwood’s juror-bias claim flunked the first prong
of the McDonough test because the juror’s misstatement was not dishonest, 464
U.S. at 554–55, and flunked the second prong because Greenwood claimed only the
loss of a peremptory challenge—not the loss of a “for cause” challenge that implicated “a juror’s impartiality” and whose loss therefore could “truly be said to affect
the fairness of [the] trial.” Id. at 555–56. Just because the facts of the case didn’t
satisfy the test’s prongs doesn’t mean that the test wasn’t applied. Quite the opposite, in fact.
Thus, the Ninth Circuit’s decision was erroneous and Scott’s petition should
be granted.

1610259

31
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
STEVEN A. HIRSCH
Counsel of Record
KEKER, VAN NEST & PETERS, LLP
633 Battery Street
San Francisco, CA 94111
SHirsch@keker.com
(415) 391-5400

1610259

APPENDIX A

Case: 18-16761, 06/22/2020, ID: 11728646, DktEntry: 37-1, Page 1 of 10

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

RICKEY LEON SCOTT,
Petitioner-Appellee,
v.
ERIC ARNOLD, Warden, of California
State Prison, Solano,
Respondent-Appellant.

No. 18-16761
D.C. No.
4:16-cv-06584JST

OPINION

Appeal from the United States District Court
for the Northern District of California
Jon S. Tigar, District Judge, Presiding
Argued and Submitted October 25, 2019
San Francisco, California
Filed June 22, 2020
Before: Michael J. Melloy, * Jay S. Bybee,
and N. Randy Smith, Circuit Judges.
Opinion by Judge Melloy

*

The Honorable Michael J. Melloy, United States Circuit Judge for
the U.S. Court of Appeals for the Eighth Circuit, sitting by designation.

Case: 18-16761, 06/22/2020, ID: 11728646, DktEntry: 37-1, Page 2 of 10

2

SCOTT V. ARNOLD
SUMMARY **

Habeas Corpus
The panel reversed the district court’s judgment granting
Rickey Leon Scott’s habeas corpus petition in a case in
which Scott, who was convicted of first-degree murder,
moved for a new trial based on his discovery that a juror had
made a false representation during voir dire.
The trial court denied the motion, and the California
Court of Appeal affirmed, holding that McDonough Power
Equipment, Inc. v. Greenwood, 464 U.S. 548 (1984), which
permits a new trial where a juror’s lies during voir dire hide
a fact that would have permitted the juror to be stricken for
cause, accommodates a prejudice analysis. The district court
held that McDonough could not accommodate a prejudice
analysis.
Applying AEDPA review, the panel held that it was not
unreasonable for the state court to conclude that McDonough
accommodates a prejudice analysis, as McDonough did not
explain if, or demonstrate through application whether, it
was establishing a simple binary test or a test that
accommodates a prejudice analysis. The panel observed that
fairminded disagreement exists as to the application of
McDonough, and therefore concluded that the state court did
not reach a decision contrary to clearly established Supreme
Court precedent.

**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

Case: 18-16761, 06/22/2020, ID: 11728646, DktEntry: 37-1, Page 3 of 10

SCOTT V. ARNOLD

3

COUNSEL
Michele J. Swanson (argued), Deputy Attorney General;
Peggy S. Ruffra, Supervising Deputy Attorney General;
Jeffrey M. Laurence, Senior Assistant Attorney General;
Xavier Becerra, Attorney General; Office of the Attorney
General, San Francisco, California; for RespondentAppellant.
Steven A. Hirsch (argued), Steven P. Ragland, and Neha
Mehta, Keker Van Nest & Peters LLP, San Francisco,
California, for Petitioner-Appellee.

OPINION
MELLOY, Circuit Judge:
After Petitioner-Appellee Rickey Leon Scott was
convicted of first-degree murder, he moved for a new trial
based on his discovery that a juror had made a false
representation during voir dire. The state trial court held an
evidentiary hearing and denied his motion for a new trial,
finding the juror had made a false representation but there
had been no prejudice. The trial court also found the
Supreme Court’s opinion in McDonough Power Equipment,
Inc. v. Greenwood, 464 U.S. 548 (1984), did not require the
trial court to grant Scott a new trial.
The California Court of Appeal affirmed. People v.
Scott, No. A139921, 2015 WL 4505784 (Cal. Ct. App. July
24, 2015). The Court of Appeal noted that McDonough
permits a new trial where a juror’s lies during voir dire hide
a fact that would have permitted the juror to be stricken for
cause. See id. at *9. However, focusing on McDonough’s

Case: 18-16761, 06/22/2020, ID: 11728646, DktEntry: 37-1, Page 4 of 10

4

SCOTT V. ARNOLD

rationale that “only those reasons that affect a juror’s
impartiality can truly be said to affect the fairness of the
trial,” see 464 U.S. at 556, the Court of Appeal interpreted
McDonough as accommodating a prejudice analysis and as
not mandating a new trial where the presumption of
prejudice is rebutted.
In the present case, the juror’s false representation hid
the factual basis of a possible for-cause strike under a state
statute that creates a rebuttable presumption of implied bias.
See Cal. Civ. Proc. Code § 229(b) (rebuttable presumption
arises if a prospective juror was represented by a party’s
attorney less than one year prior to the filing of the complaint
in the case being tried). The prospective juror previously
had been represented in a misdemeanor case by an attorney
from the same public defender’s office as Scott’s attorney,
giving rise to the statutory presumption of bias. The Court
of Appeal found the presumption rebutted primarily because
the prospective juror had not recognized an associational
connection between his own attorney and Scott’s public
defender. Scott, 2015 WL 4505784, at *8. The Court of
Appeal also emphasized that, even if the prospective juror
had made a factual connection between the two attorneys, it
was not clear how the fact of prior representation might have
influenced the prospective juror’s attitude towards Scott’s
case. See id; see also id. at *11 (“The bias that is implied
statutorily under state law by virtue of a recent attorneyclient relationship is not comparable to the extreme and
extraordinary situations in which bias is presumed under
federal law and may not be rebutted.”).
The California Supreme Court denied further review,
and Scott filed for federal habeas relief pursuant to 28 U.S.C.
§ 2254. The district court granted relief, holding the state
court misapplied McDonough. The district court held that

Case: 18-16761, 06/22/2020, ID: 11728646, DktEntry: 37-1, Page 5 of 10

SCOTT V. ARNOLD

5

McDonough could not accommodate a prejudice analysis
and, instead, created a simple two-part test asking only if:
(1) the prospective juror had lied; and (2) the lie concealed
the basis of a for-cause challenge.
Under the Antiterrorism and Effective Death Penalty Act
of 1996 (“AEDPA”), habeas relief is permitted only if the
state court’s ruling “resulted in a decision that was contrary
to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme
Court of the United States.” 28 U.S.C. § 2254(d)(1). “This
means that a state court’s ruling must be ‘so lacking in
justification that there was an error well understood and
comprehended in existing law beyond any possibility for
fairminded disagreement.’” Shoop v. Hill, 139 S. Ct. 504,
506 (2019) (quoting Harrington v. Richter, 562 U.S. 86, 103
(2011)). “[C]learly established Federal law, as determined
by the Supreme Court of the United States” means “the
holdings, as opposed to the dicta,” of Supreme Court
decisions “as of the time of the relevant state-court
decision.” Williams v. Taylor, 529 U.S. 362, 412 (2000).
Therefore, a “federal court may not overrule a state court for
simply holding a view different from its own, when
[Supreme Court] precedent . . . is, at best, ambiguous.”
Mitchell v. Esparza, 540 U.S. 12, 17 (2003).
It was not unreasonable for the state court to conclude
that McDonough accommodates a prejudice analysis.
McDonough leaves several outstanding questions
unanswered, and the current case falls into an area where
clarity is lacking. It remains unclear whether and to what
extent the United States Supreme Court recognizes
distinctions between actual prejudice, implied prejudice, and
“McDonough prejudice,” and what showings for relief are
required in each scenario. Cf. Hedlund v. Ryan, 854 F.3d

Case: 18-16761, 06/22/2020, ID: 11728646, DktEntry: 37-1, Page 6 of 10

6

SCOTT V. ARNOLD

557, 575 (9th Cir. 2017) (“There is no clearly established
federal law regarding the issue of implied bias.”).
McDonough itself rejected a challenge based on a lost
opportunity to exercise a peremptory strike and announced a
new test regarding for-cause challenges without applying
that test. 464 U.S. at 555–56. McDonough, therefore, did
not explain if, or demonstrate through application whether,
it was establishing a simple binary test or a test that
accommodates a prejudice analysis.
Importantly, since McDonough, our court and other
circuits have highlighted this remaining uncertainty and
described McDonough as accommodating a prejudice
analysis. See Faria v. Harleysville Worcester Ins. Co.,
852 F.3d 87, 96 (1st Cir. 2017) (“The binary test set forth in
McDonough is not a be-all-end-all test to be viewed without
context. Rather, the fundamental purpose of the test is to
answer the crucial, overarching trial inquiry: was the juror
biased and, if so, did that bias affect the fairness of the
trial?”); Conaway v. Polk, 453 F.3d 567, 582–89 (4th Cir.
2006) (“Even where, as here, the two parts of the
McDonough test have been satisfied, a juror’s bias is only
established under McDonough if the juror’s ‘motives for
concealing information’ or the ‘reasons that affect [the]
juror’s impartiality can truly be said to affect the fairness of
[the] trial.’” (alterations in original) (quoting McDonough,
464 U.S. at 556)); Pope v. Man-Data, Inc., 209 F.3d 1161,
1164 (9th Cir. 2000) (“Under McDonough, a new trial is
warranted only if the district court finds that the juror’s voir
dire responses were dishonest, rather than merely mistaken,
and that her reasons for making the dishonest response call
her impartiality into question.”); Dyer v. Calderon, 151 F.3d
970, 973 (9th Cir. 1998) (en banc) (describing McDonough
as instructing courts to “determine whether . . . answers were
dishonest and, if so, whether this undermined the

Case: 18-16761, 06/22/2020, ID: 11728646, DktEntry: 37-1, Page 7 of 10

SCOTT V. ARNOLD

7

impartiality of [the] jury”). Simply put, “fairminded
disagreement” currently exists as to the application of
McDonough, and the state court did not reach a decision
“contrary to” clearly established Supreme Court precedent.
Harrington, 562 U.S. at 100, 103.
To the extent Scott argues dicta in a more recent
Supreme Court case eliminates uncertainty surrounding
McDonough, see Warger v. Shauers, 135 S. Ct. 521, 525
(2014) (holding that juror-deliberation evidence could not be
used to attack a verdict but stating in dicta that, “[i]f a juror
was dishonest during voir dire and an honest response would
have provided a valid basis to challenge that juror for cause,
the verdict must be invalidated”), we emphasize that clearly
established Supreme Court precedent for purposes of
28 U.S.C. § 2254 cannot be found in dicta, Carey v.
Musladin, 549 U.S. 70, 74 (2006) (“[C]learly established
Federal law in § 2254(d)(1) refers to the holdings, as
opposed to the dicta, of this Court’s decisions as of the time
of the relevant state-court decision.” (citation omitted)).
Although we conclude Scott is not entitled to habeas
relief under AEDPA’s strict standards, we write further to
emphasize two points. First, nothing in today’s opinion
should be construed as suggesting that we have found clarity
in our circuit’s treatment of McDonough. And second, even
if such clarity existed at the circuit level, clearly established
federal law for habeas purposes cannot be found in circuit
courts’ expansion or interpretation of Supreme Court
precedent. Lopez v. Smith, 574 U.S. 1, 7 (2014) (per curiam).
Rather, clarity must exist in the Supreme Court’s own
rulings. See id. (“[C]ircuit precedent cannot ‘refine or
sharpen a general principle of Supreme Court jurisprudence
into a specific legal rule that this Court has not announced.’”
(quoting Marshall v. Rodgers, 569 U.S. 58, 64 (2013) (per

Case: 18-16761, 06/22/2020, ID: 11728646, DktEntry: 37-1, Page 8 of 10

8

SCOTT V. ARNOLD

curiam))). As such, we may ask whether our own court has
already determined that an issue was clearly established by
the Supreme Court, but we “may not canvass circuit
decisions to determine whether a particular rule of law is so
widely accepted . . . that it would, if presented to [the] Court,
be accepted as correct.” Marshall, 569 U.S. at 64.
Looking at our own treatment of McDonough, we cite
Pope, 209 F.3d at 1164, and Dyer, 151 F.3d at 973, above,
for the emphasis they seemingly place on McDonough’s
contested passage regarding dishonesty that demonstrates
impartiality and the arguable need for a showing of
prejudice. Earlier, in Coughlin v. Tailhook Association, we
applied McDonough to determine whether a juror’s
dishonesty during voir dire required a new trial. 112 F.3d
1052, 1059–62 (9th Cir. 1997). Although we did not
reference an impartiality or prejudice requirement under
McDonough, we arguably applied a prejudice analysis in
reaching our ultimate holding. Id. at 1062 (“Thus, the
district judge did not clearly err when he concluded that [the
juror] did not fail to answer honestly material questions on
voir dire. We conclude that [the juror’s] dishonesty, if any,
was limited to collateral matters that had no impact on his
ability to serve as a juror in this proceeding.”).
More recently, in Elmore v. Sinclair, we initially
described McDonough as requiring two showings: (1) “[the
juror] failed to honestly answer a material question on voir
dire” and (2) “a correct response would have provided a
basis for a challenge for cause.” 799 F.3d 1238, 1253 (9th
Cir. 2015). Immediately after identifying these two
showings, however, we described a prejudice analysis of
sorts, indicating that the appropriate remedy following such
a showing would be a hearing on juror bias. Id. (“If [the
habeas petitioner] is able to show juror bias and lack of a fair

Case: 18-16761, 06/22/2020, ID: 11728646, DktEntry: 37-1, Page 9 of 10

SCOTT V. ARNOLD

9

trial, then the appropriate remedy is a hearing on juror bias.”
(quoting Smith v. Phillips, 455 U.S. 209, 215 (1982))). In
any event, we denied habeas relief on a McDonough claim
in Elmore because we concluded a state supreme court had
reasonably interpreted the juror’s responses as not dishonest.
Id. (“This suggests that he believed his responses on the
questionnaire to be accurate. Accordingly, we conclude that
the Washington Supreme Court was not unreasonable in
dismissing [the habeas petitioner’s] claims alleging juror
bias.”).
These cases appear to stand in contrast with our
discussions in Fields v. Brown, 503 F.3d 755, 766–72 (9th
Cir. 2007) (en banc) and United States v. Olsen, 704 F.3d
1172, 1189, 1195–96 (9th Cir. 2013), where we described
actual bias, implied bias and McDonough bias as three
separate concepts without describing a prejudice showing
under McDonough. In Fields, we denied habeas relief under
a pre-AEDPA analysis, and in Olsen we rejected arguments
in a direct criminal appeal. In each case, our rejection of the
McDonough claim turned on the absence of a showing of
dishonesty on the part of a juror. See Fields, 503 F.3d at 767;
Olsen, 704 F.3d at 1196. Because we found no dishonesty,
neither case required us to make a determination as to
whether McDonough accommodated (or required) a
prejudice analysis.
Then, in United States v. Brugnara, we cited Olsen, and
stated, “A defendant must make two showings to obtain a
new trial based on McDonough bias: first, that the juror in
question ‘failed to answer honestly a material question on
voir dire,’ and second, ‘that a correct response would have
provided a valid basis for a challenge for cause.’” 856 F.3d
1198, 1211 (9th Cir. 2017) (quoting McDonough, 464 U.S.
at 556).
In Brugnara, however, we referenced

Case: 18-16761, 06/22/2020, ID: 11728646, DktEntry: 37-1, Page 10 of 10

10

SCOTT V. ARNOLD

McDonough’s contested passage, noting immediately after
describing the two-part test that, “[o]nly concealment for
‘reasons that affect a juror’s impartiality can truly be said to
affect the fairness of a trial.’” Id. at 1211–12 (quoting
McDonough, 464 U.S. at 556). Ultimately, we denied relief
in Brugnara because, although we assumed a juror had been
dishonest, there had been no showing that the dishonesty
concealed a valid for-cause challenge. Id. at 1212.
“Because the Supreme Court has not given explicit
direction” as to whether McDonough requires a criminal
defendant to show prejudice to obtain a new trial, “and
because the state court’s interpretation is consistent with
many other courts’ interpretations, we cannot hold that the
state court’s interpretation was contrary to, or involved an
unreasonable application of, Supreme Court precedent.”
Kessee v. Mendoza-Powers, 574 F.3d 675, 679 (9th Cir.
2009). Petitioner is therefore not entitled to habeas relief.
We REVERSE the judgment of the district court.

APPENDIX B

Case 3:16-cv-06584-JST Document 47 Filed 08/24/18 Page 1 of 12

1
2
3
4

UNITED STATES DISTRICT COURT

5

NORTHERN DISTRICT OF CALIFORNIA

6
RICKEY LEON SCOTT,

7

Plaintiff,

8

ORDER GRANTING PETITION FOR
WRIT OF HABEAS CORPUS

v.

9

ERIC ARNOLD,

10

Re: ECF No. 1

Defendant.

11
United States District Court
Northern District of California

Case No. 16-cv-06584-JST

12
Before the Court is Petitioner Rickey Leon Scott’s petition for a writ of habeas corpus,

13
14

filed pursuant to 28 U.S.C. § 2554 to challenge the validity of his state criminal conviction. ECF

15

No. 1. The Court will grant the petition.1

16

I.

PROCEDURAL HISTORY
On April 12, 2013, a San Francisco jury convicted Scott of first-degree murder,

17
18

finding that he had used a deadly weapon in the commission of the offense. ECF No. 36-2 at 132.

19

On September 27, 2013, the trial court denied Scott’s motion for a new trial and sentenced him to

20

86 years to life, with the possibility of parole, under California’s Three Strikes law, Cal. Penal

21

Code § 667(e)(2)(A). Id. at 579-81. On July 24, 2015, the California Court of Appeal affirmed

22

Scott’s conviction in an unpublished opinion. People v. Scott, No. A139921, 2015 WL 4505784

23

(Cal. Ct. App. July 24, 2015). The California Supreme Court denied review on November 10,

24

2015. ECF No. 36-10 at 535.

25

Scott’s pro se habeas state habeas petition, filed during the pendency of his appeal, was

26

summarily denied by the California Court of Appeal on October 16, 2014. Id. at 588. He filed

27
28

1

Petitioner’s request for oral argument, ECF No. 46, is denied as moot.

United States District Court
Northern District of California

Case 3:16-cv-06584-JST Document 47 Filed 08/24/18 Page 2 of 12

1

two pro se habeas petitions before the California Supreme Court. The first of these was

2

withdrawn at Scott’s request on January 27, 2015. Id. at 590. The second was stricken for lack of

3

jurisdiction on December 3, 2015. Id. at 659.

4

On March 22, 2016, Scott filed a pro se habeas petition in this Court pursuant to 28 U.S.C.

5

§ 2254. Scott v. Arnold, 16-cv-01391-JST, ECF No. 1. On November 14, 2016, pro bono counsel

6

filed a second federal habeas petition on Scott’s behalf, without knowledge of the first. ECF

7

No. 1; ECF No. 23 at 2. On October 2, 2017, this Court construed the second petition as a motion

8

for leave to amend, granted leave to amend, and deemed the second petition as an amendment to

9

the first. ECF No. 30. Scott contends that he is entitled to a new trial under McDonough Power

10

Equipment, Inc. v. Greenwood, 464 U.S. 548 (1984), and because the jury foreperson was actually

11

biased against him.

12

II.

The following summary describing the factual basis for Scott’s claims is taken from the

13
14

California Court of Appeal’s opinion:2

15

The factual basis for the juror misconduct claim was that Juror
No. 8, the foreperson, failed to disclose during voir dire that he had
suffered a misdemeanor conviction in 2009 and was unhappy with
his representation by his deputy public defender, who worked for the
same office as appellant’s trial counsel. The declarations, testimony
and exhibits presented in support and opposition of the motion for
new trial on this ground established the following:

16
17
18
19

Juror No. 8 was convicted on July 22, 2009 of a misdemeanor count
of making a criminal threat under Penal Code section 422 following
a jury trial at which he was represented by deputy public defender
Emily Dahm of the public defender’s office in San Francisco. The
charges arose from an incident in which Juror No. 8 had threatened a
parking control officer while she was issuing him a citation. At the
sentencing hearing held on September 25, 2009, Juror No. 8 was
placed on probation and ordered to serve five days in county jail.
Dahm filed a notice of appeal on Juror No. 8’s behalf, and private
attorney Marsanne Weese was appointed to represent him in the
appellate division of the superior court. Weese filed a brief stating
she could find no arguable issues on appeal and asking the appellate

20
21
22
23
24
25
26
27
28

FACTUAL BACKGROUND

2

The Court has independently reviewed the record as required by AEDPA. Nasby v. Daniel, 853
F.3d 1049, 1052-54 (9th Cir. 2017). Based on this review, the Court finds that the state court’s
summary of facts is supported by the record, unless otherwise indicated in this order. A full
recitation of the facts underlying Scott’s conviction can be found in the California Court of
Appeal’s opinion at Scott, 2015 WL 4505784, at *1-4.
2

Case 3:16-cv-06584-JST Document 47 Filed 08/24/18 Page 3 of 12

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

division to independently review the record under People v. Wende
(1979) 25 Cal.3d 436, and the appellate division affirmed the
judgment in an opinion filed March 28, 2011.
On May 2, 2011, Dahm appeared on behalf of Juror No. 8 in
superior court, at which time the remittitur was “spread upon the
minutes,” that is, read into the record. Juror No. 8 was not present
for this proceeding. He had not communicated with Dahm since his
sentencing hearing in 2009 and was unaware of his appeal, the
identity of his appointed counsel on appeal, or of the hearing at
which the remittitur was spread. Juror No. 8 believed he had been
wrongfully convicted and was highly dissatisfied with the
representation provided by Dahm.
Juror No. 8 was called for jury service and assigned to the panel in
appellant’s case. Appellant was represented at trial by Jeff Adachi,
the elected Public Defender of the City and County of San
Francisco. Before voir dire began on March 18, 2013, the jurors
completed a written questionnaire. Question No. 24 asked, “Have
you, a family member, or a close friend ever been investigated,
arrested, charged with, or convicted of any crime?” Juror No. 8
responded no. Question No. 27 asked, “What are your opinions, if
any, of prosecutors and/or criminal defense attorneys?” Juror No. 8
wrote, “NA.” Question No. 38 asked, “The judge will instruct you
as follows: Do not let bias, sympathy, prejudice or public opinion
influence your decision. You must reach your verdict without any
consideration of punishment. Is there any reason you would be
unable to comply with this order?” Juror No. 8 answered no.
Question No. 61 asked, “Is there any matter not covered in this
questionnaire that you think the attorneys or court should know
when considering you as a juror in this case?” and “Is there any
other reason why you might not be able to be an impartial judge of
the facts for both the prosecution and defense in this case?” Juror
No. 8 responded no to both parts of the question. He also indicated
he did not know the prosecutor or “[d]efense lawyer and Public
Defender Jeff Adachi.” During voir dire itself, Adachi asked the
prospective jurors whether anyone had negative feelings about
defense attorneys, and Juror No. 8 did not raise his hand or
otherwise reply. On March 21, 2013, the jury and six alternate
jurors were impaneled.
On April 12, 2013, the day of the verdict in appellant’s case, Dahm
was in the courthouse on another matter and ran into Juror No. 8 in
the hallway. Although Juror No. 8 did not recognize her at first (she
had been pregnant and had longer hair when she represented him in
2009), they had a brief and friendly conversation. Juror No. 8 told
Dahm he was going to go do his civic duty, which led Dahm to
believe he had been called for jury duty, but she saw him later in the
day outside the courtroom where appellant’s case was being tried
and learned at that time he was on appellant’s jury. Dahm knew
Adachi was trying the case and told Juror No. 8 she could not talk to
him and asked him to contact her when the case was over. She
emailed Adachi to advise him that a former client was on his jury,
and Adachi reviewed Juror No. 8’s questionnaire during the
following week, after the jury had returned its verdict. Had Adachi
known of Juror No. 8’s prior relationship with his office, he would
3

Case 3:16-cv-06584-JST Document 47 Filed 08/24/18 Page 4 of 12

1
2
3
4
5
6
7
8
9
10

United States District Court
Northern District of California

11
12
13

have exercised a challenge and removed him from the jury panel.
Juror No. 8 testified at the hearing on the motion for new trial under
a grant of immunity and while represented by counsel. He
explained that he had not disclosed his 2009 conviction on the jury
questionnaire because over three years had passed and he was trying
to forget about it. He felt he could be fair and impartial when he
was selected to be a juror in appellant’s case, though he fretted
extensively over the possibility that an unconscious bias based on
his experience with Dahm might have affected his jury service. He
was not trying to cheat appellant out of a fair trial and he did not
recall holding any of his negative feelings about Dahm against
appellant. He did not have any negative feelings about appellant or
Adachi, and he did not realize Adachi was from the same office as
Dahm. He also did not realize that the prosecutor in appellant’s trial
was from the same office as the prosecutor in his misdemeanor case.
Juror No. 8’s daughter, who had witnessed her father’s arrest in
2009, testified that he did not discuss the incident leading to his
conviction very often because it was upsetting to his wife, but that
he had alluded to it several times during 2012. Though her father
sometimes told small lies and exaggerated things, she believed he
was an honest person and would not vote to convict somebody else
simply because he believed he himself had been wrongfully arrested
and convicted.
Scott, 2015 WL 4505784, at *5-6.

14

At the July 16, 2013 hearing, Juror No. 8 testified that his feelings that he was wrongfully

15

convicted and that he received inadequate representation from the public defender’s office “were

16

still there” when he filled out the written jury questionnaire. ECF No. 36-9 at 321-22. He

17

acknowledged that he should have answered truthfully about his conviction. Id. at 321.

18
19
20
21
22
23
24
25
26
27
28

The California Court of Appeal accurately summarized the California statutes relevant to
Scott’s claim that Juror No. 8 should have been stricken for cause:
Under California law, a juror may be challenged for cause for one of
the following reasons: “(A) General disqualification—that the juror
is disqualified from serving in the action on trial. [¶] (B) Implied
bias—as, when the existence of the facts as ascertained, in judgment
of law disqualifies the juror. [¶] (C) Actual bias—the existence of a
state of mind on the part of the juror in reference to the case, or to
any of the parties, which will prevent the juror from acting with
entire impartiality, and without prejudice to the substantial rights of
any party.” (Code Civ. Proc., § 225, subd. (b)(1)(A)-(C).) Code of
Civil Procedure section 229 provides in relevant part: “A challenge
for implied bias may be taken for one or more of the following
causes, and for no other: [¶] . . . [¶] (b) . . . having stood within one
year previous to the filing of the complaint in the action in the
relation of attorney and client with either party or with the attorney
for either party.”
Scott, 2015 WL 4505784, at *8 (alterations in original).
4

Case 3:16-cv-06584-JST Document 47 Filed 08/24/18 Page 5 of 12

1
2

unambiguous,” that Juror No. 8 “had sufficient knowledge of the information to respond,” and that

3

the juror’s answer to Question No. 24 “was false.” ECF No. 36-2 at 548. However, it found that

4

Scott could not have challenged the juror for cause because California Code of Civil Procedure

5

section 229(b) “[did] not apply to the relationship between Juror 8 and Scott’s counsel.” Id. at

6

555. The trial court further concluded that, even if section 229(b) did apply, McDonough would

7

not require a new trial because the court did “not find any evidence that Juror 8 harbored bias or

8

prejudice against Scott, his attorney or, for that matter, against the People or the Office of District

9

Attorney, which prosecuted him in 2009.” Id. at 559.

10

United States District Court
Northern District of California

The trial court found that the “questions presented in the questionnaire were relevant and

The California Court of Appeal noted the parties’ agreement that “Juror No. 8 committed

11

misconduct when he did not reveal his 2009 misdemeanor conviction on his questionnaire.” Scott,

12

2015 WL 4505784, at *7. The appellate court disagreed with the trial court and found that Scott’s

13

counsel “had an attorney-client relationship with Juror No. 8 in the 2009 misdemeanor case,” and

14

the court “assume[d] that attorney-client relationship still existed ‘within one year previous to the

15

filing of the complaint’ in [Scott’s] case, as required for Code of Civil Procedure section 229

16

subdivision (b) to apply,” based on Dahm’s May 2, 2011 appearance on Juror No. 8’s behalf. Id.

17

at *9; see also id. at *9 n.6 (observing that the complaint against Scott was filed on February 9,

18

2012). Nonetheless, the court affirmed the trial court’s denial of Scott’s McDonough claim. It

19

first observed that McDonough did “not directly apply to a California criminal trial because it

20

involved an implementation of a rule of federal civil procedure, rather than an interpretation of the

21

federal Constitution.” Id. at *9. It then concluded that, even if McDonough did apply, “and that

22

[Scott’s] trial counsel would have been entitled to excuse Juror No. 8 for cause if the prior

23

representation by the public defender had been disclosed during voir dire, it does not follow that a

24

new trial should be granted when the presumption of prejudice can be rebutted.” Id. Based on its

25

review of the record, the court found that “[a]ny bias implied under Code of Civil Procedure

26

section 229, subdivision (b) was rebutted” because “there is no substantial likelihood Juror No. 8

27

was actually biased.” Id. at *8, *11.

28
5

Case 3:16-cv-06584-JST Document 47 Filed 08/24/18 Page 6 of 12

1

United States District Court
Northern District of California

2

III.

STANDARD OF REVIEW
Under the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”), a district

3

court may entertain a petition for a writ of habeas corpus “in behalf of a person in custody

4

pursuant to the judgment of a State court only on the ground that he is in custody in violation of

5

the Constitution or laws or treaties of the United States.” 28 U.S.C. § 2254(a). The court may not

6

grant a petition challenging a state conviction or sentence on the basis of a claim that was

7

reviewed on the merits in state court unless the state court’s adjudication of the claim:

8

“(1) resulted in a decision that was contrary to, or involved an unreasonable application of, clearly

9

established Federal law, as determined by the Supreme Court of the United States; or (2) resulted

10

in a decision that was based on an unreasonable determination of the facts in light of the evidence

11

presented in the State court proceeding.” 28 U.S.C. § 2254(d).

12

A state court decision is “contrary to” clearly established Supreme Court precedent if it

13

“arrives at a conclusion opposite to that reached by [the Supreme] Court on a question of law or if

14

the state court decides a case differently than [the Supreme] Court has on a set of materially

15

indistinguishable facts.” Williams v. Taylor, 529 U.S. 362, 412-13 (2000). A decision involves an

16

“unreasonable application” of law if it “identifies the correct governing legal principle from [the

17

Supreme] Court’s decisions but unreasonably applies that principle to the facts of the prisoner’s

18

case.” Id. at 413. “[A] federal habeas court may not issue the writ simply because that court

19

concludes in its independent judgment that the relevant state-court decision applied clearly

20

established federal law erroneously or incorrectly. Rather, that application must also be

21

unreasonable.” Id. at 411.

22

Section 2254(d)(1) restricts the source of clearly established law to the Supreme Court’s

23

jurisprudence. “[C]learly established Federal law, as determined by the Supreme Court of the

24

United States” refers to “the holdings, as opposed to the dicta, of [the Supreme] Court’s decisions

25

as of the time of the relevant state-court decision.” Id. at 412. “A federal court may not overrule a

26

state court for simply holding a view different from its own, when the precedent from [the

27

Supreme] Court is, at best, ambiguous.” Mitchell v. Esparza, 540 U.S. 12, 17 (2003).

28

The district court reviews the “last reasoned decision” of the state court. Ylst v.
6

Case 3:16-cv-06584-JST Document 47 Filed 08/24/18 Page 7 of 12

1

Nunnemaker, 501 U.S. 797, 803-04 (1991). Here, the California Supreme Court denied review.

2

Thus, the last reasoned state-court decision is that of the California Court of Appeal.

3

IV.

Scott argues that he is entitled to a new trial under McDonough, 464 U.S. 548, because

4

United States District Court
Northern District of California

DISCUSSION

5

(1) “the jury foreperson failed to answer honestly a material question on voir dire” and (2) “a

6

truthful response would have provided Scott with a valid challenge for cause under California

7

Code of Civil Procedure § 229(b) for implied bias.” ECF No. 1 at 7. He therefore contends that

8

“the Court of Appeal’s decision denying Scott’s motion represents an unreasonable application of

9

clearly established federal law as articulated by the Supreme Court in McDonough.”3 Id. at 8.

10

Scott first argues that the California Court of Appeal’s conclusion that McDonough does

11

not apply to state-court criminal trials was erroneous. This Court agrees. The Ninth Circuit and

12

other circuit courts have consistently applied McDonough on habeas review of state-court criminal

13

proceedings, and the Court is aware of no case in which a court refused to apply McDonough to

14

such proceedings.4 E.g., Smith v. Swarthout, 742 F.3d 885, 892-93 (9th Cir. 2014); Fields v.

15

Brown, 503 F.3d 755, 766-68 (9th Cir. 2007); Conaway v. Polk, 453 F.3d 567, 582-89 (4th Cir.

16

2006); Gonzales v. Thomas, 99 F.3d 978, 984-85 (10th Cir. 1996). As the Third Circuit

17

concluded: “Although McDonough was a federal civil case, a state court decision failing to apply

18

this same rule in a criminal prosecution would represent an unreasonable application of clearly

19

established federal law within the meaning of 28 U.S.C. § 2254(d)(1).” Williams v. Price, 343

20

F.3d 223, 229 (3d Cir. 2003) (Alito, J.), abrogated on other grounds by Pena-Rodriguez v.

21
3

22
23
24
25
26
27
28

Scott also argues that “the trial court’s finding that the foreperson was not actually biased . . .
was based on an unreasonable determination of the facts and was contrary to the foreperson’s
testimony expressing actual and explicit bias.” ECF No. 1 at 8. The Court does not reach this
argument because, as discussed below, it is persuaded by Scott’s McDonough claim.
4

The state court did not cite any such cases. Respondent cites Montoya v. Scott, 65 F.3d 405, 419
(5th Cir. 1995), and Riggins v. Butler, 705 F. Supp. 1205, 1210 (E.D. La. 1989), for the weaker
proposition that “some courts have questioned whether McDonough applies on federal habeas
review of a state criminal conviction.” ECF No. 35-1 at 23 n.1. In Montoya, the Fifth Circuit
applied McDonough after “assum[ing], arguendo, that a McDonough theory of juror bias would be
sufficient to obtain federal habeas relief.” 65 F.3d at 419. Similarly, in Riggins, the district court
stated it was “not convinced that the McDonough standard is applicable in habeas cases,” but it did
not decide the question because it found that the petitioner could not meet that standard even if it
did apply. 705 F. Supp. at 1210. Neither case held that McDonough did not apply.
7

Case 3:16-cv-06584-JST Document 47 Filed 08/24/18 Page 8 of 12

1

Colorado, 137 S. Ct. 855 (2017). But in this case, the state court applied McDonough ‒ albeit in

2

dicta ‒ and the Court therefore considers whether the state’s application was unreasonable.
The Sixth Amendment “guarantees to the criminally accused a fair trial by a panel of

3
4

impartial, ‘indifferent’ jurors.” Irvin v. Dowd, 366 U.S. 717, 722 (1961); see U.S. Const. amend.

5

VI. Due process requires that the defendant be tried by “a jury capable and willing to decide the

6

case solely on the evidence before it.” Smith v. Phillips, 455 U.S. 209, 217 (1982). “The presence

7

of even one biased juror affects that right. Juror bias comes in three forms: actual, implied, and

8

McDonough bias.”5 United States v. Brugnara, 856 F.3d 1198, 1211 (9th Cir. 2017) (citation

9

omitted), cert. denied, 138 S. Ct. 409 (2017).
To obtain a new trial under McDonough, “a party must first demonstrate that a juror failed

United States District Court
Northern District of California

10
11

to answer honestly a material question on voir dire, and then further show that a correct response

12

would have provided a valid basis for a challenge for cause.” McDonough, 464 U.S. at 556. The

13

parties do not dispute that these two prerequisites are clearly established Supreme Court law.

14

Instead, their dispute centers on the import of the next sentence in the McDonough opinion: “The

15

motives for concealing information may vary, but only those reasons that affect a juror’s

16

impartiality can truly be said to affect the fairness of a trial.” Id. Respondent argues that this

17

sentence added actual bias as third element to the McDonough analysis, and that the Ninth, First,

18

and Fourth Circuits have agreed, thus rendering it impossible to conclude that Scott’s view of

19

McDonough was clearly established law. See Clark v. Murphy, 331 F.3d 1062, 1071 (9th Cir.

20

2003) (“The very fact that circuit courts have reached differing results on similar facts leads

21

inevitably to the conclusion that the [state] court’s rejection of [a habeas petitioner’s] claim was

22

not objectively unreasonable.”), overruled on other grounds by Lockyer v. Andrade, 538 U.S. 63,

23

71 (2003).
However, none of the four cases on which Respondent relies held that a movant must show

24
25
26
27
28

5

Scott argues McDonough bias in this case. Thus, the Ninth Circuit’s holding that “[t]here is no
clearly established federal law regarding the issue of implied bias” does not preclude habeas relief.
Hedlund v. Ryan, 854 F.3d 557, 575 (9th Cir. 2017); see Rodrigues v. Davis, No. 16-17069, 2018
WL 2439536, at *2 (9th Cir. May 31, 2018) (concluding, following Hedlund, that a habeas
petitioner “is limited to demonstrating actual bias or McDonough bias”).
8

Case 3:16-cv-06584-JST Document 47 Filed 08/24/18 Page 9 of 12

1

actual bias to prevail on a McDonough claim. First, in Dyer v. Calderon, the Ninth Circuit

2

explained that, under McDonough, the court “must determine whether [a prospective juror’s]

3

answers were dishonest and, if so, whether this undermined the impartiality of Dyer’s jury.” 151

4

F.3d 970, 973 (9th Cir. 1998) (en banc). But the court did not limit the second inquiry to

5

determining whether the prospective juror harbored actual bias. To the contrary, the court held

6

that it “need not resolve the actual bias question . . . because the implied bias issue is dispositive

7

here.” Id. at 981. The court concluded that “jurists of reason would all agree” that some jurors,

8

including those with blood or business relationships with the litigants or lawyers, “should have

9

been struck without stopping to inquire into their subjective state of mind.” Id. at 985. The court

10

United States District Court
Northern District of California

11
12
13
14
15

explained:
Of course, a juror could be a witness or even a victim of the crime,
perhaps a relative of one of the lawyers or the judge, and still be
perfectly fair and objective. Yet we would be quite troubled if one
of the jurors turned out to be the prosecutor’s brother because it is
highly unlikely that an individual will remain impartial and
objective when a blood relative has a stake in the outcome. Even if
the putative juror swears up and down that it will not affect his
judgment, we presume conclusively that he will not leave his
kinship at the jury room door.

16

Id. at 982. Likewise, in Pope v. Man-Data, Inc., the Ninth Circuit stated that, “[u]nder

17

McDonough, a new trial is warranted only if the district court finds that the juror’s voir dire

18

responses were dishonest, rather than merely mistaken, and that her reasons for making the

19

dishonest response call her impartiality into question.” 209 F.3d 1161, 1164 (9th Cir. 2000). But,

20

again, the court did not limit the impartiality inquiry to actual bias; it cited Justice Blackmun’s

21

concurrence in McDonough for the proposition that a movant may “demonstrate actual bias or, in

22

exceptional circumstances, that the facts are such that bias is to be inferred.” Id. at 1163

23

(emphasis added) (quoting McDonough, 464 U.S. at 556-57 (Blackmun, J., concurring)).

24

In Conaway, the Fourth Circuit considered allegations “that Juror Waddell failed to

25

disclose that he was co-defendant Harrington’s double first cousin, once removed.” 453 F.3d at

26

585. The court held: “Even where, as here, the two parts of the McDonough test have been

27

satisfied, a juror’s bias is only established under McDonough if the juror’s ‘motives for concealing

28

information’ or the ‘reasons that affect [the] juror’s impartiality can truly be said to affect the
9

Case 3:16-cv-06584-JST Document 47 Filed 08/24/18 Page 10 of 12

1

fairness of [the] trial.’” Id. at 588 (alterations in original) (quoting McDonough, 464 U.S. at 556).

2

But although the court structured its analysis into three steps, it did not require any showing of

3

actual bias as part of the third step. To the contrary, the court concluded ‒ without any inquiry

4

into whether Wardell was actually biased ‒ that “Juror Waddell’s relationship to co-defendant

5

Harrington necessarily affected the fairness of Conaway’s trial.” Id.
Finally, in Faria v. Harleysville Worcester Insurance Co., the First Circuit explained that

United States District Court
Northern District of California

6
7

“[t]he binary test set forth in McDonough is not a be-all-end-all test to be viewed without context.

8

Rather, the fundamental purpose of the test is to answer the crucial, overarching trial inquiry: was

9

the juror biased and, if so, did that bias affect the fairness of the trial?” 852 F.3d 87, 96 (1st Cir.

10

2017). In considering a juror, Mr. Rieger, who was allegedly dishonest about his status as a felon

11

who was ineligible for jury service, the court concluded that the Farias “have not asserted what

12

particular bias Mr. Rieger harbored or how that bias would have affected the fairness of the trial.

13

Instead, they merely speculate as to the bias and prejudice that resulted” and “have failed to

14

adequately explain how bias, if any, tainted their trial result.” Id. at 89-90, 96-97. But the court

15

also noted that “Mr. Rieger’s felon status, alone, does not necessarily imply bias, and accordingly

16

his mere presence on the Farias’ jury does not, without more, demonstrate an unfair trial result.”

17

Id. at 96 (emphasis added). Thus, actual bias was relevant only because Mr. Rieger’s status as a

18

convicted felon did not establish implied bias; the court’s ruling cannot be read as requiring actual

19

bias in all cases. Moreover, the court’s discussion of bias is dicta because the it concluded that the

20

Farias “have not demonstrated that Mr. Rieger answered dishonestly,” thus failing to satisfy

21

McDonough’s first prong, and because the court merely “[a]ssum[ed] McDonough applies on all

22

fours,” apparently without actually deciding that it did so. Id. at 95-96.

23

In short, none of the cases relied on by Respondent supports the proposition that actual

24

bias is required to warrant a new trial under McDonough.6 The Ninth Circuit does not endorse

25
6

26
27
28

In addition, the Ninth Circuit confirmed last year that only “two showings” are required “to
obtain a new trial based on McDonough bias: first, that the juror in question ‘failed to answer
honestly a material question on voir dire,’ and second, ‘that a correct response would have
provided a valid basis for a challenge for cause.’” Brugnara, 856 F.3d at 1211 (quoting
McDonough, 464 U.S. at 556). Similarly, the Fourth Circuit recently explained that a McDonough
claim is distinct from an actual bias claim. Porter v. Zook, No. 16-18, ‒‒ F.3d ‒‒, 2018 WL
10

Case 3:16-cv-06584-JST Document 47 Filed 08/24/18 Page 11 of 12

1

that view, nor do Conaway and Faria create a circuit split.

2

But even if the above cases could be read in the manner asserted by Respondent, the

3

Supreme Court re-stated the requirements of McDonough in 2014 without including any reference

4

to actual bias. In Warger v. Shauers, the Court explained that “[i]f a juror was dishonest during

5

voir dire and an honest response would have provided a valid basis to challenge that juror for

6

cause, the verdict must be invalidated.”7 135 S. Ct. 521, 525 (2014) (emphasis added) (citing

7

McDonough, 464 U.S. at 556). This recitation removed any doubt that, at least as of the time of

8

the Warger decision ‒ which occurred before the California Court of Appeal’s decision in this

9

case ‒ McDonough requires only two elements, and no more. By requiring a showing of actual

10

bias, the California Court of Appeal therefore failed to apply clearly established federal law.
The Court of Appeal found that the parties did not dispute that Juror No. 8 was dishonest

United States District Court
Northern District of California

11
12

“when he did not reveal his 2009 misdemeanor conviction on his questionnaire.” Scott, 2015 WL

13

4505784, at *7. The court further found that Scott’s trial attorney “had an attorney-client

14

relationship with Juror No. 8” and, based on his counsel’s appearance at a May 2, 2011 hearing on

15

Juror No. 8’s behalf, “assume[d] that attorney-client relationship still existed ‘within one year

16

previous to the filing of the complaint’ in [Scott’s] case, as required for Code of Civil Procedure

17

section 229, subdivision (b) to apply.” Id. at *9. The court recognized that the California

18

Supreme Court “described implied bias under Code of Civil Procedure section 229 as ‘a

19

presumption of bias that could not be overcome by a finding that [the juror] could be fair and

20

impartial.’” Id. at *10 (quoting People v. Ledesma, 39 Cal. 4th 641, 669-70 (2006) (alteration in

21

Scott)); see also People v. Wheeler, 22 Cal. 3d 258, 274 (1978) (“Implied bias arises when the

22

juror stands in one of several relationships to a party, such as consanguinity, trust, or employment,

23

or has been involved in prior legal proceedings relating to the parties or the case; in such

24
25
26
27

3679610, at *8 (4th Cir. Aug. 3, 2018); see also id. at *15 (not mentioning actual bias when
explaining that “[t]o prove a juror bias claim under McDonough, the petitioner must show: (1) ‘a
juror failed to answer honestly a material question on voir dire,’ and (2) ‘a correct response would
have provided a valid basis for a challenge for cause’” (quoting McDonough, 464 U.S. at 556)).
7

28

Of the four circuit cases relied on by Respondent, only one ‒ Faria, 852 F.3d 87 ‒ post-dates
Warger. The First Circuit made no mention of Warger in that case.
11

United States District Court
Northern District of California

Case 3:16-cv-06584-JST Document 47 Filed 08/24/18 Page 12 of 12

1

circumstances no proof of prejudice is required ‒ it is inferred as a matter of law.” (citation

2

omitted)), overruled on other grounds by Johnson v. California, 545 U.S. 162 (2005). The court

3

distinguished Ledesma only on grounds that “[t]he case says nothing about what should happen

4

when a juror who should be subject to a challenge for cause based on one of the statutory grounds

5

listed in Code of Civil Procedure section 229 actually sits on the jury and the issue is raised for the

6

first time in a motion for new trial.” Scott, 2015 WL 4505784, at *10. It did not hold that Juror

7

No. 8 would not have been dismissed for cause if his relationship with the public defender’s office

8

had been raised during voir dire, and it apparently recognized that, had the truth of Juror No. 8’s

9

relationship with Scott’s trial counsel come to light during voir dire – as it would have, but for

10

Juror No. 8’s dishonesty – Juror No. 8 would have been excused for cause. Under McDonough,

11

this is where the state court’s inquiry should have ended. The court determined that Juror No. 8

12

“failed to answer honestly a material question on voir dire” and that “a correct response would

13

have provided a valid basis for a challenge for cause.” McDonough, 464 U.S. at 556.

14

Consequently, “the verdict must be invalidated.” Warger, 135 S. Ct. at 525.
CONCLUSION

15
16

The California Court of Appeal’s denial of relief under McDonough was “contrary to, or

17

involved an unreasonable application of, clearly established Federal law, as determined by the

18

Supreme Court of the United States.” 28 U.S.C. § 2254(d)(1). Scott’s petition for habeas relief is

19

therefore granted, and his conviction is vacated. Respondent shall release Scott from custody

20

unless proceedings to retry him are commenced within ninety days of the date of this order.

21

In addition to the usual service on counsel of record, the Clerk shall send an informational

22

copy of this order to the San Francisco District Attorney.

23

The Clerk shall enter judgment and close the file.

24

IT IS SO ORDERED.

25
26
27

Dated: August 24, 2018
______________________________________
JON S. TIGAR
United States District Judge

28
12

APPENDIX C

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 23 of 60

Filed 7/24/15 P. v. Scott CAI/5

NOT TO BE PUBLISHED IN OFFICIAL REPORTS

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FIVE
THE PEOPLE,
Plaintiff and Respondent,

A139921

v.

(San Francisco County
Super. Ct. No. 219205)

RICKEY LEON SCOTT,
Defendant and Appellant.

While waiting for services in a honieless shel~er, appellant Rickey Leon Scott
· stabbed Abdul Smith, another client in the shelter. He was· convicted of first degree
murder following a trial at which the jury was instructed on J;he lesser offenses of second
degree murder and manslaughter, based on theories of accident, self-defense, imperfect
self-defense and provocation. Appellant argues the judgment must be reversed because
( 1) the jury foreperson committed misconduct in failing to disclose his prior

· misdemeanor conviction for making criminal threats and his dissatisfaction with his
representation in that case by the same public defender's office that represented
appellant; (2) the evidence was insufficient to support a conviction of :first degree murder
because there was no substantial evidence of premeditation and deliberation or lying in
wait; (3) the trial court abused its discretion in admitting evidence appellant owned a
··second lmife that was not used in the commission of the crime; and (4) a newly
discovered witness could present testimony corroborating appellant's version of events.
. We affirm.

1

ER017

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 24 of 60

I. FACTS AND PROCEDURAL IDSTORY

The San Francisco District Attorney filed' an information charging appellant with
the murder of Smith and alleging he personally used a deadly weapon (a knife) in the
commission ofthat offense, (Pen. Code,§§ 187, 12022, subd. (b).) The information also
alleged appellant had suffered prior "strike" convictions and prior serious felony
convictions, (Pen. Code,'§§ 667, subd. (a), 1170.12.) The case proceeded to a jury trial,
. at which the following evidence was' adduced,
A. Prosecution $vidence

The St. Vincent de Paul shelter on Fifth. Street and Bryant Street in San Francisco,
also.known as MSC South, provides services for homeless Individuals. Clients must pass
thr9ugh metal detectors and security wands at the entrances to the shelter, and they are
· expected to check their weapons with security and reclaim them when they leave. A
Violation of this no-weapons policy will result in an individual being excluded from the
shelter and its services. Despite the policy and its enforcement, it is not uncommon for
clients of the shelter to carry knives for protection.
Appellant, who was homeless, went to the drop-inside of the shelter at about
4:55 p.m. on February 6, 2012, to sign up for a bed for the night. He was carrying a
black computer bag that contained some of his personal effects and belongings, including
a brown-handled folding knife and a black-handled steak knife. Appellant was aware of
the shelter's no-weapons policy, bUt he did not check his two knives with security and
was able to take them inside. Once inside, appellant sat down to wait in the
entertainment area, which had a television and vending machines as well as 35 folding
chairs.
Smith entered the drop-inside of the shelter at about 6:48p.m. artd went through
security, giving the guard a hug. Shelter worker Jaime Torres noticed that Smith had
been drinking, but he was not hostile or belligerent and he had no problems with his
yoordination. James Joyner, a program aide at the shelter, believed Smith was

2

ER018

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 25 of 60

intoxicated, but Smith had a mellow personality and was not being aggressive. Smith
frequently came to the shelter and was generally quiet.
After passing through security, Smith walked into the entertainment area, passing
near the chair where appellant was seated. He walked out of the entettainment area,
retrieved a newspaper, and returned to the entertainment area a few minutes later.
Someone yelled out "Fight!" and Smith staggered out of the entertainment area, bleeding,
having been stabbed with a lmife. Appellant followed Smith, hut Joyner intercepted
. appellant and pushed hiln (appellaitt) up agamst a wall. Joyner described appellant as
having "rage" in his eyes, and he thought appellant was going to "finish [Smith] off."1
Appellant told Joyner to "back up" and Joyner complied, noticing a lmife in appellant's
hand as he did so. Blood was dripping from the lmife. Appellant took his bag and ran
out of the shelter after placing the knife inside his bag.
A video surveillance camera inside the shelter captured appellant's ~d Smith's
~ntry

into the shelter and their movements outside the entertainment area where the

stabbing occurred. The video does not clearly show what happened between them when
Smith was stabbed because a pillar obscures the view, although some movement can be ·
.seen. None of the shelter staff members on duty that evening saw the stabbing.
Whitey Pavao, who was a frequent client of the drop-in shelter, had been sitting in
the entertainment area when Smith arrived. He testified that he noticed Smith walk
throu~h

the entertainment area once and did not see him cause anyone any problems.

Smith returned a second time and appellant said something to him like "I told you to stay
away from here" or "I told you to stay away from me." Smith fell near the vending
. machines, and Pavao saw appellant wrap a "boning knife" in a shirt as he left. Pavao did
not see the actual stabbing, but he heard appellant say something "like he won't rip off
1

In a statement to a defense investigator in September 2012, Joyner said he had
seen fear on appellant's face, like he was having a flashback. . He described appellant's
eyes as "really bulgy, the way sonie people look when they're trying to defend
themselves," and said "if you're trying to defend yourself, you're feeling rage and scared
. at the same tinle.'; Asked about this statement at trial, Joyner testified that he had not
seen the altercation. itself or anythmg to indicate appellant was defending himself.
3

ER019 ·

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 26 of 60

anybody anymore." According to Pavao, appellant stood up from his chair and "[t]hey
had words, and the knife came out. [Appellant] hlt [Smith] with the knife, and then he sat
back down on the chair, wrapped it up in a shirt, and took off." Pavao saw Smith
· "standing in a self-defense stance"· or "a fighter's stance, you know, in a ready stance."
He did not see Smith hit, punch or kick appellant, and did not hear appellant ask Smith if
he was okay after the stabbing.
Pavao provided a short, handwritten statement and was interviewed by police
officers on the night of the stabbing. In his handwritten statement, he wrote, "I also heard
. the man who did the stabbing what sounded like an altercation about having money
stolen, and then he stabbed him, but it was marked for real.". In the interview, Pavao told
police officers that Smith had been walking around in the entertainment area and
appellant ''went and got out of the _chair and stalking with tltat knife." Appellant "came
off the chair and he-he literally, he literally attacked him." After Smith had been
. stabbed, Smith said, "I guess I'm gonna die," and appellant told Smith something to the
· ~ffect of"I guess you're not gonna1'ip anybody off anymore." Pavao did not see Smith
hit or kick appellant before the stabbing. 2
After appellant left the shelter, he threw his folding lmife up onto the roof of a
building and headed to a homeless. encampment under a freeway off-ramp less than a
. block away. At the encampment, appellant took off the hat he had been wearing inside
the shelter and threw it on the ground along wit!t his black bag.
As appellant was leaving tlte homeless encampment, he was stopped by San
Francisco Police Department Sergeant Joseph Allegro, who had received a dispatch about
2

In a statement given to a defense investigator on September 27, 2012, Pavao
said he did not hear appellant say anything about getting "ripped off," but had heard other
clients speculating about iliat possibility after the stabbing. Pavao explained the .·
!liscrepancy at trial: "I couldn't have been sure that they were arguing about money at
the thne of the interview, but I can remember now that he talked about-talked about
ripping off somebody and money before the altercation happened." Pavao· also told the·
defense investigator that before he· was stabbed, Smith assumed a "leaned back fighting
stance with fists closed, both oft!tem one foot forward and one foot back."
4

ER020

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 27 of 60

the stabbing. Allegro asked appellant what he was doing and appellant responded,
. ~'Taking a pis[s]." Officers detained appellant. At some point, Allegro asked appellant
where he planned to sleep that night, and appellant responded, "County jail." Referring
to the homeless encampment, Allegro asked, "Not back there?" and appellant said, "I
_don't live back there, that's somebody else's stuff." Appellant had a fresh cut on the
inner palm side of his right index finger. According to Homicide Inspector John Evans of
the San Francisco Police Department, it is common for stabbing suspects to have wounds
from the knife wielded because a knife has a tendency to slip forward when it strikes
something.
Police searched the homeless encampment and found appellant's hat and computer
bag. The bag contained his stealc knife wrapped in a cardboard sandwich bag box, buried
underneath more plastic bags. Appellant's folding knife was recovered from the rooftop
where appellant had thrown it. DNA samples were ta!cen from each knife and it was
- determined that the folding knife carried Smith's DNA, but the steak knife carried only
. appellant's. The parties stipulated' that the folding knife was the knife that caused
Smith's wound, and that the steak knife was not used to harm Smith.
The autopsy on Smith's body revealed that he had died from a stab wound to the
heart. He did not have any defensive wounds, which is consistent with a surprise attack.
B. Defense Evidence
Appellant testified about the circumstances surrounding the stabbing, which he
described as an accident. He explained that although he knew of the shelter's noweapons policy, shelters are dangerous places and he felt he needed a knife for
protection. He used the folding knife for protection and the steak knife (which he had
found that same day) to cut sandwiches. Appellant claimed the security guard at the
·shelter's entrance saw the knives when he searched appellant's computer bag, but let him
go through without ta!dng them away. Once inside and seated in the entertainment area,
appellant put the folding knife into his jacket pocket for protection,

5

ER021

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 28 of 60

Appellant spoke to another shelter client called "Bubble" and dozed off in the
chair. He was awakened when Smith fell into him and hit him in the face or shoulder.
Appellant recognized Smith from an encounter in 2005 or 2006, when Smith had tried to
kick appellant's legs out from under him due to a dispute over a trivia game. Appellant
had not taken Smith's behavior seriously and would sometimes give him a dollar when he
~

saw him on the street during the ensuing years.
Smith walked over to the vending machines and gave appellant a taunting look.
He left the entertainment area, and appellant got up to smoke a cigarette outside. ·
Appellant saw Smith walking back to the entertainment area holding a partially rolled-up
newspaper. Appellant was uneasy because he lmew people sometimes hid weapons

. inside newspapers, so as Smith approached, appellant took out his folding lmife and told
Smith to "back up." Smith came right at him and either walked or lunged into the knife.
Appellant only Intended to scare Smith, and did not strike at him or thrust the knife into
his chest. He had not seen a weapon in Smith's hand.
When appellant felt the knife enter Smith's chest, he threw it on the floor. 3 He .
followed Smith asking him ifhe was all right, but Joyner pushed him(appellant) against
the waiL Bubble kicked the lmife toward appellant and told him to pick it up, and
appellant took it and left the shelter in shock. Appellant knew the police would be
coming but he wanted to go outside and get some air. He aclmowledged throwing the
folding knife onto the roof of a buVding.

Or. Judy Mellnek, the medical examiner who performed the autopsy on Smith's
body, testified that the knife wound that killed Smith was horizontal and penetrated two
to three inches into Smith's heart, less than the length of the folding knife's blade. A
diagonal wound is more common in stabbing cases, and a horizontal wound is consistent
with someone running into a knife, though the knife could also be thrust into someone's
body at a horiwntal angle. The horizontal nature of the wound does no~ necessarily mean
3

Paul Endo, the defense expert in videography, testified about an enhanced
version of the surveillance video he had prepared and identified a movement on the video
as being consistent with a knife being thrown, and not with a strildng motion,
6

ER022

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 29 of 60

the knife was parallel to the ground when it entered Smith's body, as Smith could have
been bending over.
Smith's body had a 0.21 blood alcohol level at the time of the autopsy and a
vitreous (eye fluid) alcohol level or'0.29 percent. In light of the intravenous fluids and
blood transfusion given to Smith during lifesaving efforts, his blood alcohol level could
have been as high as 0.29 percent, Which would cause serious impairment. According to
Dr. Alex Stalcup, the defense expert on alcohol intoxication, blood alcohol at that level
could cause someone to become aggressive, or to fail to appreciate danger or feel
threatened when they were not, even though regular users of alcohol can build up a
tolerance. Shelter worker Jeynitha Richardson testified that Smith appeared to be
"staggering drunk" when he arrived at the shelter on the night of the stabbing, but he was
not angry or aggressive and could control his movements.
Dr. Margo Kushel, a defense·expert on homelessness, testified that most of her
·home!e~s patients were afraid for their safety in homeless shelters, which were rough
places. Homeless individuals could be hypervigilant and prone to reacting with slight
provocation,
C. Verdict and Posttrial Proceedings
The jury returned a verdict convicting appellant of first degree murder and finding
he had used a deadly weapon in the commission of the offense. (Pen. Code, §§ 187,
12022, subd. (b)(1).) Appellant filed a motion seeking a new trial based on juror
misconduct and· a separate motion .seeking a new trial based on the return of a verdict
contrary to the evidence, the admission of prejudicial evidence due to the court's error of
law, and newly discovered evidence. (Pen. Code, §

11~1,

subds. 3, 5, 6 & 8.) The trial

court denied the motions after holding an evidentiary hearing on the juror misconduct
issue.
The court sentenced appellant to prison for "86 years to life" (actually, 75 years to
life plus 11 years), having found appellant had been previously convicted of two prior
felony convictions for purposes of the Three Strikes law and the serious felony

7

ER023

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 30 of 60

enhancement. (Pen. Code,§§ 667, subd. (a), 1170.12.)4 The sentence consisted of a term
of 25 years to life for the murder conviction, tripled under the Three Strikes law, plus two

a

five-year terms for the serious felony enhancements and one-year term for the weapon
use allegation. (Pen. Code, §§ 190, subd. (a), 667, subd. (a), 1170.12, subd. (c)(2)(A)(i),
J2022, subd. (b)(l).) ·
II." DISCUSSION
A. Juror Misconduct
1. Motion for New Trial and Relevant Proceedings
Appellant contends the trial court should have granted his motion for new trial
based on juror misconduct under Penal Code section 1181, subdivision.3, which applies
when "the jury has ... been guilty of any misconduct by which a fair and due
consideration of the case has been prevented." We disagree. ·
The factual basis for the juror misconduct claim was that Juror No. 8, the
foreperson, failed to disclose during voir dire that he had suffered a misdemeanor:
conviction in 2009 and was unhappy with his representation by his deputy public
defender, who worked for the same office as appellant's trial counsel. The declarations,
testimony and exhibits presented in support and opposition of the motion for new trial on
. this ground established the following:

..

Juror No, 8 was convicted on July 22, 2009 of a misdemeanor count of making a

criminal threat under Penal Code section 422 following a jury trial at which he was.
represented by deputy public defender Emily Dahm of the public defender's office in San
Francisco. The charges arose from an incident in which Juror No. 8 had threatened a
. parking control officer while she was issuing him a citation. At the sentencing hearing

.4

The trial court struck its true findings on allegations based on an additional prior
conviction for aggravated assault under Penal Code section245, subdivision (a)(l),
be.cause the record of that prior conviction showed the assault was committed with hands
and fists, rather than a deadly weapon, meaning it did not qualify as a serious or violent
felony. (See People v. Rodriguez (1998) 17 Ca1.4th 253, 262; People v. Aguilar (1997)
"16 Ca1.4th 1023, 1028-1034.)
8

ER024

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 31 of 60

held on September 25, 2009, Juror No, 8 was placed on probation and ordered to serve
five days in county jail. Dahm filed a notice of appeal on Juror No. 8's behalf, and
private attorney Marsanoe Weese was appointed to represent him in the appellate division
of the superior court. Weese filed a brief stating she could find no arguable issues on
appeal and asking the appellate division to independently review the record under People

y. Wende (1979) 25 Cal.3d 436, and the appellate division affirmed the judgment in an
opinion filed March 28, 2011.
On May 2, 2011, Dahm appeared on behalf of Juror No. 8 in superior court, at
which time the remittitur was "spread upon the minutes," that is, read into the record.
Juror No. 8 was not present for this proceeding. He had not coiUIUunicated with Dahm
since his sentencing hearing in 2009 and was unaware of his appeal, the identity of his
appointed c~unsel. on appeal, or of the hearing at which the remittitur was spread. Juror
No. 8 believed he had been wrongfully convicted and was highly dissatisfied with the
representation provided by Dahm ..
Juror No. 8 was called for jury service and assigned to the panel in appellant's
case. Appellant was represented at trial by Jeff Adac.hi, the elected Public Defender of
the City and County of San Francisco. Before voir dire began on March 18, 20 13, the
jurors completed a written questionoaire. Question No. 24 asked, "Have you, -a family
member, or a close friend ever been investigated, arrested, charged with, or convicted of
· any crime?" Juror No. 8 responded no. Question No. 27 asked, "What are your opinions,
if any, of prosecutors and/or criminal defense attorneys?" Juror No. 8 wrote, "NA."
Question No. 38 asked,' "The judge will instruct you as follows: Do not let bias,
sympathy, prejudice or public opinion influence your decision. You must reach your
verdict without any consideration of pimishment. Is there any reason you would be
·unable to comply with this order?" Juror No. 8 answered no, Question No. 61 asked,. "Is·
there any matter not covered in this questionnaire that you think the attorneys or court
should know when considering you as a juror in this case?" and "Is there any other reason
why you might not be able to be an impartial judge of the facts for both the prosecution
and defense in this case?" Juror No. 8 responded no to both parts of the question, He
9

ER025

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 32 of 60

· also indicated he did not know the prosecutor or"[ d]efense lawyer and Public Defender
Jeff Adachi." During voir dire itself, Adachi asked the prospective jurors whether
anyone had negative feelings about defense attorneys, and Juror No. 8 did not raise his
hand or otherwise reply. On March 21, 2013, the jury and six alternate jurors were
impaneled.
On Aprill2, 2013, the day of the verdict in appellant's case, Dahm was in the
courthouse on another matter and ran into Juror No. 8 in the hallway. Although Juror
No. 8 did not recognize her at first (she had been pregnant a11d had longer hair when she
represented him in 2009), they had a brief and friendly conversation. Juror No. 8 told
· Dahm he was going to go do his civic duty, which led Dahm to believe he had been
· called for jury duty, but she saw him later in the day outside the courtroom where
appellant's case was being tried and learned at that time he was on appellant's jury.
Dahm knew Adachi was trying the case and told Juror No. 8 she could not talk to him
and asked him to contact her when. the case was over. She emailed Adachi to advise him
that a former client was on his jury, and Adachi reviewed Juror No.8's questionnaire
· during the following week, after the jury had returned its verdict. Had Adachi known of
Juror No. 8's prior relationship with his office, he would have exercised a challenge and
removed him from the jury panel.
Juror No. 8 testified at the hearing on the motion for new trial under a grant of
immunity and while represented by counsel. He explained that he had not disclosed his
· 2009 conviction on the jury questionnaire because over three years had passed and he

was trying to forget about it. He felt he could be fair and impartial when he was selected
to be a juror in appellant's case, though he fretted extensively over the possibility that an
unconscious bias based on his experience with Dahm might have affected his jury
service, He was not trying to cheat appellant out of a fair trial and he did not recall
· pol ding any of his negative feelings about Dahm against appellant. He did not have any
negative feelings about appellant or Adachi, and he did not realize Adachi was from the
san1e office as Dahm. He also did not realize that the prosecutor in appellant's trial was
from the same office as the prosec?tor in his misdemeanor case. Juror No. 8's daughter,
10

ER026

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 33 of 60

who had wimessed her father's arrest in 2009, testified that he did not discuss the incident
leading to his conviction very often because it wa~ upsetting to his wife, but that he had
alluded to it several times during 2012. Though her father sometimes told small lies and
exaggerated things, she believed he was an honest person and would not vote to convict
somebody else simply because he pelieved he himself had been wrongfully arrested and
convicted.
The trial court issued a detailed written order denying the motion for new trial.
Citing
it concluded
. People v.Blackwell (1987) 191 Cal.App.3d 925,929 (Blackwell),
.
Juror No. 8 had cotnmitted misconduct by falsely indicating on the questionnaire that he
had not been convicted of a crime,_ which gave rise to a p~esumption of prejudice, The
trial court found this presumption ?ad been rebutted, the evidence having shown no
. substantial likelihood Juror No ..8 harbored actual bias against appellant. The trial court
rejected appellant's argument that bias should be implied under Code of Civil Procedure
section 229, subdivision (b), Which sets forth the grounds for a challenge for cause based
on implied bias, or under case law recognizing that a juror's bias may be implied under
exceptional circumstances. Finally, the court concluded a new trial was not required
. under McDonough Power Equipment, Inc. v. Greenwood (1984) 464 U.S. 548, 555-556
(McDonough), which addresses the effect of a juror's untruthful response during voir dire

where a truthful response would have provided a valid basis for a challenge for cause.
Appellant argues the trial court erred in denying his motion for new trial based on
juror misconduct because (1) Juror No. 8;s failure to disclose his 2009 misdemeanor
. conviction was misconduct giving rise to a presumption of prejudice that was riot
rebutted by the prosecution, and (2) the public defender's prior representation of Juror
No. 8 established implied bias giving rise to a challenge for 'cause, which entitles
appellant to a new trial under McDono1;1gh, supra, 464 U.S. 548.
2. Juror Misconduct; Actual Bias .
" 'A juror who conceals relevant facts or gives false answers during the voir dire
examination . ; . undermines the jury selection process and commits misconduct.

11

ER027

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 34 of 60

[Citations].' " (In re Boyette (2013) 56 Ca1.4th 866, 889 (Boyette), citing In re Hitchings
(1993) 6Ca1.4th 97, 111.) Once misconduct is established, it raises a presumption of
prejudice. (People v. Nesler (1997) 16 Ca1.4th 561, 578 (Nesler); People v. Stanley
(1995) 10 Ca1.4th 764, 836.) 'fhis presmnption "excuses the defendant from
a-ffirmatively proving prejudice when that cannot be done" and "prevails ' "Uilless the
contrary appears." ' " (In re Carpenter (1995) 9 Ca1.4th 634, 657.)
No.twithstanding the presumption of prejudice that arises from a juror's
concealment of material information, "we determine whether an individual verdict must
. be reversed for jmy misconduct by applying a substantial likelihood test That is, the
'presumption of prejudice is rebutted, and the verdict will not be disturbed, if the entire
record in the particular cruie, including the nature of the misconduct or other event, and
the smrounding circumstances, indicates there is no reasonable probability of prejudice,
. · i.e., no substantial likelihood that one or more jmors were actually biased against the
defendant.'
" (Boyette, supra, 56 Cal .4th
.
. at pp. 889-890.) "[T]he test asks not whether
.
the juror would have been stricken by one of the parties, but whether the jmor's
concealment (or nondisclosure) evidences bias." (Id. at p. 890.) Whether pr~judice arose
from jmor misconduct is a mix-ed question of law and fact subject to an appellate eourt's
·independent review, accepting the trit}l court's credibility determinations and findings of
histol'ical fact when supported by substantial evidence. (People v. Gamache (2010) 48
Ca1.4th 347, 396 (Gamache); People v. Ault (2004) 33 Cal.4th 1250, 1261-'1263; Nesler,
supra, 16 Ca1.4th at p. 582.)
The parties agree Juror No .. 8 committed misconduct when he did not reveal his
· 2009 misdemeanor conviction on his questionnaire, The issue is whether the
presumption of prejudice that arises from this misconduct was rebutted~whether the
record establishes there was no substantial likelihood Juror No. 8was actually biased
against appellant. We answer this question in the afftrmative.
In assessing whether the presumption of prejudice arising from a juror's
· concealment of a material fact has been rebutted, "the court should ... determine if
prejudice to the defendant in selecting the j11ry reasonably could be inferred from the
12

ER028

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 35 of 60

juror's failure to respond," (Blackwell, supra, 191 Cal.App.3d at p. 930.) Although Juror
No, 8 unquestionably should have disclosed his misdemeanor conviction for crimi!J.al
threats, prejudice against appellant cannot reasonably be inferred from his false answer to
, the jury questionnaire. The circi.III).Stances leading to the misdemeanor conviction were
completely different than the facts underlying appellant's murder charge, and no bias
against appellant appears from the misdemeanor conviction itself.
The dissimilarity between the events leading to Juror No.8's conviCtion and the
homicide with which appellant was charged distinguishes the situation before us from the
· prejudicial juror misconduct in Blackwell, supra, 191 Cal.App.3d at pp. 929-931. The
'

.

defendant in Blackwell was a woman convicted of murdering her husband, who presented

adefense of" 'battered wife syndrome.' "

(Id. at p. 927.) Afterthe verdict was rendered,

it was discovered that a female jurQr who had been the victim of domestic violence had
failed to disclose as much during voir dire. (Id. at p. 928.) The court concluded that
·under the circumstances of the case, prc;:judice could not be rebutted: "[The defendant's]
defense was that her husband's abusive conduct caused her to entertain an honest, even if
unreasonable, belief in the necessity to defend herself against imminent bodily injury.
[Citation.]. Juror R.'s affidavit rev~als her bias: when confronted with a situation similar
to [the defendant's], she was able to escape an abusive husband without resort to physical
· violence or self-defense. She felt that if she could do so appellant should have governed
?erself accordingly. As a. consequence, the presumption of prejudice is even stronger."
(Id. at p. 931; see People v. Dlaz (1984) 152 Cal.App.3d 926,930-932 (Diaz) [in trial on

assault with a deadly weapon charge, court should have discharged juror after learmng on
the last day of trial that she had been a victim of a lmifepoint attack and had concealed ·
·that fact during voir dire]; compare Boyette, supra, 56 Cal.4th at pp. 889-890. [juror's
concealment of criminal history and substahce abuse issues of himself and his close
family members was not prejudicial because concealment did no.t suggest actual bias].)
The actual bias that might lqgically flow from Juror No. 8's prior misdemeanor
case was not his prosecution and c~nviction per se, but the. fact he had been represented
. by the same public defender's office that was representing appellant, and was unhappy

13

ER029

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 36 of 60

with his attomey. But even if we accept that a juror who was disgruntled with his
representation in a prior climinal case might be bi.ased against a different lawyer from the
same organization, and that this bias might affect his ability to be fait' to the party
represented by the lawyer, this could only occur where the juror had made the connection
between the two lawyers. In this case, Juror No. 8 testified that he had not understood
Adachi and Dahm worked in the same office. The trial court accepted this historical fact
and found Juror No. 8 to be credible on this point, a factual determination by which we
are bound. (Gamache, supra, 48 Cal.4th at p. 396.) In light ofthis,'there is no
substantial likelihood Juror No. 8 was biased against Adachi, much less against appellant,
by virtue of his misdemeanor conviction or his representation by Dahm. 5
Appellant notes that during his testimony at the hearing on the motion for new
'

trial, Juror No. 8 expressed concern about the effect his misdemeanor conviction might
have had on his deliberations. It is true Juror No; 8 made a number of statements
speculating that his prior conviction might b.ave affected his performance in appellant's
case in some way: "You know, I was upset about that verdict from before, so .it was in
me, you know, but I didn't act like it didn't matter or it wasn't going to matter when I ·.
answered that [the questionnaireJ. I would have li.ked to forget ab'out it, but maybe I
didn't. [~ .•. [~ [L]ike I say, I'm not a psychologist, but it's there, and lguess, yeah, I
guess it could have affected it, yo~· know, the ~ecision that I made, so yes." But at no
point could Juror No. 8 explain how that conviction might have- affected his service in
appellant's case, and he also indicated he wanted both sides to have a fair trial and would.
have informed the court if he had believed there was some reason he could not give both
sides a fair trial.
The trial court concluded th,at Juror No. 8's speculation about his possible
unconscious bias was the product of his anxiety during the new trial hearing, at which he
5

Althougq Dahm testified that she had met with Juror No. 8 at the public
defender's office while she was representing him and was confident he knew at that time
that she worked for the public defender, there is nothing inherently improbable about a
layperson failing to connect her with Adachi after a gap of more than three years.
14

ER030

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 37 of 60

did not initially appear to apprecia~e he had been granted hmmmity from a pl'Osecution
for perjury. The court determined Juror No. 8 was truthful when he testified that when he
filled out the questiotmaire he believed he could give appellant a fair trial-a credibility
determination to which we defer. (Gamache, supra, 48 Cal.4th at p. 396.)
Our independent review of the record satisfies us that there is no substantial
likelihood Juror No. 8 was actually biased. The presumption of prejudice arising from
his concealment of his misdemeanor conviction and prior representation was adequately
rebutted.
3. McDonough and Code of Civil Procedure section 229. subdivision (b)
Under California law, a juror may be challenged for cause for one of the following
reasons: "(A) General disqualification-that the juror is disqualified from serving in the
~ction on trial. [~

(B) Implied bias-as, when the existence of the facts as ascertained,

in judgment of law disqualifies the juror. [1! (C) Actual bias-the existence of a state
of mind on the part of the juror in reference to the case, or to any of the parties, which
will prevent the juror from acting with entire impartiality, and without prejudice to
the substantial rights of any party." (Code Civ. Proc., § 225, subd. (b)(l)(A)·(C).)
Code of Civil Procedure section 229 provides in relevant part: "A challenge for
implied bias may be taken for one or more of the following causes, and for no other:

[f.l ... [~] (b) , .. having stood within one year previous to the filing of the complaint in
the action in the relation of attorney and client with either party or with the attorney for
either party."
Appellant argues that Juror No. 8' s prior representation by the public defender's
office (which would have come to light if the 2009 misdemeanor had been revealed)
subjected that juror to a challenge for cause based on implied bias under Code of Civil
Procedure section 229, subdivision (b). He further argues that Juror No. 8's failure to
disclose that information during voir dire entitles appellant to a new trial as a matter of
federal law based on the decision in McDonough, supra, 464 U.S. 548, regardless of
whether the record establishes a substantial likelihood of actual bias.

15

ER031

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 38 of 60

We agree with appellant that his trial attorney, Jeff Adachi, had an attorney-client
relationship with Juror No. 8 in the2009 misdemeanor case. (People v. Sapp (2003) 31
Cal.4th 240, 256 [" 'In cases handled by the public defender's office, it is the ofticeholder
who is the attorney of record' "].) And, in light of Dahm's court appearance on behalf of
Juror No. 8 on May 2; 2011, at the hearing to spread the remittitur, we assume that
attorney-client relationship still existed "within one year previous to the filing of the
complaint" in appellant's case, as l,'equired for Code of Civil Procedure section 229,
subdivision (b) to apply. 6 That said, we are not persuaded McDonough requires a new
trial.
The decision in McDonough arose from a civil suit filed in federal court under its
diversity jurisdiction, in which a child and his parents sued an equipment manufacturer
for injuries suffered by the child when riding on a lawnmower. (McDonough, supra, 464
U.S. at p. 549.) During voir dire, the jurors were asked whether they or any of their
immediate family members had sustained any accidental injuries resulting in disability or
prolonged pain and suffering. (Jd, at p. 550.) After a verdict had been rendered in favor
of the manufacturer, the plaintiff~ brought a motion for new trial on the ground that one
of the jurors had failed to disclose his son had been injured when a truck tire exploded. ·
~Id.

at pp. 550-551 .) The district court denied the motion but the court of appeals

reversed, accepting the plaintiffs' argument that the juror's concealment of information,
even if ma(le in good faith, had impaired the plaintiffs' right to exercise a peremptory
challenge. (Id. atpp. 552-553.)
The United States Supreme' Court reversed the decision of the court of appeals
~ecause a new trial was not appropriate absent a showing of prejudice under Rule 61 of

the Federal Rules of Civil Procedure. (McDonough, supra, 464 U.S. at pp. 552-555.) It
stated: "A trial represents an important investment of private and social resources, and it

ill serves the important end of finaJity to wipe the slate clean simply to recreate the
'

6

The charges against appellant were initiated by a criminal complaint filed
February 9, 2012, about nine months after Dab.tn's appearance at the hearing.
16

ER032

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 39 of 60

peremptory challenge process because counsel lacked an item of information which
objectively he should have obtained from a juror on voir dire examination.... We hold
that to obtain a new trial in such a situation, a party must first demonstrate that a juror
failed to answer honestly a material question on voir dire, and then further show that a
correct response would have provided a valid basis for a challenge for cause. The
motives for concealing information may vary, but only th·ose reasons that affect a juror's
impartiality can truly be said to affect the fairness of the tl'ial." (Id. at pp. 555-556.)
Appellant's argument presumes that the quoted language in McDonough
establishes a two-pronged test that requires a new trial in state court criminal
proceedings, regardiess of actual bias or prejudice, whenever a juror has concealed a
material fact during voir di~e and a correct response would have provided grounds for a
challenge fot cause under state law: We do not agree. McDonough does not directly
apply to a California criminal trial'because it involved an implementation of a rule of
~ederal civil procedure, rather than an interpretation of the federal Constitution, "Federal

rules based on the supervisory power of the United States Supreme Court over the
administration of justice in the federal courts ... are not binding on the states." (People
v. Thayer (1965) 63 Ca1.2d 635, 639; see People v. Guiton (1993) 4 Cal .4th 1116, 1126
( Guiton).) And, even if we were to agree that the "two-prong test" of McDooough
~pplied to this case, and tlu!t !}ppellant's trial counsel would have been entitled to excuse

Juror No.8 for cause if the prior representation by the public defender had been disclosed
during voir dire, it does not follow that a new trial should be granted when the
presumption of prejudice can be r~butted.
Appellant observes that in People v. Ledesma (2006) 39 Ca!Ath 641,669-670
(Ledesma), our state Supreme Court described implied bias under Code of Civil .

· Procedure section 229 as "a presumption of bias that could not be overcome by a finding
that [the juror] cduld be fair and impartial." Ledesma does not assist appellant. The cited
comment was part of a discussion in which the court rejected the defendant's claim that a
juror who was employed as a corrections officer should have been excused for cause
·during voir dire based on implied bias. (Ibid.) The case says nothing about what should

17

ER033

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 40 of 60

happen when a juror who would be subject to a challenge for cause based on one of the
statutory grounds liswd in Code of Civil Procedure section 229 actually sits on the jury
and the issue is raised for the first time in a motion for new trial. Penal Code section
1181, subdivision 3 provides for a new trial based on juror misconduct "by which a fair
· and d~e consideration of the case has been prevented." The high court in McDonough
\)mphasized that in light of the resources invested in a trial, a judgment should only be set
aside where a juror's concealment of information affects the fairness of the trial, in other
words, when prejudice has been established. (McDonough, supra, 464 U.S. at pp. 553·
556; seeDiaz, supra; 152 Cal.App.3d at p. 938 [contrasting juror misconduct discovered
· during trial with juror misconduct issl\e raised in posttrial proceedihgs].)
In an analogous context, this court has addressed the analysis to be employed
when a juror who is .disquali~ed from jury service due to a felony conviction fails to
disclose that ex-felon status during voir dire. (People v. Green (1995) 31 Cal.App.4th
1001, 1017-1020 (Green!); Code.ofCiv. Proc., § 203, subd~ (a)(5).) In such a situation,
· the concealment of an ex-felon status is juror misconduct giving rise to a presnmption of
, prejudice, but this presumption is subject

to rebuttal. (Green I, at pp. 1017-1020.) We

· see no reason for establishing a more stringent standard for the concealment of a status
that would allow a challenge for cause based on implied bias under Code of Civil
.Procedure section 229.7
7 The defeqdant in Green I subsequently filed a petition for writ of habeas corpus
in federal district court under the Antiterrorism and Effective Death Penalty Act, 28
U.S.C. § 2254. Although the district court denied the petition, the defendant prevailed in
an appeal to the Ninth Circuit Court of Appeals, which ruled that this court's decision
affirming the judgment in Green Jwas "based on an unreasonable determination of the
facts in light of the evidence presented in the state court proceedings." (Green v, White
·(9th Cir. 2000)232 F.3d 671,672, 675-676 (Green II).) The Ninth Circuit coucluded the
prosecution had not rebutted the presumption of prejudice. arising from the juror
misconduct, which went far beyond the concealment of ex-felon status and included
statements by the juror during deliberations that he knew the defendant was guilty the.
moment he saw him and that he wanted to kill the defendant himself. (Green II, at
pp. 673, 676.) Though the Ninth Circuit disagreed with the conclusion in Green I that
·prejudice had been rebutted, nothing in Green II suggests ajuror's concealment of
18

ER034

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 41 of 60

We acknowledge federal cases recognizing that even in the absence of actual bias,
o'

"in rare instances a court will find implied bias, which is 'bias conclusively presumed as
a matter oflaw.'" (United States v. Olsen (9th Cir. 2013) 704 F.3d 1172, 1191 [juror's
conversations with friend about the case when it was reported in the news a year before
the trial did not support finding of implied bias].) Such bias should be presumed only in
, "'extreme'" or" 'extraordinary'" cases, and has been.recognized only in two contexts:
:'first, 'in those extreme situations "where the relationship between a prospective juror
and some aspect of the litigation is such that it is highly unlikely that the average person
could remain impartial in his deliberations under the circumstances," ' [citation] and
second, 'where repeated lies in vo~r dire imply that the juror concealed material facts in
. order to secure a spot on the particular jury.' " (!d. at pp. 1191-1192.)
The bias that is implied statutorily under state law by virtue of a recent attorneyclient relationship is not comparable to the extreme and extraordinary situations in which
bias is presumed under federal law and may not be rebutted. Code of Civil Procedure
section 229, subdivision (b) applies only to relationships existing within one year of the
. filing of the complaint in the case being tried; if the Legislature had believed a previous
attorney-client relationship was so inherently prejudicial that bias could not be rebutted in
the context of a posttrial juror misconduct claim, we think it unlikely the provision would
have extended only to those relationships falling within a one,year time frame. (Compare

United States v. Gonzalez (9th Cir: 2000) 214 F.3d 1109, 1111-1114 [implied bias found
. where ex-husband ofjumr in cocaine distributi9n case had used mtd dealt cocaine,
contributing to the breakup oftl1e family]; Dyerv. Calderon (9th Cir. 1998) 151 F.3d
970, 972-974, 979-985 [bias implied where juror in murder case denied during voir dire
that she or any family member had been a victim of a crime or accused of a crime; among
otl1er things, her brother was victi1h of a homicide and was killed in a manner similar to
. the victims in the case on which she sat and her husband had been arrested for rape];

ex-felon status during voir dire requires reversal in the absence of actual bias or prejudice
when the issue is raised in a posttrial proceeding.
19

ER035

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 42 of 60

Tinsley v. Borg (9th Cir. 1990) 895 F.2d 520,526-529 [no implied bias on part of juror in
· rape case who had counseled rape victims as part of her job as social worker when neither
she nor a close friend

or family member had been a victim of rape]; United States v.

Eubanks (9th Cir. 1979) 591 F.2d 513, 517 [implied bias where sons of juror in a heroin
distribution case were themselves heroin users who were serving prison sentences];
United States v. Allsup (9tlt Cir. 1977) 566 F.2d 68, 71-72 [court should have granted
· challenge for cause to two prospective jurors who worked for different branches of the
~ank

the defendant was accused of robbing].)
Any bias implied under Code of Civil Procedure section 229, subdivision (b) was

rebutted for reasons already discussed. The trial court did not err in denying the motion
for new trial based on juror misconduct.
B. Evidence ofFirst Degree Murder
The jury was instructed on two theories offrrst degree murder: (1) willful,
deliberate and premeditated murder; and (2) murder by lying in wait. (Pen. Code, § 189 .)
In his motion for new trial, appellant argued the verdict for first degree murder under
either of these theories was "contrary to ... [the] evidence" under Penal Code section
· 1181, subdivision 6. Appellant contends the trial court abused its discretion in denying
his motion for new trial on this ground, and further argues the evidence was insufficient
I

to support a conviction of first degree murder under either theory, We conclude he is not
entitled to a modification of the judgment or a new trial.
In ruling on a motion for new trial under Penal Code section 1181, subdivision 6,
· the trial judge examines the evidence to determine whether it is sufficient to prove each

.

element beyond a reasonable doubt to his or her satisfaction, effectively sitting as a "13th
juror." (Porter v. Superior Court (2009) 47 Cal.4th 1.25, 133; see People v. Robarge
(1953) 41 Cal.2d 628, 633 (Robarge).) "The trial court has broad discretion in
determining whether the evidence has sufficient probative value to sustain the verdict
·(citation], and its order will not be reversed on appeal 'absent a manifest and
unmistakable abuse of that discretion.' " (People v. Dickens (2005) 130 Cal.App.4th

20

ER036

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 43 of 60

·1245, 1252,) In its written order, the trial court appropriately indicated it was required to
independently review the evidence when considering whether the first degree murder
. verdict was contrary to the. evidence, and appellant does not contend the trial court
~isconstrued the

scope of its discretion, (See Robarge, at p. 633; compare People v.

Carter (2014) 227 Cal.App.4th 322, 328.)

Where, as here, the trial court understood the scope of its discretion under Penal

.

.

Code section 1181, subdivision 6, our standard of review dovetails with the standard for
. assessing the sufficiency of the evidence on appeal, which requires us to consider "the
yntire record in the light most favorable to the judgment below to determine whether it
contains substantial evidence-that is, evidence which is reasonable, credible, and of
solid .value-from which a rational. trier of fact could find the
defendant guilty beyond a
.
reasonable doubt, [Citations.]"
(People
.
. . v. Mendoza (2011) 52 Cal.4th 1056, 1068.1069
'

. (Mendoza); see People v. Watkins (2012) 55 Cal.4th 999, 1018·1020 [substantial

evidence standard applied on appeal when trial court denied motion for new trial based
on insufficient evidence under Pen. Code,§ 1181, subd. 6.) We conclude substantial
evidence supports the conviction of first degree murder under a theory of premeditation
and deliberation, and that consequently, the trial court did not abuse its discretion in
. concluding the verdict was not contrary to the evidence, (See People v. Lewis (200 1) 26
Cal.4th 334, 365 (Lewis).)
" ' "A verdict of deliberate and premeditated first degree murder requires more
than a showing of intent to kill. [Citation.]
'Deliberation' refers
to careful weighing of
.
.
considerations informing a course of action; 'premeditation' means thought over in
. advance.· (Citations.]"'" (Mendoza, supra, 52 Cal.4th at p. 1069.) "An intentional
, killing is premeditated and deliberqte if it occurred as the result of preexisting thought
'
.
and reflection rather than unconsidered or rash impulse. [Citations.] However, the
requisite reflection need not span a specific or extended period of time." (People v.
Stitely (2005) 35 Cal.4th 514, 543.)

In People v. Anderson (1968) 70 Cal.2d 15, 26·27 (Anderson), the state Supreme
Court identified three categories of evidence relevant to the presence of premeditation
21

ER037

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 44 of 60

and deliberation: (1) planning activity, (2) motive, and (3) the manner of the killing. ·

(Mendoza, supra, 52 Cal.4th at p. 1069.) Though these so-called Anderson factors are
not exhaustive or exclusive of other considerations (ibid.), their application to the present
case supports a :finding the murder· was premeditated.
We turn first to planning. The evidence does not show appellant went to the
shelter expecting to find or confront Smith, but it does show that several minutes elapsed
between the time appellant was aware of Smith's presence and the stabbing itself.
Although appellant testified that he had put the knife in his pocket before sitting down in
the chair to sleep, the jury was not required to credit this testimony and could have
concluded that he retrieved the knife from his bag after his first encounter with Smith .

.

Viewed in the light most favorable to the judgment, appellant had ample time to pause
and reflect before the killing. " ' " 'Thoughts may follow each other with great rapidity
and cold, calculated judgment may be arrived at quicldy.'

'l ' "

(Mendoza, supra, 52

Cal.4th at p. 1069.)
The prosecution also presented evidence of motive, the second Anderson factor.
Whitey Pavao testified that before appellant stabbed Smith, he said something about
money, like "he won't rip off anybody anymore" or "you're not going to steal something
from somebody else." This was consistent with a statement Pavao gave to police officers
on the night of the stabbing, in which he told them ''the gt{y who did the stabbing said I
guess you're not going to rip anyone off anymore or something, but I remember him
saying something to that effect about money and stealing the money, about money, okay"
and "yeah, he said yeah, yeah, you're not going to steal something from somebody else."
The jury was entitled to credit Pav~o's trial testimony and prior consistent statement to
police and to conclude appellant stabbed Smith because he believed Smith had stolen
from him or was about to steal from him. (People v. Pensinger (1991) 52 Cal.3d 1210,
1238 [sufficient ·evidence of premeditation and deliberation where defendant was
motivated by "an incomprehensible need for revenge over the theft of his rifle"; "the
incomprehensibility of the motive does not mean that the jury could not reasonably infer
that the defendant entertained and acted on it"].)
22

ER038

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 45 of 60

Finally, fue manner of the killing supports a determination appellant acted with
premeditation and deliberation. Appellant stabbed Smifu in the heart,.a vital area of the
body. (See People v. Bolden (2002) 29 Cal.4th 515, 561.) A" 'particular and exacting'"
ldlling allows the jury to infer deliberation and premeditation, and supports a conviction
of first degree murder. (People v. Caro (2012) 46 Cal. 3d 1035, 1050, disapproved on
another grotmd as stated in People v. Whitt (1990) 51 Cal. 3d 620,657, fn, 29; People v.
Garcia (2000) 78 Cal.App.4thl422, 1428.) Shelter worker James Joyner told police that
after.the stabbing, appellant followed Smith as he staggered away, looldng like he wanted
to "fmish the job," and, when he identified appellant that same night in a lineup, he told

. officers appellant ''was trying to finish him (Smith) off." Joyner's statements (and his
similar testimony at trial) strongly suggest the stabbing was a part of a deliberate plan to

idu Smith rather than the accident described by appellant.
Because the evidence was sufficient to support a conviction of first degree
premeditated murder, we need not' consider whether it also supported a conviction tmder
a lying-in-wait fueory. Any deficiency in the evidence of lying in wait is harmless
:'absent an affirmative indication in the record fuat the verdict actually did rest" on the .
lying-in-wait theory. (Guiton, supra, 4 Cal.4th at p. 1129 [where case given to jury on
different factual theories, one of which is not supported by the evidence, court presumes
the jurors rejected that theory and based the verdict on the factually supported theory].)
The record does not affirmatively indicate the jury relied on lying in wait rather than
premeditation as a basis for first degree murder, and appellant was not entitled to a new
trial, or to reversal of the judgment, even if we assume for the sake of argument that the
evidence did not support a lying-in-wait theory.
Appellant argues that the fi~st degree murder conviction cannot stand because the
testimony of Whitey Pavao was "incoherent, inconsistent and contradicted by the
videotape of fue incident.'> We do not agree. " 'It is blackletter law that any conflict or
contradiCtion in the evidence, or any inconsistency in the testimony of witnesses must be
resolved by the trier of fact who is the sole judge of the credibility of the witnesses. It is
well settled in California that one witness, if believed by the jury, is sufficient to ·sustain a
23

ER039

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 46 of 60

verdict. To warrant the rejection by a reviewing court of statements given by a witness
who has been believed by the trial court or the jury, there must exist either a physical
impossibility that they are true, or it must be such as to shock the moral sense of the
court; it must be inherently improbable and such inherent improbability must plainly
appear. [Citations.]'" (People v. Breault(l990) 223 Cai.App.3d 125, 140-141; see
People v. Young (2005) 34 Cal.4tll; 1149, 1181.)

A person may be disqualified as a witness only if he or she is "(1) Incapable of
expressing himself or herself concerning the matter so as to be understood, either directly
or through interpretation by one who can understand him; or [~] (2) Incapable of
understanding the duty of a witnes·s to tell the truth." (Evid. Code,§ 701, subd. (a); see
Evld. Code,§ 700; People v. Mincey (1992) 2 Cal.4th 408, 444.) Even mentaUy ill and
delusional witnesses are qualified to testifY, and it was up to the jury (and the trial court, ·
ht ruling on the motion for new trial) to decide how much of Pavao's testimony should be
credited. (See Lewis, supra, 26 Cal.4th at pp. 357-358 [although testimony "may have
consisted of inconsistencies, incoherent responses, and possible hallucinations, delusions
and confabulations, [the witness] 'presented a plausible account of the circumstances of
[the victim's] miU'der' 'l)
Pavao's testimony was disjointed and odd at certain points, but his description of
the stabbing w~s relatively straightforward and consistent with what he told police
officers when interviewed that sanie night. The jury watched the surveillance video and
could determine for itself whether Pavao's testimony was contradicted in any way by
~hat was

captured on camera. Pavao was impeached with evidence·ofhis chronic use of

alcohol and he acknowledged on cross-examination he sometimes had visions, including
a vision of a stabbing incident at the shelter that was similar to the actual event involving
appellant and Smith. But nothing in Pavao's description of the incident was physically
impossible or inherently improbable, and we will not second guess the jury or the trial
s;ourt in their evaluation of the weight to be given to his testimony.
Framing the argUment slightly differently, appellant argues the prosecution failed .
to carry its burden of showing he did·not act as a result of a "sudden quarrel or heat of
24

ER040

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 47 of 60

passion" that rendered the killing voluntary manslaughter rather than murder. (Pen.
Code, § 192, subd. (a).) We disagree.
The provocation variant of voluntary manslaughter "has both an objective and a
subjective component. [Citation.] The defendant must actually, subjectively, kill under
the heat of passion. [Citation,] But the circumstances giving rise to the heat of passion
are also viewed objectively. As we explained long ago in interpreting the same language
of section 192, 'this heat of passion must be such a passion as would naturally be aroused
· in the mind of an ordinarily reasonable person under the given facts and circumstances,'
because 'no defendant may set up his own standard of conduct and justifY or excuse
himself because in fact his passions were aroused, unless further' the jury believe that the
facts and circumstances were sufficient to arouse the passions of the ordinarily reasonable
man.'" (People v. Steele (2002) 27 Cal.4th 1230, 1252-1253.) A person acts upon a
· sudden quarrel or in the heat of passion if he or she "acts without reflection in response to

.

adequate provocation." (People v. Beltran (2013) 56 Cal.4th 935, 942.) Provocation is
legally adequate if it " ' ''would cause the ordinarily reasonable person of average
disposition to act rashly and ... from ... passion rather than from judgment." ' " (Ibid.)

.

.

There is little if any evidence to show adequate provocation under this standard.
· Crediting appellant's own testimony, Smith ran into or hit appellant while appellant was
sleeping in a chair, glared at him, and approached him a few minutes later with a
newspaper in his hands, conduct that falls far short of the kind that would cause an
ordinarily reasonable person to act· out of passion rather than from judgment. Smith's
acts were not the kind that would give rise to "an emotion that obliterates reason that
· would prevail in the mind of a reasonable person." (People v. Johnson (2003) 113
Cal.App.4th 1299, 1311.) Certainly, the evidence did not compel a verdict of voluntary
manslaughter as a matter of law, and does not require us to set aside the jury's verdict or
the trial court's ruling on the motiQn for new trial.
· Appellant finally argues that his conviction should be reduced to involuntary
· manslaughter because the evidence showed that at worst, he acted in imperfect
self-defense, but without express or implied malice. We reject this argument, having
25

ER041

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 48 of 60

already concluded that substantial evidence supports a finding of premeditated and
deliberate first degree murder.
C. EvMence ofSecond Knife

Appellant argues the trial court erred in admitting evidence that on the night of the
stabbing, he was in possession of a we!lpoit not used in the commission of the offense.
Whether we view the challenge as being to the trial court's ruling admitting the evidence
'

at trial, or to its order denying a motion for new trial on that ground (Pen. Code,§ 1181,
subd. 5), we review the claim for abuse of discretion aild find none. (See People v.
· Harris (2005) 37 Cal.4th 310,337 [evidentiary ruling reviewed for abuse of discretion];
People v. Delgado (1993) 5 Cal.4th 312, 328 (Delgado) [ruling on motion for new trial
reviewed for abuse of discretion].)
Over defense objection, the court indicated it would allow the prosecution to elicit
evidence that appellant's bag, which was founa in the homeless encampment near the
· shelter, contained a black-handled, fixed-blade steak knife in a cardboard sandwich bag
box, which was wrapped in plastic sandwich bags and buried underneath other plastic
sandwich bags .. The parties stipulated that the steak lmife was not used to stab Smith and
did not carry Smith's DNA, although appellant's DNA was found on the knife.
Appellant argues, as he did in his motion for new trial, that the evidence regarding the
·

~ec0nd

knife was inadmissible because it was not used to stab Smith.

In People v. Riser (1956) 47 Ca1.2d 566,576-577 (Riser), disapproved on other
grotmds in People v. Chapman (1959) 52 Cal.2d 95, 98 andPeople·v. Morse (1964) 60
Ca1.2d 631, 637, fn. 2, the court held inadmissible evidence of guns, holsters and
ammunition that had not been used in the commission of the charged murder. The court
· explained tl1at when the prosecution relies on a specific type of weapon used to commit a
homicide, a trial court should exclude "evidence that other weapons were found in [the
defendant's] possession, for such evidence tends to show, not that he committed the
cdme, but only that he is the sort of person who carries deadly weapons." (Riser, at
.
p. 577.) Similarly, in People v. Henderson (1976) 58 Cal.App.3d 349 (Henderson), the

.

26
.'

ER042

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 49 of 60

court concluded that a handgun found during a search of the defendant's apart!llent,
which he had not used in the charged assaults, was inadmissible because "[e]vidence of
possession of a weapon not used in the crime charged against a defendant leads logically
only to an inference that defendant is the kind of person who surrounds himself with
. deadly weapons-a fact of no relevant consequence to determination of the guilt or ·
at p. 360; see People v. Archer (2000) 82
innocence
of the defendant." (Henderson,
.
.
Cal.App.4th 1380, 1392 [knives found in defendant's backyard two years after the
murder that were determined not to be the murder weapons were irrelevant to show
planning or the availability ofweapons]; People v. Witt (1958) 159 Cal.App.2d 492,497
. [weapons found in defendant's car, which were not stolen during the charged burglary,
were inadmissible].)
On the other hand, evidence of a weapon not used in the commission of the ·
charged crime is admissible when relevant to other issues in the case. In People v. Smith
(2003) 30 Ca1.4th 581, 613, a murder defendant who had fatally shot the victim claimed
. to have taken the gun to the scene for the sole purpose of intimidation, and testifie.d he
had selected that gun because it was small and easy to conceal. Under these
circumstances, evidence that the defendant owned another small gtm for which he had no
ammunition was relevant because ~'[a]n unloaded gun fully serves to intimidate; a loaded
gun is necessary only to actually shoot." (!d. at p. 6 14.) In People v. Jablonski (2006) 37
. Cal.4th 774, 821-823, a defendant convicted of two murders argued the trial court should
have excluded evidence that a roll of duct tape, homemade wire handcuffs and a stun gun
were found in his car at the time of his arrest in another state. The Supreme Court
disagreed, as the evidence, though not used in the charged offense, suggested the
defendant hadplaimed to take the victims by surprise by immobilizing them and Was
. relevant to whether he had acted with premeditation. (Ibid.)
Appellant argues the steak knife found in his bag had no relevance other than to
show he was the sort of person who carried weapons, and should have been excluded
under Riser and Henderson. The People respond that the steak knife was relevant to
issues other than appellant's propensity to carry weapons because (I) Whitey Pavao and
27

ER043

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 50 of 60

· one of the shelter workers, James Joyner, described the lmife they saw appellant holding
in a manner that was consistent with the steak knife, suggesting appella.ttt was holding a
second lmife when he stabbed Smith; and (2) if appellant possessed a fixed-blade lmife
but chose to stab Smith with a folding knife that was more readily concealed, this would
tend to support the theory that he acted with premeditation and/or was lying in wait.
We need not determine whether evidence ofthesecond knife was admissible on
these grounds because any error in admitting it was harmless. Even without evidence of
the second knife, the jury would have known that appellant carried the folding knife used
in the stabbing and had taken it inside the shelter despite the no-weapons policy. (See

Riser, supra, 47 Cal.2d at pp. 577-578 [defendant not prejudiced by evidence of gun,
· holster and ammunition not used in the ldlling because .even without that evidence, jurors
would have known the defendant possessed firearms].) Appellant testified that he carried
the lmife for protection, and the testimony of shelter workers and the defense expert on
homelessness established that it was not unusual for homeless individuals to carry small
weapons for this purpose. The jur:y knew appellant was homeless and was likely carrying
. many of his possessions with him; it is not particularly noteworthy that he would have
had a kitchen knife among his belongings. We cannot say it is reasonably probable a
result more favorable to appellant would have been reached if evidence of the second
knife had been excluded, (People v. Nelson (1964) 224 Cal.App.2d 238, 256, citing
People v. Watson (1956) 46 Cal.2d 818, 836.) The trial court did not abuse its discretion

·in denying appellant's motion for new trial based on the evidence of the second lmife.
(Pen. Code,§ 1181, subd. 5.)

D. Newly Discovered Evidence
Finally, appellant argues the trial court should have granted his motion for new
trial under Penal Code section 118'1, subdivision 8, which applies "[w]hen new evidence
· ~s discovered material to the defendant, and which he could not, with reasonable
diligence, have discovered and produced at the trial.;, Our standard of review is abuse pf

28

ER044

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 51 of 60

discretion, and, finding none, we reject the claim .. (People v. Mehserle (2012) 206
. Cal.App.4th 1125, 1151 (Mehserlii); Delgado, supra, 5 Ca1.4th at p. 328.)
A defendant is entitled to a new trial based on newly discovered evidence when he
or she·can show" ' "1. That the evidence, and not merely its materiality, be newly
discovered; 2. That the evidence be not cumulative merely; 3. That it be such as to
render a different result probable on a retrial of the cause; 4. That the party could not
. with reasonable diligence have discovered and produced it at the trial; 5. That these facts
~e

shown by the best evidence of which the case admits." ' " (Delgado, supra, 5 Cal. 4th

at p. 328.. ) "A new trial motion based on newly discovered evidence is looked upon with
disfavor." (Mehserle, supra, 206 Cal.App.4th at p. 1151.)
The evidence on which app~llant relied for this aspect of the motion was a
· . declaration by Eugene Lemelle (Bubble), ~other client of the homeless shelter who
witnessed the stabbing. Appellant had. testified that Bubble was· present in the room at
the time of the stabbing and that after he (appellant) had thrown the lmife down, Bubble
Ideked it back to him and advised him to. leave. In his declaration, Lemelle stated:
"When I first saw Abdul Smith, hc. was in the TV Room. Sinith was underneath the
. television spinning and twirling around in an erratic and aggressive fashion. It appeared
as if he was getting ready to attack or hurt someone.

[~]

I then saw Abdul Smith charge

through the chairs at [appellant] and attack [appellant]. The two men came together and
then Smith walked away. I did not actually see anyone being stabbed, but I saw that
Smith had blood on his shirt as he walked away. I saw Smith walk over to where the
. coffee machine is located and fall on.the ground.

[~After

the incident, [appellant] had a

shocked look on his face. Based on what I saw, I believe that [appellant] acted to defend
himself against Smith, Who was behaving aggressively before attacldng [appellant].
Based on my observations prior to the encounter between Smith and [appellant],
[appellant] acted as if he did not wish to fight with or engage with Smith. Based on what
. I saw, I believe that Smith was the aggressor and that Smith attacked [appellant] without

.

reason.

[~]

'

After the incident, I told [appellant] that he should leave. I saw a knife on the

floor and kicked it over to where [appellant] was seated. I saw [appellant] pick up the

29

ER045

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 52 of 60

knife and then leave the shelter." Although Lemelle was contacted by a defense
investigator during the trial, "I did not wish to testifY at that time because I was being
" prosecuted for a drug offense and did not wish to be questioned about my pending
criminal case." Lemelle provided a statement to the defense on May 24, 2013, more than

amonth after the verdict was returned in appellant's case.
The trial court denied the motion for new trial on this basis, concluding the
evidence was not newly discovered because appellant had lmown Lemelle was an
" eyewitness as early as the date of the stabbing. The court noted, "[C]onspicuously absent
from [appellant]'s motion is any evidence as to whim Lemelle's identity was first lmown,
and any explanation for the failure to pursue potential evidence the existence of which
was lmown to [appellant] from the time of the incident.i' It concluded appellant "is not
excused from using reasonable diligence to secure an identified witness by awaiting a
verdict before seeking to introduce the testimony, and then asserting in a new trial motion
;nerely that Lemelle's concerns about his own case precluded interviewing and calling
him to testifY. Had Lemelle been subpoenaed, the court and counsel would lmow
whether he would have invoked his Fifth Amendment right against compelled
self-incrimination. If so, the court could have conducted an inquit·y outside the jury's
presence to determine the legitimacy of Lemelle's invocation of the privilege ru1d
fashioned an appropriate remedy." The court also concluded it was not reasonably
probable Lemelle's testimony would result in a more favorable result for appellru1t on
retrial.
Lemelle's testimony did not amount to newly discovered evidence because his
identity and status as an eyewitness were known to appellant before he even fled the
shelter, and he was interviewed by a defense investigator during the trial. The court did
not abuse its discretion in concluding the defense did not exercise reasonable diligence to
procure Lemelle's testimony at trial because Lemelle's vaguely described concern about
unrelated charges does not appear to have any bearing on his status as a witness for
appellant.

30

ER046

Case: 18-16761, 01/30/2019, ID: 11172211, DktEntry: 7, Page 53 of 60

This is not the end of our review, because case law has recognized that a lack of
diligence is not necessarily a sufficient basis for denial of a motion for new trial where
"the newly discovered evidence would probably lead to a different result on retrial."
(People v. Martinez (1984) 36 Cal. 3d 816, 825.) "Numerous cases hold that a motion for
a new trial should be granted when the newly discovered evidence contradicts the
. strongest evidence introduced against the defendant." (!d. at p. 823.)
Lemelle's declaration does not contradict the strongest evidence against appejlant.
Though Lemelle characterized Smith's purported "spinning" as aggressive, he did not say
. Smith had any sort of weapon that·might warrant the use of deadly force against him.
And, although Lemelle said Smith "attacked" appellant, appellant himself testified that be
pulled out the knife in self-defense and Smith "charged" or "lunged" or "came at" him,
falling accidentally into the knife. _Lemelle did not come forward after the trial with his
version of events, a circumstance that would diminish his credibility as a witness. The
. trial court did.not abuse its discretion in concluding it was not reasonably probable
~emelle's testimony would result in a more favorable verdict to the defense on retrial.
III. DISPOSITION

The judgment is affirmed .

.

.

NEEDHAM,J,

We concur.

SIMONS, ACTING P.J.

BRUINIERS, J.

31

ER047

APPENDIX D

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 208 of 276

SUPERIOR COURT OF CALIFORNIA
County of San Francisco
Department No. 29

People of the State of California,
Plaintiff,
vs.
Rickey Scott,
Defendant.

MCN: 12003786
SCN: 219205
Order Denying Motion for New Trial Based
on Alleged Juror Misconduct, Insufficiency
of the Evidence, Erroneously Admitted
Evidence and Newly Discovered Evidence
HEARING DATES: June 14, July 5, 11,16,
August 9, and September 6, 2013
JUDGE: Jeffrey S. Ross

It is undisputed that on February 6, 2012, Rickey Scott fatally stabbed Abdul Smith at the
St. Vincent DePaul homeless shelter. The jury returned a verdict of guilty of murder in the first
degree on Friday, April 12, 2013. On June 3, 2013, Defendant Rickey Scott filed a Motion for a
New Trial pursuant to Penal Code § 1181(3) on the ground of juror misconduct, alleging that
Juror 8 concealed relevant information—his 2009 misdemeanor conviction after representation
by the Office of the Public Defender of San Francisco (hereinafter the “Juror New Trial
Motion”1 ). On the same day he also filed a Motion for a New Trial pursuant to Penal Code §
1181(5), (6) and (8) on the grounds of insufficiency of the evidence, erroneously admitted
evidence, newly-discovered evidence—specifically a witness (hereinafter the “Evidence New
Trial Motion”). With respect to the Juror New Trial Motion, the court conducted evidentiary
1

The Juror New Trial Motion was redacted to omit the name of the juror and refiled on June 12,
2013.
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0205

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 209 of 276

hearings at which the People called Juror 8 and defense counsel Jeff Adachi as witnesses. The
defense witnesses were: Juror 8’s daughter, Cherie L. [last name redacted]; his former attorneys,
Emily Dahm and Marsanne Weese; and Fatima Ortiz, the victim from Juror 8’s 2009
misdemeanor conviction. The court read and carefully considered the briefs filed and authorities
cited by both parties and heard argument on June 14, July 5, 11, 16, August 9, and September 6,
2013. After hearing and evaluating all of the evidence, and considering all of the arguments, for
the reasons set forth below, the Motions for New Trial (the Juror New Trial Motion and the
Evidence New Trial Motion) pursuant to Penal Code §§ 1181(3), (5), (6) and (8) are denied.
Procedural History
Jury Selection
Counsel for the People and Scott requested the use of a juror questionnaire and proposed
various versions, initially posing 67 questions in 24 pages. After numerous hearings at which the
court urged counsel to shorten and to simplify the questionnaire, the court acquiesced to the use
of the 63-question, 23 page questionnaire. On March 13, 2013, jurors were summoned to court
and filled out the questionnaire. Juror 8 completed the questionnaire and signed it under penalty
of perjury. Question 24 asked: “Have you, a family member, or a close friend ever been
investigated, arrested, charged with, or convicted of any crime?” Juror 8 wrote “No.”
Question 21 asked: “Has a family member, or a close friend ever been the victim of or
witness to a crime, whether or not the crime was reported to the police? If the crime involved a
weapon, please identify the weapon.” Juror 8 responded that in 2011, Cherie L. and Corinne [last
names redacted; respectively Juror 8’s daughter and wife] had been victims of a crime involving
a “sawed off shotgun” in San Francisco.

2
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0206

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 210 of 276

In response to other questions about the criminal justice system, law enforcement,
prosecutors and criminal defense attorneys, he indicated either that he could be fair or “NA.” In
response to Question 63 which asked, “After answering all of these questions, do you feel that
you can be a fair and impartial juror in this case, and give both the prosecution and the accused a
fair trial in this case?” he checked “yes.” Juror 8 signed the questionnaire under penalty of
perjury.
The venire returned for extensive voir dire over three days, March 18, 20 and 21, 2013.
The court did not impose time limits on voir dire. Juror 8 was questioned briefly during voir
dire. He was not asked about the incident in which his wife and daughter were victims. The jury
was empanelled and sworn on March 21, 2013, and trial commenced.
The Trial and Verdict
Whitey Pavao testified to his observations during and after the incident. Shelter workers
Jaime Torres, James Joyner and Alonzo Bowlegs testified to their observation of Scott after the
stabbing and his departure from the shelter. The People rested on April 2, 2013.
The defense presented a case, during which Scott testified, and rested on April 5, 2013.
On Friday, April 12, 2013, the day of the verdict, Deputy Public Defender Emily Dahm,
who was not counsel in the case, spoke to Juror 8 outside the courtroom. Ms. Dahm represented
Juror 8 in a misdemeanor trial more than 3 years earlier (from July 20-23, 2009) in which he was
convicted of violating Penal Code § 422, a misdemeanor, and acquitted of Penal Code § 241(b).
He was sentenced on September 25, 2009. The matter was appealed. Appointed appellate
counsel, Marsanne Weese, represented Juror 8. The conviction was affirmed, and the remittitur
issued on April 18, 2011. On May 2, 2011, Ms. Dahm appeared—without her client—when the
remittitur was spread on the record in Department 16.

3
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0207

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 211 of 276

Initially—when he saw her outside department 29 on Friday, April 12, 2013—Juror 8 did
not recognize Ms. Dahm, having not seen her for three years. At his trial she was pregnant, and
in the interim, she got a new shorter haircut. They had a brief, friendly conversation in which
Juror 8 asked Ms. Dahm about the Hawaii vacation she had planned to take after his trial and the
birth of her child. When Juror 8 said that he was a juror in Department 29, Ms. Dahm
discontinued the conversation, told him she could not speak to him further and asked him to call
her after the trial was over. It is unclear whether the conversation occurred shortly before the
jury returned the verdict (as Juror 8 testified) or—as Ms. Dahm recalls—there were two
conversations: one before and one after the verdict. Ms. Dahm promptly sent Mr. Adachi the
following email at 11:24 AM:
Hi Jeff
I ran into one of my old misdemeanor trial clients today at the Hall: [redacted (Juror 8)].
We started talking and I realized that he is on your jury. I’m not sure that this
information helps at this late stage of trial, but I’d be happy to talk to you about [redacted
(Juror 8) ]. He’s a very nice guy, and I think he’d be defense friendly.
The Juror New Trial Motion
Scott argues that he is entitled to a new trial because Juror 8’s concealment of
information raises an irrebuttable presumption of prejudice, constitutes implied bias, and relieves
him of the need to demonstrate actual bias to obtain a new trial. He also argues that the
relationship between Juror 8 and the Office of the Public Defender constitutes implied bias
pursuant to California Code of Civil Procedure (hereinafter “CCP”) § 229, which provides:
A challenge for implied bias may be taken for one of more of the following causes and
for no other:
(a) ….
(b) … having stood within one year previous to the filing of the complaint in the action in
the relation of attorney and client with either party or with the attorney for either party….
CCP § 229(b).

4
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0208

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 212 of 276

The criminal complaint against Scott was filed February 6, 2012. Defendant asserts that
because Ms. Dahm’s appeared at the spreading of the remittitur on May 2, 2011—within one
year before the filing of the complaint—a cause challenge for implied bias could have been
taken.
Scott argues that the concealment denied him a fair trial because, with full disclosure, he
would have exercised a peremptory challenge to Juror 8.
Scott also contends that—as a result of his conviction in a trial in which he was
represented by Ms. Dahm—Juror 8 was actually biased against the Office of the Public Defender
and therefore prejudiced against Scott and predisposed to convict him.
Juror 8’s Motion to Quash
Because the concealment by Juror 8 occurred in response to a compound question which
was merely one of 63 in a 23-page questionnaire, and Juror 8 was not questioned at voir dire
about any of the related issues, the court ordered an evidentiary hearing. By a June 17, 2013,
letter— the form of which was approved by counsel before it was sent—the court invited Juror 8
to attend. In response the court received a June 21, 2013 letter from attorney Eric Safire on
behalf of Juror 8 advising that the juror would not attend voluntarily. On July 5, 2013 Mr. Safire
appeared in court and advised the court that he would file a motion to quash the People’s
subpoena. The court set a hearing date and heard Juror 8’s motion to quash the subpoena on July
11, 2013.
At the hearing Mr. Safire argued variously that Juror 8 would have no relevant
information and that “there would have to be certainly agreeable immunity before any question
would be answered in that regard, because I would advise him to assert his right to remain silent
relevant to any kind of exposure to perjury.” July 11 transcript at 6.

5
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0209

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 213 of 276

When asked the basis for the immunity, Mr. Safire responded: “But his answers to the
questions, if he intentionally was dishonest in answering his questions under oath, that would
expose him to criminal prosecution.” Id. at 6.
But then Mr. Safire conceded that he had not read the transcript of the voir dire:
THE COURT: Have you read the transcript of the voir dire to Juror Number 8
MR. SAFIRE: No.
Id at 6-7.
The defense joined Juror 8’s counsel efforts to quash the subpoena, arguing that Juror 8
could not provide any relevant testimony. Counsel for the People, Scott and Juror 8 disputed the
issues as to which Juror 8’s testimony could be relevant.
Mr. Safire argued about his client: “it's just incredulous to assume that he didn't know
that he was represented by the Public Defender.” Id. at 16. Safire concluded: “and to put him
through this type of questioning, that in my view could subject him to criminal prosecution in the
ultimate – if everything goes bad, is unfair.” Id. at 20.
After hearing argument and considering the issues and applicable authority, the court
denied the motion to quash, and ordered Juror 8 to appear in court to testify on July 16, 2013.
The Standard for a New Trial for Juror Misconduct
“Intentional concealment of relevant facts or the giving of false answers by a juror during
the voir dire examination constitutes misconduct and the occurrence of such misconduct raises a
rebuttable presumption of prejudice. Prejudicial jury misconduct constitutes grounds for a new
trial.” [Cites omitted.] People v. Blackwell (1987) 191 Cal.App.3d 925, 929 (Blackwell). To
create the rebuttable presumption “the voir dire questioning [must be] sufficiently specific to
elicit the information which is not disclosed, or to which a false answer is later shown to have
6
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0210

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 214 of 276

been given.” Id. The Blackwell court instructed trial judges on the procedure to address juror
concealment in the context of a new trial motion.
The presumption of prejudice created by the juror’s misconduct may be rebutted by ‘... an
affirmative evidentiary showing that prejudice does not exist or by a reviewing court's
examination of the entire record to determine whether there is a reasonable probability of
actual harm to the complaining party resulting from the misconduct.’ (People v. Diaz,
152 Cal.App.3d at 934, citing Hasson v. Ford Motor Co. (1982) 32 Cal.3d 388, 417).”
When a prospective juror in a criminal case fails to respond to a relevant, direct and
unambiguous question during voir dire, the trial court, when hearing a motion for a new
trial, should “…determine whether the question propounded to the juror was (1) relevant
to the voir dire examination; (2) whether it was ambiguous; and (3) whether the juror had
substantial knowledge of the information sought to be elicited. If the trial court’s
determination of these inquiries is in the affirmative, the court should then determine if
prejudice to the defendant in selecting the jury reasonably could be inferred from the
juror’s failure to respond. If prejudice reasonably could be inferred, then a new trial
should be ordered [cites omitted.]
Blackwell, at 930.
Recently the California Supreme Court underscored the centrality of voir dire in assuring
a fair trial and the inimical effect of juror concealment. In re Boyette (2013) 56 Cal.4th 866,
888-890 (Boyette). The Court articulated the standard for review:

Although juror misconduct raises a presumption of prejudice [cites omitted], we
determine whether an individual verdict must be reversed for jury misconduct by
applying a substantial likelihood test. That is, the ‘presumption of innocence is rebutted
and the verdict will not be disturbed, if the entire record in the particular case, including
the nature of the misconduct or other event, and the surrounding circumstances, indicates
there is no reasonable probability of prejudice, i.e. no substantial likelihood that one or
more jurors were actually biased against the defendant. [cites omitted.] In other words,
the test asks not whether the juror would have been stricken by one of the parties, but
whether the juror’s concealment (or nondisclosure) evidences bias.
Id. at 889-890.
As recently as January 2013, the Ninth Circuit in United States v. Olsen (9th Cir. 2013)
704 F.3d 1172 (Olsen), restated the standard for evaluating juror bias in the context of a new trial
motion:

7
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0211

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 215 of 276

This court recognizes three forms of juror bias: (1) “actual bias, which stems from a preset disposition not to decide an issue impartially”; (2) “implied (or presumptive) bias,
which may exist in exceptional circumstances where, for example, a prospective juror has
a relationship to the crime itself or to someone involved in a trial, or has repeatedly lied
about a material fact to get on the jury”; and (3) “so-called McDonough-style bias, which
turns on the truthfulness of a juror's responses on voir dire” where a truthful response
“would have provided a valid basis for a challenge for cause.” Fields v. Brown, 503 F.3d
755, 766–67 (9th Cir.2007) (en banc) (citing McDonough Power Equipment, Inc. v.
Greenwood, 464 U.S. 548, 554–56, 104 S.Ct. 845, 78 L.Ed.2d 663 (1984)).
Olsen, at 1188-89.2

The Ninth Circuit previously described the standard for addressing McDonough-style
bias: “The Supreme Court has held that an honest yet mistaken answer to a voir dire question
rarely amounts to a constitutional violation; even an intentionally dishonest answer is not fatal,
so long as the falsehood does not bespeak a lack of impartiality. See McDonough Power Equip.
v. Greenwood, 464 U.S. 548, 555-56, 104 S.Ct. 845, 78 L.Ed.2d 663 (1984).” Dyer v. Calderon
(9th Cir. 1998) 151 F.3d 970, 973 (Calderon). The McDonough concurrence instructed,
“regardless of whether a juror's answer is honest or dishonest, it remains within a trial court's
option, in determining whether a jury was biased, to order a post-trial hearing at which the
movant has the opportunity to demonstrate actual bias or, in exceptional circumstances, that the

2

Scott cites United States v. Torres (2ndCir. 1997) 128 F.3d 38, 45; but reliance on that dicta is
misplaced. In Torres the trial judge’s denial of the motion for a new trial (where the trial judge
inferred bias and excused a juror over the defense objection) was affirmed. In reaching that
conclusion the Court of Appeal did not find implied bias and reaffirmed the limited
circumstances in which implied bias exists: “Our court has consistently refused ‘to create a set of
unreasonably constricting presumptions that jurors be excused for cause due to certain
occupational or other special relationships which might bear directly or indirectly on the
circumstances of a given case, where ... there is no showing of actual bias or prejudice.’ ” Brown,
644 F.2d at 104-05 (quoting Mikus v. United States, 433 F.2d 719, 724 (2d Cir.1970)).” Id. at 46.

8
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0212

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 216 of 276

facts are such that bias is to be inferred.” McDonough Power Equip. v. Greenwood (1984) 464
U.S. 548, 556-57 (McDonough).3
The Evidentiary Hearings
At the July 16, evidentiary hearing, Juror 8’s counsel advised the court that Juror 8 would
assert his Fifth Amendment privilege against self-incrimination and—as to some questions—the
attorney-client privilege. The prosecutor petitioned for and the court granted Juror 8 use
immunity, pursuant to Penal Code § 1324. Juror 8 testified and was represented by counsel
throughout the proceeding.
Juror 8 identified the questionnaire which he completed and testified that he understood
the importance of providing truthful answers and that he attempted to do so. (July 16 transcript4,
at 40). In response to the question: “When you were selected as a juror in this case, did you feel
like you could be fair and impartial to both sides?” He answered, “Yes.” Id. at 76.
With respect to the 2009 misdemeanor charge, Juror 8 testified that he was represented
by Emily Dahm and that he was convicted. Id. at 82. He testified that—prior to 2013 when he
saw her at court—Juror 8 last spoke to Ms. Dahm in 2009. She did not contact him in 2011, after
the judgment was affirmed and the remittitur issued, and he did not know that she appeared when
the remittitur was spread on the record on May 2, 2011. Id. at 83-84. When asked whether, at the
time he filled out the questionnaire he had any feelings about Ms. Dahm’s representation, he said
he didn’t have any feelings. Id. at 85.

3

Scott argues that People v. Diaz (1984) 152 Cal.App.3d 926, 938 provides a “stricter standard.”
Diaz is not controlling as it involved juror misconduct discovered in the midst of trial—not
misconduct identified after a verdict, raised by a motion for a new trial. Id. at 931-933. The trial
court committed reversible error for not excusing the juror. Id.
4
Counsel ordered and the court received partial transcripts of the post-trial hearings; they are
referenced by date and page, e.g. “July 16 transcript at __.”
9
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0213

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 217 of 276

As to their meeting on April 12, 2013, Juror 8 testified that, initially, he did not recognize
Ms. Dahm as she had been pregnant and also had a different hairstyle during her representation
of him. Id. at 87. He then described their cordial discussion about the birth of her baby. Id. at
88.
Juror 8 answered question 27, which asked about opinions about prosecutors or criminal
defense attorneys, “NA,” and testified that he did not have any opinions about counsel at the time
he completed the questionnaire. Id. at 89.
When asked: “And my question to you was did you believe that you were going to give
both sides a fair trial based on the evidence and the law?” he answered, “Yes.” Id. at 98.
Juror 8 testified that during jury selection he did not know either counsel before trial and that he
did not have any feelings about either Mr. Barrett or Mr. Adachi which would prevent him from
giving them both a fair trial. Id. at 98-99.
When asked why he did not disclose his 2009 conviction in response to Question 24,
Juror 8 said that he didn’t think about it. Id. at 102-103. He testified that, when he answered the
questionnaire about his ability to be fair and impartial, he was being truthful. Id. at 113.
Juror 8 was asked: “Were you deliberately trying to mislead the Court to believe that you
would be fair and impartial?” and said: “No.” He elaborated: “No, I don't know any of that
deceiving. I don't do that, because I'm not [interrupted by counsel].” Id. at 124-125.
Juror testified as follows in response to questions from Mr. Barrett:
Q. My question is during the jury selection process were you trying to be fair and
honestly answer the questions that were involved in the questionnaire?
A. To the best of my knowledge and ability, yes. These are my answers.
Q. And would it be accurate to say then that when you were being selected as a juror,
that you felt that you could be fair in this case?
….
A.: I thought I could be fair.
Q. And by fair, that's fair to both sides?
10
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0214

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 218 of 276

A. To both sides, yes.
Q. To the defense as well as the prosecution?
A. Sure, yes.
Q. At the time that you were selected as a juror here in this case, did you have any
negative feelings against Mr. Scott?
A. No.
Q. Did you know Mr. Scott?
A. No.
Q. All right. So did you have any reason that you would have had any negative feelings
concerning Mr. Scott?
A. No.
Q. Did you know Mr. Adachi?
A. No, I didn't know Mr. Adachi.
Q. Did you have any negative feelings against Mr. Adachi at that time?
A. No.
Q. And you didn't know me?
A. I didn't know you.
Q. Did you have any negative feelings against me at that time?
A. No.
Q. And at that time when you were selected as a juror, was it your intention to follow the
law as the Court gave it to you?
….
A: Yes, I would have followed the law exactly the way it is.
Q: ... In not acknowledging that you had the conviction in 2009, were you trying to cheat
Mr. Scott out of a fair trial?
….
A: Those words didn't even come into play in my decision. I don't think like that, cheat,
and I'm not -- so that didn't come into my thoughts.
Q. So you were trying to give him a fair trial?
A. Yes.
Id. at 127-128.
In response to questions from Mr. Adachi, Juror 8 testified:
Q. Would it be correct to say that as a result of the representation you received from my
office, from the Public Defender's Office, in 2009 you were not happy?
A. Yes.
Q. Okay.
A. Not happy
Q. And you felt that you had been wrongfully convicted and wrongfully jailed, correct?
A. Yes.
Q. Okay. And did you have those opinions in your mind at the time that you filled out
the questionnaire?
A. Yeah, those opinions were there. I was hoping it didn't affect this, but they were
there. I mean, I could have answered yes, I probably should have, you know, but I have my own
11
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0215

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 219 of 276

little mind game to play to try to eliminate that feeling, you know, and so I could have answered
it correct, and I probably should have.
Q. I understand that.
A. Yeah.
Q. And because, as you said, in your mind game you had decided not to disclose this
information. You're not saying that those feelings were not still there, correct?
A. Correct, they were still there.
Q. Okay. And these feelings that you had were partly because of the fact that you had
been convicted of a crime, correct?
A. Yes.
Q. And partly because your public defender in your opinion had not provided you with
adequate representation?
A. That's how I felt.
Q. Okay. And that you were jailed unjustly?
A. Yes.
Q. Because of the public defender?
A. Yeah.
Q. And what you're telling us now is that, and I appreciate you saying this, that you
should have told us about the conviction and what had happened?
A. Yes.
Q. And that you realize now that at the time—and I understood you tried to be fair, but at
the time that you were filling out the questionnaire and the time that you were serving as a juror
in this case, I'll call it unconscious bias I think you referred to it, may have affected your service
as a juror in this case?
Q. And that's the truth as you testify now, to the best of your ability?
A. To the best of my ability, because like I say, I'm not a psychologist, but it's there, and
I guess, yeah, I guess could have affected it, you know, the decision that I made, so yes.

Id. at 130-132.
Juror 8 provided the following testimony in response to further questioning from Mr.
Barrett:
Q. When you went through jury selection, did you want both sides to have a fair trial in
this case?
....
A: Just bottom line yes, I wanted a fair trial, of course.
Q. And if there was something going on with you that came to your mind that would
cause you to believe that you weren't going to be able to give both sides a fair trial, is there a
reason you wouldn't have brought that to the Court's attention?
A. No, there's no reason.

Id. at 133-134.
12
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0216

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 220 of 276

In response to questioning from the court, Juror 8 testified:
Q. …why did you write the word "no" in answer to question number 24?
A. Well, it's been three years, I just forgot about it, just, you know -Q. Between the time that you were sentenced on that conviction and April 12th, 2013
when you saw Ms. Dahm outside the courtroom …did you have any communications with Ms.
Dahm from the day you were sentenced until the day you saw her here?
A. No. No.
Id. at 135.
Finally in response to the court’s questioning, Juror 8 testified as follows:
Q. When you were in court in Department 28 with me as the judge in Mr. Scott's case,
did you understand that the District Attorney who was prosecuting Mr. Scott was the same
office, was from the same office as the District Attorney's Office that prosecuted you?
A. I didn't put all that together. I didn't know. I didn't know.
Q. Did you understand that Mr. Adachi was from the same office as Ms. Dahm?
A. No, I didn't know that.
Q. So when you were in Department 28 and I was asking you questions, you didn't
associate Mr. Barrett with the District Attorney's Office that prosecuted you?
A. No, I didn't. Sorry about that. I just don't –
…..
Q. When you answered this questionnaire on March 13th, 2013, at the end of it, it asked
you do you feel that you can be a fair and impartial juror in this case and give both the
prosecution and the accused a fair trial in this case, and you put "yes."
A. Yes, that's how I felt.
Id. 146-147.
The court also heard and considered testimony from the following defense witnesses:
daughter of Juror 8 (Cherie L. [last name redacted]); Juror 8’s former attorneys Emily Dahm and
Marsanne Weese; and Fatima Ortiz, the victim from Juror 8’s 2009 misdemeanor conviction.
Traffic patrol officer Fatima Ortiz testified to the incident which lead to Juror 8’s conviction. Ms.
Dahm’s testimony was consistent with Juror 8 on the issues relevant to this inquiry—that they
did not communicate between September 2009 and April 12, 2013. She also confirmed his
account as to the essential details of their April 12, 2013 conversation. Marsanne Weese, was
called by the defense and testified that, after the appeal from the misdemeanor conviction was

13
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0217

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 221 of 276

filed, she was appointed and represented Juror 8 on appeal to the Appellate Division of the
Superior Court, but not in the Superior Court.
Cherie L. testified that she was present in 2009 when her father was arrested and that she
picked him up when he was released from jail. August 9, 2013 transcript at 18; 22. She testified
that approximately 5 times in 2012 and 3 in 2013 he referred to the event: “if he saw a meter
maid he'd say, oh, like that meter maid, like I need to watch out for her, you know, because, you
know, I don't want to get a ticket, but it was made in a way that was very obviously related to
what had happened to him.” Id. at 27. On cross examination by the prosecutor, the witness
testified:
Q. Did your father ever make the statement, because I was wrongly arrested and
convicted, that I'm going to come to jury duty and make sure that happens to somebody else?
A. I've never heard him say that, ever.
Q. Is your father the type of person you think would do something like that?
A. I don't believe so, I don't see why he would. I don't believe he would do that.
Id. at 29.
Cherie L. also testified that her father is an honest person. Id. at 28-29. On examination
by the defense she said that, in telling a story, he may omit some details or exaggerate. Id. at 31.
Analysis
With respect to alleged juror misconduct, the Blackwell court defined the inquiry as
“whether the question propounded to the juror was (1) relevant to the voir dire examination; (2)
whether it was ambiguous; and (3) whether the juror had substantial knowledge of the
information sought to be elicited. If the trial court’s determination of these inquiries is in the
affirmative, the court should then determine if prejudice to the defendant in selecting the jury
reasonably could be inferred from the juror’s failure to respond.” Blackwell, at 930.

14
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0218

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 222 of 276

Having considered all of the evidence presented and observed the witnesses who testified
and assessed their credibility, I find the following: The questions presented in the questionnaire
were relevant and unambiguous, and Juror 8 had sufficient knowledge of the information to
respond. I find that as to question 24, Juror 8’s response “No.” was false. Concealment of the
accurate information—his 2009 misdemeanor conviction while represented by Ms. Dahm—
creates a rebuttable presumption of prejudice. Id. at 929. In assessing whether the People have
or have not rebutted that presumption, the court must consider each of the forms of bias raised by
Scott and identified by the Ninth Circuit in Olsen5:
(1) “actual bias, which stems from a pre-set disposition not to decide an issue
impartially”; (2) “implied (or presumptive) bias, which may exist in exceptional
circumstances where, for example, a prospective juror has a relationship to the crime
itself or to someone involved in a trial, or has repeatedly lied about a material fact to get
on the jury”; and (3) “so-called McDonough-style bias, which turns on the truthfulness of
a juror's responses on voir dire” where a truthful response “would have provided a valid
basis for a challenge for cause.”[cites omitted.]
Olsen, at 1188-89.
Actual Bias
The inquiry begins with my observations of Juror 8 during voir dire, the entire trial and
during his testimony on July 16, 2013. He was attentive and responsive throughout the voir dire
process, answering the questions posed clearly and directly. Juror 8 was similarly attentive and
engaged throughout the trial. Juror 8 was also the foreperson and responded to the court’s
questions at the time the verdict was delivered. At all times he appeared to be comfortable in his
role as a juror and later as foreperson; he never evidenced impatience with counsel or the

5

The People argue that, under California law, Defendant Scott must prove that Juror No. 8
harbored actual bias. Boyette, at 889-890, 897; People v. Ault (2004) 33 Cal.4th 1250, 1270; In
re Hamilton (1999) 20 Cal.4th 273, 296; In re Hitchings (1993) 6 Cal.4th 97, 118-19; People v.
San Nicolas (2004) 34 Cal.4th 614, 644. I did not reach that issue, as I have found based on the
evidence, that the People have rebutted any presumption of actual, implied or McDonough bias.
15
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0219

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 223 of 276

proceedings. Most significant in considering the issue of bias, I watched his body language and
listened not only to his responses to questions but to his intonation. Upon coming to court with
counsel on July 16, Juror 8 evidenced anxiety which was not present previously. After issuing
the order of immunity the court gave counsel for Juror 8 time to explain the legal effect of the
order. However during the hearing, Juror 8 still seemed apprehensive and anxious—traits not
apparent previously. Notwithstanding the court’s repeated requests that counsel not argue legal
issues in the presence of the witness and the court’s frequent assurances that there would be time
to make a complete record of any objections or other legal issues outside the presence of Juror 8,
counsel made numerous speaking objections. Often after the heated exchanges among counsel,
Juror 8 appeared more anxious and concerned. After one such energetic episode, the court
advised Juror 8 as follows:
THE COURT: I just want to make sure you understand that both lawyers in this case
have the right to ask you questions about the issues in the case. I want to make sure you
understand that the order that I issue[d] today, I'm going to read it, none of the testimony, that is
what you say here in court under oath, or information that is obtained from that testimony either
directly or indirectly may be used against you in any criminal proceeding. That's what the Order
that I issued is. So both lawyers, and I'm going to give Mr. Adachi time to question you as well,
are entitled to ask you questions. If you don't know the answer to a question, you should just tell
us that.
THE WITNESS: Okay.
THE COURT: Do you understand that the testimony you give today is both important to
both sides in this case and to the Court; do you understand that?
THE WITNESS: Yes, I do.
THE COURT: And you understand that the testimony you give today cannot be used
against you either directly or indirectly?
THE WITNESS: Okay.
THE COURT: Did you understand that?
THE WITNESS: It's good to hear it again, yes.
Id. at 93. While Juror 8 said that he understood his status, it was evident from his tone of voice
that, after being advised—for the first time by the court of the effect of the use immunity order—
he was relieved. It appeared that prior to the explanation, he had not completely appreciated the

16
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0220

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 224 of 276

circumstances and his hesitance and reluctance to answer certain questions may have been
attributable to that uncertainly.
I found Juror 8 to be credible. He was concerned with fulfilling his obligations as a juror,
testifying truthfully and providing the information requested. The testimony of defense witness
Cherie L., his daughter, was consistent with that conclusion. She said that her father is a truthful
person who would not use his conviction to affect the outcome of another defendant’s trial.
Having considered all of the evidence—much of which is quoted above—I find no evidence that
Juror 8 harbored actual bias against Scott, Mr. Adachi or the Office of the Public Defender as
counsel for Scott. I do not find any evidence of prejudice in favor of the Office of the District
Attorney nor evidence of bias against the Office of the District Attorney—the prosecutor in Juror
8’s misdemeanor case.
The defense elicited testimony from Juror 8 with respect to the possibility that
“unconscious bias” “may have” or “could have” affected his jury service and relies on that
testimony in its Closing Brief. However the prosecution followed up as follows:
Q. Okay. So really, sir, what we're trying to get at is did you consciously take out your
hostility against your old attorney on Mr. Scott, that's what we need to know.
A. Oh, well -MR. ADACHI: That's not the issue in the case, and that calls for speculation by this
witness.
THE WITNESS: Yeah, I would be –
THE COURT: Overruled.
THE WITNESS: I would be speculating, basically, you know, I don't know. I don't
know.
MR. BARRETT: Q. So when you say you don't know, you can't say that you did?
A. I can't say if it affected me yes or no. I can't think like that right now.
Q. Let me say it as plainly as I possibly can. Did you walk into this trial thinking
because you were convicted in 2009 that you were going to convict Mr. Scott?
A. No. No.
Q. That didn't factor into the equation at all?
A. No.
Id. at 132-133.

17
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0221

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 225 of 276

I listened carefully and observed Juror 8’s body language during this colloquy and found
him totally credible. I found no evidence that Juror 8’s misdemeanor conviction or prior
representation created actual bias either at the time of juror selection or during his service as a
juror and foreperson.
Scott’s motion for a new trial, initially filed June 3, 2013, stated “Because M [redacted
Juror 8] could be prosecuted for perjury, the court should appoint counsel before questioning by
any party.” Motion for New Trial at 19: 19-20. In response to that concern, which the court
shared, the court set a hearing date to address the issue: July 5, 2103. However on June 21,
2013—before the hearing—the court received a letter from Eric Safire advising that he would
represent Juror 8, which obviated the need for the court to address the issue. It is undisputed that
on June 5, two days after the defense filed the brief arguing that no party should confer with
Juror 8, Greg Jowdy an investigator with the Office of the Public Defender interviewed Juror 8.
At the July 16 hearing, counsel did not ask Juror 8 about the June 5 interview, at which Juror 8
was not yet represented by counsel. Greg Jowdy was not called as a witness, nor is there a
recording of the June 5 interview. The Jowdy interview complicates the court’s effort to assess
whether or not the reference to “unconscious bias” refers to a condition present during jury
selection, trial and deliberation, or whether it was engendered by questions asked by Jowdy. It is
evident that the Jowdy interview and the July 16 hearing resurrected feelings—including anger
about his conviction—that Juror 8 testified he had spent three years trying to release and to
forget. Because no recording of that interview was provided, and Jowdy did not testify, the court
cannot determine whether—as it appears—the “unconscious bias” first arose on June 5 during
the Jowdy interview, and not during the March-April 2013 trial.

18
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0222

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 226 of 276

Another issue which may explain Juror 8’s anxiety on July 16, was the potential criminal
prosecution for perjury. At the July 11 hearing, even before reading the transcript of the voir
dire—which is devoid of any answers which could have subjected Juror 8 to a perjury
prosecution—his counsel assumed that he had criminal exposure. With respect to one question,
Mr. Safire said, “it's just incredulous to assume that he didn't know that he was represented by
the Public Defender.” July 11 transcript at 16. That his own lawyer challenged his credibility
without having read the voir dire transcript raises concerns as to whether Juror 8 was fully
informed about his rights and the protections afforded him once immunity was granted.
Although Mr. Safire was given time to advise Juror 8 about the immunity order and to explain its
effect—and presumably did so— Juror 8 demurred to questions posed by counsel. In response
the court—concerned about whether Juror 8 understood his status—explained the immunity
order and his obligation to answer all questions posed by both the People and the defense. Juror
8 was visibly relieved by the explanation.
For the reasons stated above, the court cannot determine definitively whether Juror 8’s
answers to questions about “unconscious bias” are solely attributable to events in June and July,
2013. His friendly conversation with Ms. Dahm, on the day of the verdict, which they both
described almost identically, contradicts any claim that Juror 8 harbored conscious or
unconscious bias during the trial and deliberations. Juror 8’s emphatic response to Mr. Barrett’s
examination (Id. at 132-133) coupled with the testimony quoted earlier lead me to conclude that
Juror 8’s sole objective—when he was called for jury duty, answered the questionnaire and voir
dire questions and served as a juror—was to be fair to both sides and, as he told Ms. Dahm, to do
his public service. Further, in response to the court’s questions, he stated credibly that he did not
associate Mr. Adachi with Ms. Dahm, nor Mr. Barrett with the prosecutor in his 2009 case.

19
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0223

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 227 of 276

More important, he and Cherie L. both testified without contradiction that he would never allow
his own experience to influence his role as a juror in Scott’s case. Whatever his feelings about
his 2009 conviction were in June and July, considering all of the evidence, I find no evidence
that actual bias—conscious or unconscious—actually affected Juror 8’s service. Therefore, as to
the claim of actual bias, I find that the People have met their burden and that, on the entire
record, including the misconduct and the surrounding circumstances, there is no reasonable
probability of prejudice, i.e. no substantial likelihood that Juror 8 was actually biased against
Scott. Boyette, at 889-890. Since “the test asks not whether the juror would have been stricken
by one of the parties, but whether the juror’s concealment (or nondisclosure) evidences bias” (Id.
at 889-890), I find no basis for granting a new trial on the claim of actual bias.
Implied or Presumptive Bias
CCP § 229(b)
Scott argues that CCP § 229(b) required “automatic disqualification” of Juror 8 and
therefore compels a new trial. Scott’s position raises two related, but distinct, questions: Does
CCP § 229 apply to the relationship between Juror 8 and Emily Dahm and the Office of the
Public Defender? Under the circumstances here, does the presence of a juror described within
CCP § 229 necessarily require granting a motion for new trial?
As to the first issue, it is not clear that as of March 2013, CCP § 229 applied to the
relationship between Juror 8 and the Office of the Public Defender. It is undisputed that Juror 8
and Ms. Dahm had no communication between sentencing on September 25, 2009, and their
chance meeting on April 12, 2013. Juror 8 testified, and Ms. Dahm confirmed, that the last time
he spoke to Ms. Dahm regarding the case was the day judgment was rendered in 2009. Although
Ms. Dahm appeared in court when the remittitur was spread on the record in May 2011, Juror 8

20
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0224

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 228 of 276

testified that Ms. Dahm never notified him that she made a 2011 court appearance regarding his
case, and there is no evidence that he consented to her appearing on his behalf6. According to his
testimony, Juror 8 believed his relationship with and representation by Ms. Dahm ended in
September 2009.
The policy of the San Francisco Public Defender’s Office is consistent with the argument
that Juror 8 was not a client of the office after the appointment of Marsanne Weese. The Public
Defender’s Office policy expressly excludes a person in Juror 8’s position from its definition of a
“currently represented client”: “A defendant, against whom judgment has been pronounced,
whether by imposition of sentence or grant of probation, is not a currently represented client. A
defendant who was represented by the Public Defender whose conviction is thereafter being
appealed by an attorney outside of our office is not a currently represented client.” (Conflicts of
Interest, page 1, Standards, Section B) “Currently Represented Client.” Thus, according to the
Office of the Public Defender’s own definition of a “currently represented client,” the Public
Defender’s representation of Juror 8 ended on September 25, 2009, the date judgment was
pronounced, not the date the remittitur was read into the record. Applying the Office of the
Public Defender’s policy, Ms. Dahm’s appearance—without notice to or authorization from
Juror 8— in Department 16 to record the remittitur did not reestablish the attorney-client
relationship.
The relevant implied-bias relationship defined in CCP § 229(b) identifies a relationship in
which a potential juror would be unable to remain impartial because of his/her relationship to an
attorney (or party) in the litigation. Unlike the litany of categories in which a cause challenge

6

Scott argues that Juror 8 was so disaffected by his representation by Ms. Dahm that he was
unable to be fair in his role as a juror three years later. If that were so, it is unlikely that—if
asked—Juror 8 would have consented to representation by Ms. Dahm on May 2, 2011.
21
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0225

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 229 of 276

may be taken, the attorney-client relationship is the only one that terminates—the timeframe is
one year prior to the filing of the complaint in the instant action. The clear assumption is that
temporal proximity between a lawyer’s representation of a juror and her subsequent role in a
case could bias the juror, but that such bias dissipates quickly. Judgment in Juror 8’s case was
rendered in September 2009, more than two years before the Scott complaint was filed. That—
unbeknownst to Juror 8—Ms. Dahm appeared when the remittitur was recorded does not
resurrect the implied bias which CCP § 229(b) seeks to deter. Juror 8’s testimony—which I
found credible and persuasive—was that during the Scott trial he did not associate Scott’s
attorney with his former counsel, nor did he associate the People’s lawyer with his prosecutor.
Since Juror 8 was unaware of Ms. Dahm’s May 2 appearance—whether or not the Office of the
Public Defender was technically “in the relation of attorney and client” with Juror 8 “within one
year previous to the filing of the [Scott] complaint—there is no justification to apply CCP §
229(b) here. Therefore, I find CCP § 229(b) does not apply to the relationship between Juror 8
and Scott’s counsel, the Office of the Public Defender. Even if there were evidence—not present
here—to find that the relationship is one defined by CCP § 229(b), that alone does not resolve
the issue whether a new trial must be granted.7

7

The People argue that—even in those cases where CCP§229 (a)-(g)provides grounds for a
cause challenge, the implied prejudice is rebuttable: The first clause of section 229 provides, “A
challenge for implied bias may be taken for one or more of the following causes, and for no
other:….” (emph. added.) The use of the permissive “may” indicates a challenger can choose
whether to challenge the juror for one of the enumerated reasons (subdivisions (a) through (g)),
or waive the challenge. Nor is the trial judge required to excuse the juror. That a relationship
described in subdivisions (a) through (g) exists is not a conclusive presumption of bias. In
contrast, first clause of section 229, subdivision (h) provides, “If the offense is punishable with
death, the entertaining of such conscientious opinions as would preclude the juror finding the
defendant guilty; in which case the juror may neither be permitted nor compelled to serve.” This
subsection is the only portion of section 229 which disqualifies a person otherwise qualified to
serve from acting as a trial juror. See People v. McNabb (1935) 3 Cal.2d 441, 4527. All other
causes may be waived or rebutted. Id.
22
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0226

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 230 of 276

The implied bias standard
CCP § 229(b) is not synonymous with the limited and unusual circumstances in which
California and federal courts have granted a new trial motion after finding presumptive bias in a
juror. Olsen, at 1188-89. As the Ninth Circuit held, “implied (or presumptive) bias, [ ] may
exist in exceptional circumstances where, for example, a prospective juror has a relationship to
the crime itself or to someone involved in a trial, or has repeatedly lied about a material fact to
get on the jury.... Fields v. Brown (9th Cir. 2007) 503 F.3d 755, 766–67 (en banc) (citing
McDonough Power Equipment, Inc. v. Greenwood, 464 U.S. 548, 554–56 (1984)). ” Olsen, at
1188-89. Implied bias should be presumed only in “extreme” or “extraordinary” cases. Tinsley v.
Borg (9th Cir.1990) 895 F.2d 520, 527 (Tinsley). The Ninth Circuit has recognized implied bias
in only two contexts: first, “in those extreme situations ‘where the relationship between a
prospective juror and some aspect of the litigation is such that it is highly unlikely that the
average person could remain impartial in his deliberations under the circumstances,’ ” Fields v.
Brown, 503 F.3d at 770 (quoting Gonzalez, 214 F.3d at 1112), and second, “where repeated lies
in voir dire imply that the juror concealed material facts in order to secure a spot on the particular
jury.” Id. (citing Dyer, 151 F.3d at 982).” Olsen, at 1191-92. As to the second context, in Olsen,
the Ninth Circuit observed that the omissions by the juror in the case could “not have been
motivated by a desire to pass judgment on Olsen, because [the juror] completed and mailed in
the questionnaire over two weeks before he came to court and learned in which case he might be
selected to serve as a juror.” Id. at 1195.
This court must decide “whether ‘[the] case present[s] a relationship in which the
“potential for substantial emotional involvement, adversely affecting impartiality,” is inherent.”
United States v. Plache (9th Cir.1990) 913 F.2d 1375, 1378 (quoting Tinsley, at 527) (in turn,

23
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0227

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 231 of 276

quoting United States v. Eubanks (9th Cir. 1979) 591 F.2d 513, 517). The Ninth Circuit
cautioned in Tinsley, and reiterated in Fields, that “[p]rudence dictates that courts answering this
question should hesitate before formulating categories of relationships which bar jurors from
serving in certain types of trials.” Tinsley, at 527; Fields v. Brown (9th Cir. 2007) 503 F.3d 755,
772 (Fields). The Ninth Circuit only presumes bias as a matter of law “where the relationship
between a prospective juror and some aspect of the litigation is such that it is highly unlikely that
the average person could remain impartial in his deliberations under the circumstances.” Fields,
at 770; Olsen, at 1191-92. Typically the juror in question, or a close relative, “has had some
personal experience that is similar or identical to the fact pattern at issue in the trial.” United
States v.Gonzalez (9th Cir. 2000) 214 F.3d 1109, 1112. See, e.g., United States v. Mitchell (9th
Cir. 2009) 568 F.3d 1147, 1152–53; see also Fields, at 768–70 (describing earlier cases). Though
some individuals in this position might be able to put aside their personal experiences, they
“would be lacking the quality of indifference which, along with impartiality, is the hallmark of
an unbiased juror.” Calderon, at 982. Therefore, courts “presume[s] conclusively” that these
jurors will be affected in their deliberations by those experiences.” Id.
In March 2013, the relationship between Juror 8 and Mr. Adachi was not one of these
“exceptional circumstances” Fields, at 766–67. Olsen, at 1188-89. Nor does it present an
“extreme” or “extraordinary” case. Tinsley, at 527.
I found no evidence that Juror 8 lied about a material fact to get on the jury; his
explanation for omitting his conviction from his response to question 24 was unrelated to any
effort to be selected for the jury. As in Olson, Juror 8 completed the questionnaire weeks before
trial with no knowledge of the specific case for which he had been summoned. Question 62
inquired about his knowledge of or bias against either “Prosecutor and Assistant District

24
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0228

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 232 of 276

Attorney Todd Barrett” or “Defense lawyer and Public Defender Jeff Adachi.” As to both he
responded “NA”—a fact he confirmed in his testimony. During the Scott trial Juror 8 did not
associate either lawyer with the attorneys who defended or prosecuted him.
Nor did he have any relationship to the crime. To the extent Juror 8 had a prior
relationship with an attorney in the Office of the Public Defender, from his perspective, that
relationship ended two and one-half years before the trial. Further, as evidenced by both Ms.
Dahm’s uncontroverted testimony and her April 12, 2013 email to Mr. Adachi, Juror 8 was
cordial to her and—in Ms. Dahm’s candid view after speaking to him twice on April 12—“ He’s
a very nice guy, and I think he’d be defense friendly.” I find no facts to support a conclusion that
Juror 8’s prior relationship with or feelings about the Office of the Public Defender warrant a
finding of exceptional circumstances to warrant presumptive bias. To the contrary, the evidence
supports my finding that Juror 8 was not biased against Scott, Mr. Adachi or the Office of the
Public Defender.
McDonough Bias
I found that Juror 8’s answer to question 24 was not truthful, and therefore the court must
apply the standard for “so-called McDonough-style bias, which turns on the truthfulness of a
juror's responses on voir dire” where a truthful response “would have provided a valid basis for a
challenge for cause. Fields v. Brown, 503 F.3d 755, 766–67 (9th Cir.2007) (en banc) (citing
McDonough Power Equipment, Inc. v. Greenwood, 464 U.S. 548, 554–56, 104 S.Ct. 845, 78
L.Ed.2d 663 (1984)).” Olsen, at 1188-89.
Had Juror 8 disclosed in his questionnaire all of the information currently available, Scott
argues he would have exercised a cause challenge and, failing that, a peremptory challenge and
is therefore entitled to a new trial. The McDonough rule has been adopted and applied in appeals

25
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0229

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 233 of 276

and writs from criminal convictions: That a juror provided false information where the truth
would have lead a party to exercise a peremptory challenge is only the first step of a McDonough
analysis: “the motives for concealing information may vary, but only those reasons that affect a
juror's impartiality can truly be said to affect the fairness of a trial.” McDonough, at 555-56. In
his concurrence, joined by Justices Stevens and O’Connor, Justice Blackmun elaborated that “an
honest yet mistaken answer to a voir dire question rarely amounts to a constitutional violation;
even an intentionally dishonest answer is not fatal, so long as the falsehood does not bespeak a
lack of impartiality. See McDonough Power Equip. v. Greenwood, 464 U.S. 548, 555-56
(1984).” Calderon, at 973. Further, Justice Blackmun noted that, “regardless of whether a juror's
answer is honest or dishonest, it remains within a trial court's option, in determining whether a
jury was biased, to order a post-trial hearing at which the movant has the opportunity to
demonstrate actual bias or, in exceptional circumstances, that the facts are such that bias is to be
inferred.” McDonough, at 556-57.
Based on my thorough review and consideration of all of the evidence, I do not find any
evidence that Juror 8 harbored bias or prejudice against Scott, his attorney or, for that matter,
against the People or the Office of District Attorney, which prosecuted him in 2009. There is no
evidence of a lack of impartiality and “there is no reasonable probability of prejudice, i.e. no
substantial likelihood that [Juror 8] …was actually biased against the defendant.”
Boyette, at 888-90.
For all of the reasons stated above, the Juror Motion for New Trial pursuant to Penal
Code § 1181(3) is denied.

26
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0230

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 234 of 276

Evidence New Trial Motion
Scott also seeks a new trial pursuant to Penal Code § 1181 (5), (6) and (8) on the grounds
of insufficiency of the evidence, erroneously admitted evidence, and newly-discovered
evidence—specifically a witness, Eugene Lemelle (also known as “Bubble” or “Bubba”)
(collectively, the “Evidence New Trial Motion”).
Sufficiency of Evidence Penal Code § 1181 (6)
In deciding the motion challenging the sufficiency of the evidence, I must independently
review the evidence (People v. Davis (1995) 10 Cal.4th 463, 523), but I have broad discretion to
determine whether the evidence has sufficient probative value to sustain the verdict of first
degree murder. People v. Ruberg (1953) 41 Cal.2d 628, 633.
Lying-in-wait murder
The defendant is guilty of first degree murder if the People have proved that the
defendant murdered while lying in wait or immediately thereafter. The defendant
murdered by lying in wait if: 1. He concealed his purpose from the person killed;
2. He waited and watched for an opportunity to act; AND 3. Then, from a position
of advantage, he intended to and did make a surprise attack on the person killed.
The lying in wait does not need to continue for any particular period of time, but
its duration must be substantial enough to show a state of mind equivalent to
deliberation or premeditation.
Judicial Council of California Criminal Jury Instructions: CALCRIM (2013) (hereinafter
“CALCRIM”), CALCRIM No. 521.
Scott testified and thereby supplied evidence in support of the verdict. According to
Scott, Smith had jolted him out of his sleep, which angered and upset him. Smith departed, but
returned. From the video it appears that seven seconds elapsed from the time that Smith
approached and Scott stabbed him. Pavao testified that he saw Smith pass through the area twice.
On the second pass Pavao saw Scott suddenly rise, speak and attack. These facts support a sneak
attack, which was concealed until it was too late for Smith to avoid it. From the evidence it
27
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0231

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 235 of 276

appears that the attack was executed in a quick and calculated manner—which is consistent with
Pavao’s testimony and not inconsistent with Scott’s. Pavao saw Scott quickly rise from his seat
and—he thought—punch Smith. Almost simultaneous with the blow Pavao heard Scott say
words to the effect of “you’ll never steal from me again.” What Pavao interpreted to be a punch
was in fact a single blow by the defendant with the knife. Pavao did not see the knife until after
the stabbing had taken place. This evidence is consistent with defendant having concealed his
purpose from Smith and made a surprise attack. Neither Scott nor Pavao testified to any verbal
warning to Smith that Scott possessed a knife. Nor did either of them testify that Smith initiated
any punches, kicks or swings. Shelter staff testified that, when they heard the words “fight” they
immediately looked up and saw Smith who had already been stabbed and was fleeing from Scott.
This, too, is consistent with Scott having perpetrated a surprise attack from a position of
advantage. Scott testified that he did not see any type of weapon in Smith’s hand before he
stabbed Smith. However, Scott had two knives in his possession, one of which he used to stab
Smith. The testimony of Dr. Judy Melinek concerning the lack of defensive wounds supports the
theory that the victim was taken by surprise, before he had a chance to defend himself.
Premeditation and Deliberation
The defendant is guilty of first degree murder if the People have proved that he acted willfully,
deliberately, and with premeditation. The defendant acted willfully if he intended to kill. The
defendant acted deliberately if he carefully weighed the considerations for and against his choice
and, knowing the consequences, decided to kill. The defendant acted with premeditation if he
decided to kill before completing the act that caused death.
The length of time the person spends considering whether to kill does not alone determine
whether the killing is deliberate and premeditated. The amount of time required for deliberation
and premeditation may vary from person to person and according to the circumstances. A
decision to kill made rashly, impulsively, or without careful consideration is not deliberate and
premeditated. On the other hand, a cold, calculated decision to kill can be reached quickly. The
test is the extent of the reflection, not the length of time.

28
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0232

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 236 of 276

CALCRIM No. 521.
As the jury instruction makes clear, the length of time is not the test; a cold, calculated
decision to kill can be reached quickly. Here there is evidence to support a finding that Scott
decided to kill after Smith made the first pass through the room. Scott testified that he was upset
with the victim over a perceived slight occurring during Smith’s first pass, namely bumping into
Scott as he slept. He also testified to a prior negative interaction with Smith at another homeless
shelter. Approximately 10 minutes passed between Scott first becoming aware of Smith’s
presence in the first pass and the stabbing during Smith’s second pass. During the 10 minute
interval Scott could have considered and reflected on whether to use a knife, which of the two
knives to use, and whether to murder Smith. Pavao’s testimony that Scott said “you’ll never
steal again,” before stabbing Smith is consistent with his having a motive to avenge what he
perceived to be a prior slight. The evidence is consistent with Scott having decided to stab Smith
after the first pass, but waiting until Smith returned, ten minutes later in the second pass. Further,
the video demonstrates that there was a seven second gap where Smith was standing in the area
near the television before walking near defendant. In that period there was sufficient time for
defendant to ready his weapon after making the decision to kill Smith.
Having independently reviewed all of the evidence, including but not limited to the
testimony of Scott, I find sufficient evidence to support the verdict of murder in the first degree
on both the theory of lying in wait and the theory of premeditation and deliberation. Therefore
the motion for a new trial pursuant to Penal Code § 1181 (6) is denied.

29
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0233

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 237 of 276

Admission of the second knife Penal Code § 1181 (5)
The defendant claims admitting the second knife—a black-handled, fixed-blade kitchen
knife8—was prejudicial error. Scott narrowly circumscribes—in a manner inconsistent with the
record—the evidentiary basis for overruling his motion in limine to exclude the knife. It is
undisputed that—in violation of the long-standing prohibition against weapons in the shelter—
Scott concealed two weapons to circumvent the shelter’s metal detector and had them both in his
possession at the time he stabbed Smith. The second knife easily meets the low threshold for
relevance and admissibility. Evidence Code § 350, 351. The issue was whether: “its probative
value is substantially outweighed by the probability that its admission will (a) necessitate undue
consumption of time or (b) create substantial danger of undue prejudice, of confusing the issues,
or of misleading the jury?” California Evidence Code § 352. Accordingly, the court conducted
the prerequisite balancing, answered the questions in the negative and admitted the second knife.
As he did at trial, Scott relies principally on two clearly distinguishable cases: People v.
Riser (1956) 47 Cal.2d 566 [no evidence at the time of incident defendant possessed weapons,
which were not found until two week after crime] and People v. Henderson (1976) 58
Cal.App.3d 349 [loaded firearm was in a completely different room in defendant’s house].
The second knife’s probative value is self-evident, supporting numerous elements of the
People’s case: defendant’s knowledge of his superior weapon power to defeat a claim of selfdefense; his lying-in-wait ready to attack from a position of advantage; his decision to take on
the victim, knowing he had two deadly weapons at his disposal in support of premeditation and
deliberation; corroboration of James Joyner’s testimony that he saw defendant with a blackhandled steak knife in his hand shortly after the stabbing; corroboration of Pavao’s statement that
8

The black-handled fixed-blade knife is different from the undisputed murder weapon: a brown
handled folding knife.
30
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0234

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 238 of 276

he saw the defendant pick up a fixed-blade boning kitchen knife after the stabbing; impeachment
of Scott’s testimony that he never took the second knife out of his bag; and Scott’s hiding both
knives (the folding knife thrown on a roof; the second knife, with Scott’s DNA secreted in a
discarded bag) as consciousness of guilt.
Conducting the Evidence § 352 analysis, while recognizing the second knife to be
adverse to Scott, the court concluded that under the circumstances it was not unduly prejudicial,
confusing or misleading, nor was its admission unduly time-consuming. People v. Schrader
(1969) 71 Cal.2d 761, 773-74.
In People v. Jablonski (2006) 37 Cal.4th 774, over defendant’s objection, the court
admitted handcuffs and a stun gun.

The California Supreme Court held that, “premeditation

was a disputed fact and evidence that defendant carried devices to the crime scene that could
have been used to restrain or immobilize the victims was relevant to premeditation.” (Id.; see
also People v. Anderson (1968) 70 Cal.2d 15, 26-27 [where the California Supreme Court found
that evidence of planning activity is pertinent to the determination of premeditation and
deliberation.]; People v. Smith (2003) 30 Cal.4th 581, 613 (Smith)9 [where the California
Supreme Court found that the trial court did not err in admitting evidence that defendant owned a
derringer and ammunition not used in the murder because “[t]his evidence did not merely show
that defendant was the sort of person who carries deadly weapons, but it was relevant to his state
of mind when he shot [the victim]”].)
The second knife was properly admitted in evidence; the motion for new trial pursuant to
Penal Code § 1181 (5) is denied.
“Newly discovered” evidence Penal Code § 1181 (8)
9

In Smith the defendant argued that the trial court erred in light of Riser; the California
Supreme Court disagreed. Smith, at 613.
31
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0235

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 239 of 276

Scott also seeks a new trial, pursuant to Penal Code § 1181 (8) and offers the declaration
of Eugene Lemelle (also known as “Bubble” or “Bubba”; hereinafter the “Lemelle Declaration”),
an eyewitness to the incident, as the newly-discovered evidence in support. When considering a
new trial motion, a trial court has discretion to grant a new trial on the ground of newly
discovered material evidence only when all of the following elements are met: (1) the evidence,
and not merely its materiality, must be newly discovered; (2) the evidence must not be
cumulative; (3) the evidence must be such as to render a different result probable on a retrial of
the cause; (4) the party could not with reasonable diligence have discovered and produced the
evidence at trial; and (5) that these facts be shown by the best evidence of which the case admits.
Penal Code § 1181 (8). People v. Sutton (1887) 73 Cal. 243, 247-248 (Sutton); People v. Turner
(1994) 8 Cal.4th 137, 212 (Turner); People v. Delgado (1993)5 Cal.4th 312, 328 (Delgado);
People v. Dyer (1988) 45 Cal.3d 26, 50 (Dyer).
Newly-discovered evidence
A motion for a new trial based on newly discovered evidence must establish that the
evidence, and not just its materiality, is newly discovered. Facts that are within the defendant’s
knowledge are not newly discovered evidence, even if he did not make them known to his
counsel until later. People v. Greenwood (1957) 47 Cal.2d 819, 822. Here, it is undisputed from
Scott’s own testimony that he knew on February 6, 2012, that Lemelle was a percipient witness.
(April 3, 2013 transcript, pages 16, 24, 33, 71). Scott testified that he spoke to Bubba (Lemelle)
just before the stabbing, and afterwards Lemelle told Scott to pick up the knife. (April 3, 2013
transcript at pages 24, 33) According to the Lemelle Declaration, the defense investigator
contacted Lemelle on April 5, 2013—before jury instruction or closing arguments.

32
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0236

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 240 of 276

That the defense did not interview Lemelle until after the trial concluded does not satisfy
the prerequisite that evidence must be newly discovered. While the Lemelle Declaration states
that he was first interviewed by Scott’s investigator on April 5, 2013, conspicuously absent from
Scott’s motion is any evidence as to when Lemelle’s identity was first known, and any
explanation for the failure to pursue potential evidence the existence of which was known to
Scott from the time of the incident. Therefore the evidence contained in the Lemelle Declaration
is not newly discovered.
Non-cumulative evidence, such as to render a different result probable on retrial
Second, newly-discovered evidence must not only be material, but not cumulative to
warrant granting a new trial. And, third, the evidence must be such as to render a different result
probable on a retrial of the cause. Sutton, at 247-248; Turner, at 212; Delgado, at 328; Dyer, at
50.
Scott argues that Lemelle’s statement that “Smith was underneath the television spinning
and twirling around in an erratic and aggressive fashion” and that he “…saw Abdul Smith charge
through the chairs at Rickey Smith and attack Scott” is new evidence “since no other witnesses
testified to the events preceding the stabbing except for the prosecution witness Whitey Pavao.”
However, Scott himself testified to events that preceded the stabbing. To the extent that Lemelle
would merely corroborate Scott, while the evidence may add weight, it is cumulative.
However, in other respects the Lemelle Declaration is contradicted by Scott’s own testimony.
While the Lemelle Declaration (which presumably was not drafted by Lemelle) states that he
saw Smith “attack” Scott, that word—or any synonym—is absent from Scott’s own description
of the events. For example on direct examination, Scott testified:
Q. Okay. Did Abdul Smith ever stop walking towards you?

33
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0237

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 241 of 276

22 A. No. (April 3, 2013 transcript at 29.)
Scott testified that Smith was “coming towards me” (April 3, 2013 transcript at page 45, line 7)
but—unlike Lemelle—Scott did not testify that Smith “charged” at him or that Smith
“attack[ed]” him. Further, Scott admitted on cross examination that the first time he mentioned to
anyone that Smith acted aggressively towards him was when he met with defense counsel:
Q:

You didn’t tell anyone from the shelter that Mr. Smith had engaged in an

aggressive act against you?
A.

I hadn’t told anyone until I met Mr. Adachi. (April 3, 2013 transcript, page 74 at

lines 21-23).
Whether or not the Lemelle testimony is cumulative, to warrant a new trial it must also be
such as to render a different result probable on a retrial of the cause. Sutton, at 247-248; Turner,
at 212; Delgado, at 328; Dyer, at 50; People v. Drake (1992) 6 Cal.App.4th 92, 99.
The defense theory—which Scott argued, and the jury rejected—was that Scott pulled the
knife in self-defense and thereafter Smith fell on the knife: an accident. A claim of self-defense
focuses on what the defendant himself believed:
The defendant is not guilty of murder if he was justified in killing someone in selfdefense. The defendant acted in lawful self-defense if:
1. The defendant reasonably believed that he was in imminent danger of being
killed or suffering great bodily injury;
2. The defendant reasonably believed that the immediate use of deadly force
was necessary to defend against that danger; AND
3. The defendant used no more force than was reasonably necessary to defend
against that danger.
(emphasis added) CALCRIM No. 505.
Lemelle’s proffered evidence cannot substitute for the absence from Scott’s testimony of
a factual predicate to support his reasonable belief that he was in imminent danger of being
killed or suffering great bodily injury. Scott did not testify that Smith had any weapon, nor does
34
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0238

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 242 of 276

Lemelle provide that evidence. Nor can Lemelle provide any evidence to support a claim that
Scott reasonably believed that the immediate use of deadly force was necessary to defend
against that danger. Like Scott, Lemelle would not testify that Smith had any weapon which
required the immediate use of deadly force for defense.
Given the theory of the defense and Scott’s own testimony, after reviewing all of the
record evidence while considering this motion, I do not find that the admission of Lemelle’s
testimony would render a different result probable on a retrial of the cause. To the extent that the
Lemelle Declaration is not merely cumulative, it is either inconsistent with or contradicted by
evidence on which the defense relies. As noted above, Scott did not testify that Smith attacked
him. The video upon which the defense relied repeatedly during trial and closing argument, does
not depict Smith’s “twirling” which presumably lasted longer than the few seconds which are not
depicted in the video. The defense argues that Lemelle’s credibility is a jury issue, which would
have been accurate had Lemelle testified. However on a new trial motion the court must consider
whether the evidence is such that a different result is probable. That inquiry necessarily entails
considering whether the testimony if presented at a new trial would be persuasive. That Lemelle
failed to come forward on the night of the incident or to provide the evidence to anyone until
after the trial is a factor which may reduce the weight the jury would accord it. Similarly if his
stated reluctance to provide the evidence on April 4 was due to a drug arrest and that fact were to
be elicited, that, too, could reduce the probative value of the testimony and diminish the
likelihood of a different result in a new trial.

Therefore the proffered evidence fails to meet

these two prerequisites for granting a new trial.

35
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0239

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 243 of 276

Reasonable diligence
A defendant relying “on ground of newly discovered evidence to sustain his motion for
new trial must have made reasonable effort to produce all his evidence at trial, and he will not be
allowed new trial for purpose of introducing evidence known to him and obtainable at time of
trial, or which would have been known to him had he exercised reasonable effort to present his
defense.” (People v. Williams (1962) 57 Cal.2d 263, 273.) The crime in this case occurred on
February 6, 2012. Scott testified that Bubba (Lemelle) was present and an eyewitness to the
incident. (April 3, 2013 transcript at pages 16, 24, 33 and 71). Scott provides no evidence as to
why no effort was made to interview Lemelle before April 5, or to subpoena him to testify at the
preliminary hearing and/or trial. The preliminary hearing concluded on December 10, 2012, the
opening statements in the trial were made March 25, 2013. There is no evidence that the defense
served a subpoena on Lemelle, although his identity and presence at the incident were known to
Scott on February 6, 2012—more than a year before trial. Nor did the defendant request a
continuance of the trial for the purpose of presenting this witness.
Scott is not excused from using reasonable diligence to secure an identified witness by
awaiting a verdict before seeking to introduce the testimony, and then asserting in a new trial
motion merely that Lemelle’s concerns about his own case precluded interviewing and calling
him to testify. Had Lemelle been subpoenaed, the court and counsel would know whether he
would have invoked his Fifth Amendment right against compelled self-incrimination. If so, the
court could have conducted an inquiry outside the jury’s presence to determine the legitimacy of
Lemelle’s invocation of the privilege and fashioned an appropriate remedy. People v. Lopez
(1999) 71 Cal.App.4th 1550, 1555-56.

36
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0240

Case: 18-16761, 04/01/2019, ID: 11249227, DktEntry: 15, Page 244 of 276

Under the circumstances, I do not find the delay in locating or interviewing the witness or
proffering the evidence to be reasonably diligent. A defendant’s failure to diligently pursue and
to present evidence to demonstrate its truth and materiality, is inconsistent with granting a new
trial motion. A motion for a new trial based on newly discovered evidence is disfavored.
(People v. McDaniel (1976) 16 Cal.3d 156, 179.) Because the proffer of Eugene Lemelle is
deficient for all of the stated reasons, Scott’s motion for a new trial pursuant to Penal Code
1181(8) is denied.
Conclusion
After hearing and evaluating all of the evidence and considering all of the written and
oral arguments, for the reasons set forth above, the Motions for New Trial pursuant to Penal
Code §§ 1181(3), (5),(6) and(8) are denied.

DATE: September 24, 2013

/s/ Jeffrey S. Ross
JEFFREY S. ROSS
Judge of the Superior Court

37
Order Denying Motions for New Trial, Penal Code § 1181(3), (5),(6) and(8)
SER0241

APPENDIX E

Case: 18-16761, 08/14/2020, ID: 11789278, DktEntry: 42, Page 1 of 1

FILED
AUG 14 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

RICKEY LEON SCOTT,
Petitioner-Appellee,

No.

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

18-16761

v.

D.C. No. 4:16-cv-06584-JST
Northern District of California,
San Francisco

ERIC ARNOLD, Warden, of California
State Prison, Solano,

ORDER

Respondent-Appellant.

Before: MELLOY,* BYBEE, and N.R. SMITH, Circuit Judges.
The panel recommended denying the petition for rehearing en banc.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App.
P. 35.
Appellee’s petition for rehearing en banc, filed July 6, 2020, is DENIED.

*

The Honorable Michael J. Melloy, United States Circuit Judge for the
U.S. Court of Appeals for the Eighth Circuit, sitting by designation.

APPENDIX F

The Sixth Amendment to the United States Constitution provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and district wherein the crime shall have
been committed, which district shall have been previously ascertained by law, and
to be informed of the nature and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defence.
28 U.S.C. § 2254 provides:
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district court shall
entertain an application for a writ of habeas corpus in behalf of a person in custody
pursuant to the judgment of a State court only on the ground that he is in custody
in violation of the Constitution or laws or treaties of the United States.
(b)(1) An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted unless it appears
that—
(A) the applicant has exhausted the remedies available in the courts of the State; or
(B)(i) there is an absence of available State corrective process; or
(ii) circumstances exist that render such process ineffective to protect the rights of
the applicant.
(2) An application for a writ of habeas corpus may be denied on the merits,
notwithstanding the failure of the applicant to exhaust the remedies available in
the courts of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement or be
estopped from reliance upon the requirement unless the State, through counsel,
expressly waives the requirement.
(c) An applicant shall not be deemed to have exhausted the remedies available in
the courts of the State, within the meaning of this section, if he has the right under
the law of the State to raise, by any available procedure, the question presented.
(d) An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim—

(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme Court
of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
(e)(1) In a proceeding instituted by an application for a writ of habeas corpus by a
person in custody pursuant to the judgment of a State court, a determination of a
factual issue made by a State court shall be presumed to be correct. The applicant
shall have the burden of rebutting the presumption of correctness by clear and
convincing evidence.
(2) If the applicant has failed to develop the factual basis of a claim in State court
proceedings, the court shall not hold an evidentiary hearing on the claim unless the
applicant shows that-(A) the claim relies on—
(i) a new rule of constitutional law, made retroactive to cases on collateral review by
the Supreme Court, that was previously unavailable; or
(ii) a factual predicate that could not have been previously discovered through the
exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and
convincing evidence that but for constitutional error, no reasonable factfinder would
have found the applicant guilty of the underlying offense.
(f) If the applicant challenges the sufficiency of the evidence adduced in such State
court proceeding to support the State court's determination of a factual issue made
therein, the applicant, if able, shall produce that part of the record pertinent to a
determination of the sufficiency of the evidence to support such determination. If
the applicant, because of indigency or other reason is unable to produce such part of
the record, then the State shall produce such part of the record and the Federal
court shall direct the State to do so by order directed to an appropriate State
official. If the State cannot provide such pertinent part of the record, then the court
shall determine under the existing facts and circumstances what weight shall be
given to the State court's factual determination.
(g) A copy of the official records of the State court, duly certified by the clerk of such
court to be a true and correct copy of a finding, judicial opinion, or other reliable
written indicia showing such a factual determination by the State court shall be
admissible in the Federal court proceeding.

(h) Except as provided in section 408 of the Controlled Substances Act, in all
proceedings brought under this section, and any subsequent proceedings on review,
the court may appoint counsel for an applicant who is or becomes financially unable
to afford counsel, except as provided by a rule promulgated by the Supreme Court
pursuant to statutory authority. Appointment of counsel under this section shall be
governed by section 3006A of title 18.
(i) The ineffectiveness or incompetence of counsel during Federal or State collateral
post-conviction proceedings shall not be a ground for relief in a proceeding arising
under section 2254.

California Code of Civil Procedure § 225 provides:
A challenge is an objection made to the trial jurors that may be taken by any party
to the action, and is of the following classes and types:
(a) A challenge to the trial jury panel for cause.
(1) A challenge to the panel may only be taken before a trial jury is sworn. The
challenge shall be reduced to writing, and shall plainly and distinctly state the facts
constituting the ground of challenge.
(2) Reasonable notice of the challenge to the jury panel shall be given to all parties
and to the jury commissioner, by service of a copy thereof.
(3) The jury commissioner shall be permitted the services of legal counsel in
connection with challenges to the jury panel.
(b) A challenge to a prospective juror by either:
(1) A challenge for cause, for one of the following reasons:
(A) General disqualification—that the juror is disqualified from serving in the
action on trial.
(B) Implied bias—as, when the existence of the facts as ascertained, in judgment of
law disqualifies the juror.
(C) Actual bias—the existence of a state of mind on the part of the juror in reference
to the case, or to any of the parties, which will prevent the juror from acting with
entire impartiality, and without prejudice to the substantial rights of any party.
(2) A peremptory challenge to a prospective juror.

California Code of Civil Procedure § 229 provides:

A challenge for implied bias may be taken for one or more of the following causes,
and for no other:
(a) Consanguinity or affinity within the fourth degree to any party, to an officer of a
corporation which is a party, or to any alleged witness or victim in the case at bar.
(b) Standing in the relation of, or being the parent, spouse, or child of one who
stands in the relation of, guardian and ward, conservator and conservatee, master
and servant, employer and clerk, landlord and tenant, principal and agent, or
debtor and creditor, to either party or to an officer of a corporation which is a party,
or being a member of the family of either party; or a partner in business with either
party; or surety on any bond or obligation for either party, or being the holder of
bonds or shares of capital stock of a corporation which is a party; or having stood
within one year previous to the filing of the complaint in the action in the relation of
attorney and client with either party or with the attorney for either party. A
depositor of a bank or a holder of a savings account in a savings and loan
association shall not be deemed a creditor of that bank or savings and loan
association for the purpose of this paragraph solely by reason of his or her being a
depositor or account holder.
(c) Having served as a trial or grand juror or on a jury of inquest in a civil or
criminal action or been a witness on a previous or pending trial between the same
parties, or involving the same specific offense or cause of action; or having served as
a trial or grand juror or on a jury within one year previously in any criminal or civil
action or proceeding in which either party was the plaintiff or defendant or in a
criminal action where either party was the defendant.
(d) Interest on the part of the juror in the event of the action, or in the main
question involved in the action, except his or her interest as a member or citizen or
taxpayer of a county, city and county, incorporated city or town, or other political
subdivision of a county, or municipal water district.
(e) Having an unqualified opinion or belief as to the merits of the action founded
upon knowledge of its material facts or of some of them.
(f) The existence of a state of mind in the juror evincing enmity against, or bias
towards, either party.

(g) That the juror is party to an action pending in the court for which he or she is
drawn and which action is set for trial before the panel of which the juror is a
member.
(h) If the offense charged is punishable with death, the entertaining of such
conscientious opinions as would preclude the juror finding the defendant guilty; in
which case the juror may neither be permitted nor compelled to serve.

